<html>
<title> - U.S. STRATEGY IN AFGHANISTAN</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                      U.S. STRATEGY IN AFGHANISTAN

=======================================================================

                                HEARINGS

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                        DECEMBER 2 AND 10, 2009

                               __________

                           Serial No. 111-78

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
53-829                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5730273817342224233f323b277934383a79">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER,                       DONALD A. MANZULLO, Illinois
    Florida<greek-l>Until 1/4/       EDWARD R. ROYCE, California
    10 deg.                          RON PAUL, Texas
ELIOT L. ENGEL, New York             JEFF FLAKE, Arizona
BILL DELAHUNT, Massachusetts         MIKE PENCE, Indiana
GREGORY W. MEEKS, New York           JOE WILSON, South Carolina
DIANE E. WATSON, California          JOHN BOOZMAN, Arkansas
RUSS CARNAHAN, Missouri              J. GRESHAM BARRETT, South Carolina
ALBIO SIRES, New Jersey              CONNIE MACK, Florida
GERALD E. CONNOLLY, Virginia         JEFF FORTENBERRY, Nebraska
MICHAEL E. McMAHON, New York         MICHAEL T. McCAUL, Texas
JOHN S. TANNER, Tennessee            TED POE, Texas
GENE GREEN, Texas                    BOB INGLIS, South Carolina
LYNN WOOLSEY, California             GUS BILIRAKIS, Florida
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                Jasmeet Ahuja, Professional Staff Member
        Genell Brown, Senior Staff Associate/Hearing Coordinator


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES
                               December 2

The Honorable Hillary Rodham Clinton, Secretary of State, U.S. 
  Department of State............................................     5
The Honorable Robert M. Gates, Secretary of Defense, U.S. 
  Department of Defense..........................................    14
Admiral Michael G. Mullen, USN, Chairman, Joint Chiefs of Staff..    20

                              December 10

The Honorable Karl W. Eikenberry, U.S. Ambassador to Afghanistan, 
  U.S. Department of State.......................................    67
Lieutenant General Stanley A. McChrystal, Commander, 
  International Security Assistance Force (ISAF) and Commander, 
  U.S. Forces Afghanistan (USFOR-A), U.S. Department of Defense..    86

         LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARINGS
                               December 2

The Honorable Hillary Rodham Clinton: Prepared statement.........     8
The Honorable Robert M. Gates: Prepared statement................    16
Admiral Michael G. Mullen, USN: Prepared statement...............    23

                              December 10

The Honorable Karl W. Eikenberry: Prepared statement.............    70
Lieutenant General Stanley A. McChrystal: Prepared statement.....    90

                                APPENDIX
                               December 2

Hearing notice...................................................   132
Hearing minutes..................................................   133
The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California, and Chairman, Committee on Foreign 
  Affairs: Prepared statement....................................   135
The Honorable John Boozman, a Representative in Congress from the 
  State of Arkansas: Prepared statement..........................   136
The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa, and Chairman, Subcommittee on Asia, the 
  Pacific and the Global Environment: Prepared statement.........   137
The Honorable Gus Bilirakis, a Representative in Congress from 
  the State of Florida: Prepared statement.......................   139
The Honorable Diane E. Watson, a Representative in Congress from 
  the State of California: Prepared statement....................   140
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the State of Virginia: Prepared statement.................   141
The Honorable John S. Tanner, a Representative in Congress from 
  the State of Tennessee: Prepared statement.....................   143
The Honorable Gene Green, a Representative in Congress from the 
  State of Texas: Prepared statement.............................   145
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas: Prepared statement....................   146
The Honorable Ron Klein, a Representative in Congress from the 
  State of Florida: Prepared statement...........................   149
Questions submitted for the record by the Honorable Barbara Lee, 
  a Representative in Congress from the State of California, and 
  responses from:
  The Honorable Hillary Rodham Clinton...........................   151
  The Honorable Robert M. Gates and Admiral Michael G. Mullen, 
    USN..........................................................   155
Questions submitted for the record by the Honorable Gus Bilirakis 
  and responses from:
  The Honorable Hillary Rodham Clinton...........................   167
  The Honorable Robert M. Gates and Admiral Michael G. Mullen, 
    USN..........................................................   170
Questions submitted for the record by the Honorable Sheila 
  Jackson Lee and responses from:
  The Honorable Hillary Rodham Clinton...........................   177
  The Honorable Robert M. Gates..................................   180
  Admiral Michael G. Mullen, USN.................................   184
Questions submitted for the record by the Honorable Jim Costa, a 
  Representative in Congress from the State of California, and 
  responses from:
  The Honorable Hillary Rodham Clinton...........................   189

                              December 10

Hearing notice...................................................   191
Hearing minutes..................................................   192
The Honorable Howard L. Berman: Prepared statement...............   194
The Honorable Ron Paul, a Representative in Congress from the 
  State of Texas: Prepared statement.............................   196
The Honorable Diane E. Watson....................................   198
The Honorable Joe Wilson, a Representative in Congress from the 
  State of South Carolina: Prepared statement....................   199
The Honorable Sheila Jackson Lee: Prepared statement.............   200
Questions submitted for the record by the Honorable Michael E. 
  McMahon, a Representative in Congress from the State of New 
  York, and responses from:
  The Honorable Karl W. Eikenberry...............................   206
  Lieutenant General Stanley A. McChrystal.......................   207
Questions submitted for the record by the Honorable Ileana Ros-
  Lehtinen, a Representative in Congress from the State of 
  Florida, and responses from:
  The Honorable Karl W. Eikenberry...............................   209
  Lieutenant General Stanley A. McChrystal.......................   212
Questions submitted for the record by the Honorable Christopher 
  H. Smith, a Representative in Congress from the State of New 
  Jersey, and responses from:
  The Honorable Karl W. Eikenberry...............................   214
  Lieutenant General Stanley A. McChrystal.......................   220


                  U.S. STRATEGY IN AFGHANISTAN, PART I

                              ----------                              


                      WEDNESDAY, DECEMBER 2, 2009

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:30 p.m., in 
room 2172, Rayburn House Office Building, Hon. Howard L. Berman 
(chairman of the committee) presiding.
    Chairman Berman. The committee will come to order.
    Before beginning my opening statement, I would like to make 
several brief announcements. As most of you know, our 
colleague, Robert Wexler, will resign from Congress at the end 
of this year to become president of the Center for Middle East 
Peace and Economic Cooperation. Effective today he is resigning 
as chairman of the Subcommittee on Europe, and he will be 
succeeded in that position by Bill Delahunt. Looking at Bill 
Delahunt you would think he is going to be focused on old 
Europe, but he is going to be focused on old and new Europe.
    Russ Carnahan will serve as the new chairman of the 
International Organizations, Human Rights<greek-l>, deg. and 
Oversight Subcommittee, following in the footsteps, believe it 
or not, of his grandfather, who chaired the same subcommittee 
in the 85th Congress, a contemporary of Bill's.
    We thank Bob for his service in the Congress on this 
committee, a very good friend to many of us, and wish all three 
of our colleagues the best of luck in their new positions.
    Second, I want to welcome the Prime Minister of Hungary 
Gordon Bajnai, who is here with us today. Hungary is one of our 
staunchest allies, and I want to thank the Prime Minister for 
his country's leadership of the Provincial Reconstruction Team 
in Baghlan Province in Afghanistan and for the brave men and 
women of Hungary who are serving there.
    Welcome, Mr. Prime Minister.
    Finally, given the time constraints on the witnesses, they 
must leave at 4:15 wherever we are, and to ensure that as many 
members as possible have a chance to ask questions, we will 
limit opening statements to myself and the ranking member. And 
I will not be taking all of my time. And without objection, all 
other members may submit written statements for the record.
    And now I will recognize myself for an opening statement.
    Last night President Obama spoke eloquently to the Nation 
about his plan of action in Afghanistan. Today we are pleased 
to welcome three senior officials to testify on the President's 
proposed strategy: Secretary of State Hillary Rodham Clinton, 
Secretary of Defense Robert Gates and Chairman of the Joint 
Chiefs of Staff Admiral Michael Mullen. We greatly appreciate 
your participation.
    As the President stated, it is clear that the United States 
has <greek-l>a  deg.vital national security interests at stake 
in Afghanistan and Pakistan. Determining the best policy to 
serve those interests is the most difficult foreign policy 
challenge before this President, before this Congress, and 
before the American people. It is a situation with no easy 
answers and no predictable outcomes.
    Our goal in the region, as defined by the President, is to 
``disrupt, dismantle and defeat al-Qaeda in Afghanistan and 
Pakistan, and to prevent its capacity to threaten America and 
our allies in the future.'' Many news reports suggest that 
there was a healthy debate in the administration about whether 
this critical objective could be met by pursuing a targeted 
counterterrorism strategy as opposed to a more extensive and 
robust counterinsurgency strategy.
    Could the United States succeed in Afghanistan by employing 
relatively small numbers of Special Operations Forces and high-
tech weapons systems to disrupt and defeat al-Qaeda and reverse 
the Taliban's momentum while also accelerating the training of 
Afghan security forces? Or does the deteriorating security 
situation in Afghanistan call for a more ambitious strategy--
one that includes military, political, and economic 
dimensions--to protect the people of Afghanistan and instill 
confidence in that country's fragile national government? If we 
pursue the latter approach, then, as the President indicated, 
success will hinge on a substantial deployment of civilian 
resources.
    The President also noted that success in Afghanistan is 
dependent on what he referred to as ``an effective partnership 
with Pakistan.'' What more will we expect Pakistan to do that 
they are not already doing? What more will the U.S. have to do 
to nurture that important relationship?
    And finally, is the full cost of our efforts in both 
Afghanistan and Pakistan, in terms of military and civilian 
resources, something we can afford and are willing to pay?
    The President took the time to consult carefully with his 
generals, his diplomats, his national security team, and 
numerous others to form a complete picture of the situation in 
Afghanistan.
    Now begins the deliberative period for Congress and the 
people we represent. Now is the time for us to evaluate the 
strategy, to test its coherence, and to raise the questions 
that will examine the assumptions on which it is based. We 
cannot shirk our responsibility to ask the tough question; the 
stakes are simply too high.
    I now turn to the ranking member, Ms. Ros-Lehtinen, for any 
opening remarks she would like to make. And following that we 
will proceed immediately to the testimony of our distinguished 
witnesses.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    And before I begin my opening remarks, I wanted to state 
for the record and inform our distinguished witnesses today 
that our colleague Mr. Manzullo is unable to be at the hearing 
today because he is at a briefing that Senator Durbin is 
hosting on bringing Gitmo detainees to Thomson in Illinois. Mr. 
Manzullo will make every effort to join today's hearing 
following the conclusion of the briefing on Gitmo detainee 
transfers. Thank you, Mr. Chairman.
    Our security and vital interests are at stake in 
Afghanistan. As the President said in his speech last night, 
``This is no idle danger, no hypothetical threat. This danger 
will only grow if the region slides backwards and al-Qaeda can 
operate with impunity.''
    Our brave men and women in uniform understand this reality 
and stand ready for duty. They embrace the opportunity to 
defend our Nation and protect our homeland by defeating the 
enemy in a convincing manner so that they cannot ever again 
rise against us. It is our obligation to provide them and all 
of our personnel on the ground with the support and the 
resources necessary to win the war in Afghanistan and prevail 
against al-Qaeda, the Taliban and other militants.
    I am, however, concerned that before the strategy has been 
implemented, the President has placed a deadline on our 
commitment and a timeline for the withdrawal of our troops. 
What message does this telegraph to the enemy? How does it 
impact the morale of our troops and the mind-set of our Afghan 
counterparts and our other allies in this effort?
    This is a fight that we cannot afford to lose. General 
McChrystal wrote on August 30th that the next 12 months are 
critical, yet one-quarter of that time is already gone. As 
President John F. Kennedy said, and I quote, ``There are risks 
and costs to action, but they are far less than the long-range 
risk of comfortable inaction.'' Now that the President has 
articulated the administration's approach toward Afghanistan, 
we must fully commit to doing everything possible to succeed 
there.
    I ask that our distinguished witnesses address the 
following: What are the key differences between the strategy 
that the President articulated yesterday and those that he 
articulated last March? What action is the administration 
taking to ensure that those who have pledged to provide 
multilateral and bilateral assistance to Afghanistan actually 
fulfill their commitments?
    And, Secretary Clinton, what is our anticorruption strategy 
in Afghanistan? What is our strategy for promoting a more 
capable, accountable and effective government in Afghanistan 
that truly serves the Afghan people?
    Secretary Gates, what is our strategy for expanding the 
numbers and building the capacity of the Afghan National 
Security Forces? What is our strategy for supporting 
Afghanistan in disrupting and dismantling narcotraffickers and 
breaking the narcotics/insurgency nexus?
    I would like to refer to an editorial appearing on Monday 
in the Wall Street Journal Europe section where the author 
refers to a discussion he had with the chief prosecutor for the 
International Criminal Court. The ICC's chief prosecutor said 
that he already has jurisdiction in Afghanistan because the 
Afghan Government ratified the Rome statute in 2003, and that 
he is already conducting a preliminary examination into whether 
NATO troops, including our American soldiers fighting the 
Taliban, may have to be prosecuted by the International 
Criminal Court.
    Secretary Clinton, this past August you expressed ``great 
regret that we are not a signatory'' to the International 
Criminal Court. Then just a few weeks ago, the U.S. sent an 
observer mission to the ICC Assembly of States. What is the 
administration's current position concerning the ICC, and what 
protections are being provided to our personnel in Afghanistan 
to ensure that they are not subject to ICC prosecution?
    And in closing, Mr. Chairman, because the administration is 
concerned about cost and wants to put a price on the defense 
and the security of our Nation, I would suggest that we 
withhold U.S. contributions to the U.N. until reforms, 
accountability and transparency measures are actually put in 
place. I am confident that the American people would prefer 
that their limited taxpayer funds would be provided to our 
personnel in Afghanistan so that they have the tools needed to 
win rather than have it squandered away by a U.N. system 
hijacked by enemies of freedom and democracy. Just yesterday 
the U.N. General Assembly passed multiple anti-Israel 
resolutions in their International Day of Solidarity with the 
Palestinian People, and the U.N. vote just continues to astound 
us every day.
    The challenges in Afghanistan are great, Mr. Chairman, but 
they are not insurmountable. I look forward to the immediate 
implementation of a strategy that provides us the highest 
chances for success with the lowest risk to the safety and 
well-being of our brave patriots serving and about to serve us 
in Afghanistan.
    Thank you very much for the time, Mr. Chairman.
    Chairman Berman. Thank you. The time of the gentlelady has 
expired.
    And I would like to introduce the witnesses, as if they 
need an introduction. I will not go through your colleges and 
first four or five jobs. But Secretary Hillary Clinton is the 
67th Secretary of State of the United States. Previously 
Secretary Clinton served as the junior Senator from New York 
for two terms, where she was known for working across party 
lines. As First Lady she was a tireless advocate of health care 
reform and worked on many issues relating to children and 
families.
    Secretary Robert Gates is the 22nd Secretary of Defense of 
the United States. Dr. Gates is the only Secretary of Defense 
in U.S. history to be asked to remain in that office by a newly 
elected President. President Obama is the eighth President 
under which Dr. Gates has served. Previously, just before 
becoming Secretary of Defense, Dr. Gates was the president of 
Texas A&M University. Secretary Gates joined the Central 
Intelligence Agency in 1996--1966 and spent nearly 27 years as 
an intelligence professional.
    Admiral Michael Mullen is the 17th Chairman of the Joint 
Chiefs of Staff. He serves as the principal military advisor to 
the President, the Secretary of Defense, the National Security 
Council and the Homeland Security Council. Prior to becoming 
Chairman, Admiral Mullen served as the 28th Chief of Naval 
Operations. His last operational assignment was as Commander, 
NATO Joint Force Command, Naples Commander, U.S. Naval Forces 
Europe, and he did graduate Notre Dame High School in Sherman 
Oaks, California.
    Secretary Clinton.

STATEMENT OF THE HONORABLE HILLARY RODHAM CLINTON, SECRETARY OF 
                STATE, U.S. DEPARTMENT OF STATE

    Secretary Clinton. Thank you very much, Mr. Chairman, 
Ranking Member, members of the committee. I am grateful for 
this opportunity to testify today. And I also want to 
acknowledge the leader of one of our very strong allies, the 
Prime Minister of Hungary, who the chairman has recognized and 
to whom we show our appreciation.
    Yesterday President Obama presented the administration's 
strategy for Afghanistan and Pakistan. Today we will be 
answering your questions and providing additional details. But 
let me speak briefly at a more personal level about why we are 
making this commitment.
    Simply put, among a range of difficult choices, we believe 
this is the best way to protect our Nation now and in the 
future. The extremists we are fighting in Afghanistan and 
Pakistan have attacked us and our allies before. If we allow 
them access to the very same safe havens they used before 2001, 
they will have a greater capacity to regroup and attack again. 
They could drag an entire region into chaos. Our civilian and 
military leaders in Afghanistan have reported that the 
situation is serious and worsening, and we agree.
    In the aftermath of September 11th, I grieved with sons, 
daughters, husbands and wives, those whose loved ones were 
murdered. It was an attack on our country; it was at the time 
an attack on my constituents. And I witnessed the tragic 
consequences in the lives of thousands of innocent families, 
the damage done to our economy and our sense of security. So I 
feel a personal responsibility to help protect our Nation from 
such violence.
    The case for action against al-Qaeda and its allies has 
always been clear, but the United States' course of action over 
the last 8 years has not. The fog of another war obscured our 
focus. And while our attention was focused elsewhere, the 
Taliban gained momentum in Afghanistan, and the extremist 
threat grew in Pakistan, a country with 175 million people, a 
nuclear arsenal and more than its share of challenges.
    It was against this backdrop that the President called for 
a careful thorough review of our strategy. I was very proud to 
be a part of that process, and our objectives are clear. We 
will work with the Afghan and Pakistani Governments to 
eliminate safe havens for those plotting attacks against us, 
our allies, our interests. We will help to stabilize a region 
that is fundamental to our national security, and we will 
develop long-term, sustainable relationships with both 
Afghanistan and Pakistan so that we do not repeat the mistakes 
of the past. The duration of our military presence may be 
limited, but our civilian commitment must continue even as our 
troops will begin to come home.
    Now, accomplishing this mission and ensuring the safety of 
the American people will not be easy. It will mean sending more 
civilians, more troops and more assistance to Afghanistan, and 
significantly expanding our civilian efforts in Pakistan. And 
the men and women carrying out this mission, both civilian and 
military alike, are not just statistics on a PowerPoint slide, 
they are our friends and neighbors, our sons and daughters, our 
brothers and sisters, and we will be asking them and the 
American people who support them to make extraordinary 
sacrifices once again. I want to assure this committee we will 
do everything we can to make sure their sacrifices make our 
Nation safer.
    The situation in Afghanistan and Pakistan is serious, but 
it is not, in my view, as negative as frequently portrayed in 
public. The beginning of President Karzai's second term has 
opened a new window of opportunity. We do have real concerns 
about the influence of corrupt officials in the Afghan 
Government, and we will continue to pursue them. But in his 
inauguration speech last month, which I attended, I witnessed 
President Karzai call for a new compact, a new compact with his 
country and a new compact with the international community. He 
pledged to continue to work with us, and he pledged to combat 
corruption, improve governance and deliver for the people of 
his country. His words were long in coming, but they were 
welcome. They now must be matched with action, and we intend to 
hold the Afghan Government accountable. We will work with our 
Afghan partners to strengthen institutions at every level of 
society.
    The President has outlined a timeframe for transition to 
Afghan responsibility. As he said in his speech last evening, 
the additional American and international troops will allow us 
to accelerate handing over responsibility to Afghan forces and 
allow us to begin the transfer of our forces out of Afghanistan 
in July 2011. Just as we have done in Iraq, we will execute 
this transition responsibly, taking into account conditions on 
the ground.
    A timeframe for transition will provide a sense of urgency 
in working with the Afghan Government, but it should be clear 
to everyone that the United States, our allies and our partners 
will have an enduring commitment, a civilian commitment, to 
Afghanistan and Pakistan. Our resolve in this fight is 
reflected in the substantial new increase in troops, but also 
in the significant civilian surge that will also accompany it.
    The civilian effort is bearing fruit. The civilian experts 
and advisors are helping to craft policy inside government 
ministries, providing development assistance in the field. And 
when our marines went into Nawa Province this last July, we had 
civilians on the ground with them to coordinate assistance the 
very next day. As our operations progress, our civ-mil 
coordination will grow even stronger.
    We are on track to triple the number of civilian positions 
to 974 by early in January. On average, each of these civilians 
leverages 10 partners, ranging from locally employed staff to 
experts with U.S.-funded NGOs. It is a cliche to say that we 
have our best people in these jobs, but it also happens to be 
true. When I was in Kabul a few weeks ago, I met with an 
American colonel who told me that while he had thousands of 
outstanding soldiers under his command, none of them had the 40 
years of the agricultural experience of the USDA civilians 
serving alongside his battalion, or the rule of law and 
governance expertise of the civilian experts from the State 
Department. The colonel said to me, I am happy to supply 
whatever support these valuable civilians need, and we need 
more of them.
    That is part of our strategy, our combined civilian-
military strategy. We will be delivering high-impact economic 
assistance and bolstering the agricultural sector; we will be 
helping to support an Afghan-led effort to open the door to 
those Taliban who renounce al-Qaeda, abandon violence and want 
to reintegrate into society. We know that regional diplomacy is 
essential, and it will complement our approach.
    I will be going to Brussels tomorrow to work with our 
allies to obtain additional commitments of troops and civilian 
aid. We also know that a strong, stable, democratic Pakistan is 
a necessity as a key partner in this effort. People in Pakistan 
are increasingly coming to the view that we do share a common 
enemy. I heard that repeatedly during my recent visit there. So 
we will significantly expand support to help develop the 
potential of the people of Pakistan, and we will do more to 
demonstrate to the Pakistani people that they must continue 
their efforts to weed out and defeat the Pakistani Taliban.
    As we are moving forward with our international efforts, we 
have a great deal of commitment to troops, trainers and 
resources that will be reported in the days and weeks ahead. 
Ambassador Holbrooke, our Special Representative, is already 
there consulting with our allies. And we are especially 
reaching out to Muslims everywhere to make clear that those who 
pervert a great religion do not represent it, and everyone has 
a stake in ensuring that they do not dominate the message and 
the narrative of what Islam stands for.
    So let me conclude where I began. We face a range of 
difficult choices, but the President's plan represents the best 
way we know to protect our Nation today and tomorrow. The task 
is as complex as any national security challenge in our 
lifetime. We will not succeed if people view this effort as the 
responsibility of a single party or a single agency within our 
Government or a single country. We owe it to the troops and 
civilians who will face these dangers to come together as 
Americans along with our allies and international partners to 
accomplish this mission. I look forward to working with you to 
ensure that we do.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Clinton 
follows:]<greek-l>Hilary Clinton deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you, Madam Secretary.
    Secretary Gates.

   STATEMENT OF THE HONORABLE ROBERT M. GATES, SECRETARY OF 
              DEFENSE, U.S. DEPARTMENT OF DEFENSE

    Secretary Gates. Mr. Chairman, Ranking Member, members of 
the committee, thank you for inviting us to testify today. I 
would like to provide an overview of the strategic thinking and 
context behind the President's decisions, in particular the 
nexus among al-Qaeda, the Taliban, Pakistan and Afghanistan, 
and our objectives on how the President's strategy aims to 
accomplish them.
    As the President first stated last March and reemphasized 
last night, the goal of the United States and Afghanistan and 
Pakistan is to disrupt, dismantle and defeat al-Qaeda and its 
extremist allies, and to prevent its return to both countries. 
International military effort to stabilize Afghanistan is 
necessary to achieve this overarching goal. Defeating al-Qaeda 
and enhancing Afghan security are mutually reinforcing 
missions. They cannot be untethered from one another as much as 
we might wish that to be the case.
    While al-Qaeda is under great pressure now and dependent on 
the Taliban and other extremist groups for sustainment, the 
success of the Taliban would vastly strengthen al-Qaeda's 
message to the Muslim world that violent extremists are on the 
winning side of history. Put simply, the Taliban and al-Qaeda 
have become symbiotic, each benefiting from the success and the 
mythology of the other. Al-Qaeda leaders have stated this 
explicitly and repeatedly.
    The lesson of the Afghan Taliban's revival for al-Qaeda is 
that time and will are on their side; that, with a Western 
defeat, they could regain their strength and achieve a major 
strategic victory as long as their senior leadership lives and 
can continue to inspire and attract followers and funding. 
Rolling back the Taliban is now necessary, even if not 
sufficient, to the ultimate defeat of al-Qaeda.
    At the same time one cannot separate the security situation 
in Afghanistan from the stability of Pakistan, a nuclear-armed 
nation of 175 million people now also explicitly targeted by 
Islamic extremists. Giving extremists breathing room in 
Pakistan led to the resurgence of the Taliban and more 
coordinated and sophisticated attacks in Afghanistan. Providing 
a sanctuary for extremists in southern and eastern Afghanistan 
would put yet more pressure on a Pakistani Government already 
under attack from groups operating in the border region. 
Indeed, the Pakistan Taliban in just the last year or so has 
become a real threat to Pakistan's own domestic peace and 
stability, carrying out, with al-Qaeda's help, escalating 
bombing attacks throughout the country.
    Failure in Afghanistan would mean a Taliban takeover of 
much, if not most, of the country and likely a renewed civil 
war. A Taliban-ruled area could in short order become once 
again a sanctuary for al-Qaeda as well as a staging area for 
resurgent militant groups on the offensive in Pakistan.
    Success in south and central Asia by Islamic extremists, as 
was the case 20 years ago, would beget success on other fronts. 
It would strengthen the al-Qaeda narrative, providing renewed 
opportunities for recruitment, fundraising and more 
sophisticated operations.
    It is true that al-Qaeda and its followers can plot and 
execute attacks from a variety of locations, from Munich to 
London to Denver. What makes the border area between 
Afghanistan and Pakistan uniquely different from any other 
location, including Somalia, Yemen and other possible redoubts, 
is that this part of the world represents the epicenter of 
extremist jihadism, the historic place where native and foreign 
Muslims defeated one superpower and, in their view, caused its 
collapse at home. For them to be seen to defeat the sole 
remaining superpower in the same place would have severe 
consequences for the United States and for the world.
    Some may say this is similar to the domino theory that 
underpinned and ultimately muddied the thinking behind the U.S. 
military escalation in Vietnam. The difference, however, is 
that we have very real and very recent history that shows just 
what can happen in this part of the world when extremists have 
breathing space, safe havens and governments complicit with and 
supportive of their mission. Less than 5 years after the last 
Soviet tank crossed the Termez Bridge out of Afghanistan, 
Islamic militants launched their first attack in 1993 on the 
World Trade Center in New York. We cannot afford to make a 
similar mistake again.
    The President's new strategic concept aims to reverse the 
Taliban's momentum and reduce its strength, while providing the 
time and space necessary for the Afghans to develop enough 
security and governance capacity to stabilize their own 
country.
    The essence of our civil-military plan is to clear, hold, 
build and transfer. Beginning to transfer security 
responsibility to the Afghans in the summer of 2011 is critical 
and, in my view, achievable. This transfer will occur district 
by district, province by province, depending on conditions on 
the ground. The process will be similar to what we did in Iraq, 
where international security forces provided overwatch first at 
the tactical level and then at the strategic level.
    Making this transition possible requires accelerating the 
development of a significantly larger and more capable Afghan 
Army and police through extensive partnering with ISAF forces 
especially in combat. Even after we transfer security 
responsibility to the Afghans and draw down our combat forces, 
the United States must continue to support their development as 
an important partner for the long haul. We must not repeat the 
mistakes of 1989 when we abandoned the country only to see it 
descend into civil war and then into Taliban hands.
    Let me offer closing thoughts. The President believes as do 
I that in the end we cannot defeat al-Qaeda and its toxic 
ideology without improving and stabilizing the security 
situation in Afghanistan. The President's decision offers the 
best possibility to decisively change the momentum in 
Afghanistan and fundamentally alter the strategic equation in 
Pakistan and Central Asia, all necessary to protect the United 
States, our allies and our vital interests. And so I ask for 
your full support of this decision to provide both Ambassador 
Eikenberry and General McChrystal the resources they need to be 
successful.
    As always, the heaviest burden will fall on the men and 
women who have volunteered and often revolunteered to serve 
their country in uniform. I know they will be uppermost in our 
minds and prayers as we take on this arduous, but vitally 
necessary mission.
    Thank you.
    [The prepared statement of Secretary Gates 
follows:]<greek-l>Robert Gates deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you, Mr. Secretary.

 STATEMENT OF ADMIRAL MICHAEL G. MULLEN, USN, CHAIRMAN, JOINT 
                        CHIEFS OF STAFF

    Admiral Mullen. Mr. Chairman, Congresswoman Ros-Lehtinen 
and distinguished members of this committee, thank you for your 
time today.
    Let me say right up front that I support fully and without 
hesitation the President's decision, and I appreciate the 
opportunity to contribute to what I believe was a healthy and 
productive discussion. I have seen my share of internal debates 
about various national security issues, especially over the 
course of the last 2 years, and I can honestly say that I do 
not recall an issue so thoroughly or so thoughtfully considered 
as this one. Every military leader in the chain of command, as 
well as those of the Joint Chiefs, was given voice throughout 
this process, and every one of us used it. We now have before 
us a strategy more appropriately matched to the situation on 
the ground in Afghanistan and resources matched more 
appropriately to that strategy, particularly with regard to 
reversing the insurgency's momentum in 2010. And given the 
stakes in Afghanistan for our own national security as well as 
that of our partners around the world, I believe the time we 
took was well worth it.
    Secretary Clinton and Secretary Gates have already walked 
you through the larger policy issues in question. I will not 
repeat them. From a purely military perspective I believe our 
new approach does three critical things. First, by providing 
more discrete objectives, it offers better guidance to 
commanders on the ground about how to employ their forces. They 
will still work to disrupt, dismantle and defeat al-Qaeda and 
prevent Afghanistan from becoming a safe haven; they will still 
strive to protect the Afghan people, who remain the center of 
gravity; they will still pursue major elements of the 
counterinsurgency campaign desired and designed by General 
McChrystal, which, as we all know, involves at least some 
measure of active counterterrorism operations. But now they 
will tailor this campaign and those operations by focusing on 
key population areas, by increasing pressure on al-Qaeda's 
leadership, by more effectively working to degrade the 
Taliban's influence, and by streamlining and accelerating the 
growth of competent Afghan National Security Forces.
    At its core our strategy is about providing breathing space 
for the Afghans to secure their own people and to stabilize 
their own country. It is about partnering and mentoring just as 
much, if not more, than it is about fighting. Where once we 
believed that finishing the job meant to a large degree doing 
it ourselves, we now know it cannot truly or permanently be 
done by anyone other than the Afghans themselves. Fully a third 
of the U.S. troops in theater are partnered with Afghan forces, 
and I expect that number to rise significantly over the course 
of the next year.
    Secondly, but not insignificantly, this new strategy gives 
commanders on the ground the resources and the support they 
need to reverse the momentum of a Taliban insurgency and to 
accomplish these more limited objectives. I have said it 
before, and I believe it still today, this region is the 
epicenter of global Islamic extremism. It is the place from 
which we were attacked on 9/11, and should we be hit again, it 
is the place from which I am convinced the planning, training 
and funding will emanate. Al-Qaeda may, in fact, be the 
architect of such an attack, but the Taliban will be the 
bricklayers.
    Though hardly a uniform body, Taliban groups have grown 
bolder and more sophisticated. We saw that just a few months 
ago in the Khorangow Valley, where Taliban forces attacked 
coalition outposts using what I would call almost conventional 
small-unit tactics. Their fighters are better organized and 
better equipped than they were just 1 year ago.
    In fact, coalition forces experienced record high violence 
this past summer with insurgent attacks more than 60 percent 
above 2008 levels. And through brutal intimidation the Taliban 
has established shadow governments across the country, coercing 
the reluctant support of many locals and challenging the 
authority of elected leaders and state institutions. Indeed we 
believe the insurgency has achieved a dominant influence in 11 
of Afghanistan's 34 provinces.
    To say there is no serious threat of Afghanistan falling 
once again into Taliban hands ignores the audacity of even the 
insurgency's most public statements. And to argue that should 
they have that power, the Taliban would not at least tolerate 
the presence of al-Qaeda again on Afghan soil is to ignore both 
the recent past and the evidence we see every day of collusion 
between these factions on both sides of the Afghanistan-
Pakistan border.
    The cost of failure is then grave. That is why the 
President's decision for an extended surge to Afghanistan of 
30,000 additional forces is so important. It gets the most U.S. 
force into the fight as quickly as possible, giving General 
McChrystal everything he needs in 2010 to gain the initiative. 
It validates our adherence to a counterinsurgency approach, and 
it offers our troops in Afghanistan the best possible chance to 
set the security conditions for the Afghan people to see our 
commitment to their future; for the Karzai government to know 
our strong desire to see his promised reforms; for the Afghan 
Taliban to understand they will not, they cannot take back 
Afghanistan; and for those beyond Afghanistan who support the 
Taliban or would see the return of al-Qaeda to realize the 
futility of their pursuit.
    I should add that these reinforcements come on top of the 
21,000 troops the President ordered shortly after taking 
office, troops which have already made a huge difference in the 
southern Helmand Valley.
    But as I have testified before, Mr. Chairman, no amount of 
troops and no amount of time will ever be enough to completely 
achieve success in such a fight. They simply must be 
accompanied by good governance and healthy public 
administration. This, not troop numbers, is the area of my 
greatest concern. Like everyone else, I look forward to working 
with the Karzai government, but we must have the support of the 
interagency and international communities as well.
    And that brings me to my final point. The President's new 
strategy still recognizes the criticality of a broad-based 
approach to regional problems. He does not view Afghanistan in 
isolation any more than he views the ties between al-Qaeda and 
the Taliban as superficial. He has called for stronger and more 
productive cooperation with neighboring Pakistan, which is 
likewise under threat from radical elements, and whose support 
remains vital to our ability to eliminate safe havens. He has 
pledged, and we in the military welcome, renewed emphasis on 
securing more civilian expertise to the effort, more 
contributions by other NATO nations and a realistic plan to 
transition responsibilities to the Afghans.
    His is a more balanced, more flexible and more achievable 
strategy than we have had in the past, one based on pragmatism 
and real possibilities. And speaking for the 2.2 million men 
and women who must execute it and who, with their families, 
have borne the brunt of the stress and the strain of 8 years of 
constant combat, I support his decision, and I appreciate his 
leadership.
    Thank you, Mr. Chairman.
    [The prepared statement of Admiral Mullen 
follows:]<greek-l>Michael Mullen deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Well, I thank you and thank all of you.
    We have 2 hours to go at our distinguished witnesses. As is 
the custom, the gavel will go down after 5 minutes. Members can 
make comments; we can ask questions. As a matter of common 
courtesy, if we expect an answer to the question, we might give 
the witnesses something more than 7\1/2\ seconds of that 5 
minutes to answer.
    I yield myself 5 minutes. I would like to ask a couple of 
short questions and then a little more time on the Afghanistan-
Pakistan relationship.
    First, and you sort of made it evident by your testimony, 
but, Secretary Gates and Admiral Mullen, do you believe a 
civilian surge is an essential part of the President's 
strategy?
    Secretary Gates. Yes, sir.
    Admiral Mullen. Absolutely.
    Chairman Berman. Secretary Clinton, are you in a position 
at this time to know the resources you will need to accomplish 
this?
    Secretary Clinton. Mr. Chairman, we do not know 
specifically, but we will be submitting budget requests in 
order to achieve the numbers that are going to be needed.
    Chairman Berman. Thank you.
    Turning now to Afghanistan and Pakistan--that connection--
the administration has described the current situation in 
Afghanistan as detrimental to the stability of Pakistan. It is 
publicly reported that elements of Pakistan's intelligence 
service continue to have ties with a number of the insurgent 
groups that seek to destabilize Afghanistan. Don't many in 
Pakistan see these groups as a means to maintain influence in 
Afghanistan? What incentive does Pakistan have to cut these 
ties and join us in going after these groups?
    We do know that the Pakistan military is conducting 
unprecedented operations in Waziristan, but the way it looks, 
these operations are focused on the Pakistani Taliban and not 
against those extremists and Taliban that are using Pakistan as 
a sanctuary to launch operations in Afghanistan and against our 
troops. Do you see evidence that Pakistan will act against 
these groups? And for whoever and how many of you care to 
respond to that.
    Secretary Gates. Mr. Chairman, I would say that, first of 
all, there is--one of the significant political developments in 
Pakistan over the last 7 or 8 months has been a strong shift in 
public opinion in support of the actions that the Pakistani 
Army is taking in--first in Swat and now in South Waziristan.
    As I indicated earlier, there has developed over the last 
year a nexus between al-Qaeda, the Pakistani Taliban, the 
Tariki Taliban in Pakistan and the Taliban in Afghanistan, and 
they are mutually reinforcing both in their narrative and in 
their operations. What we have seen is the Pakistani Army going 
after the Taliban and other extremists in western Pakistan. 
There is no question but what it has put pressure on some of 
the insurgent groups that are acting against the United States. 
A number of these people have fled from South Waziristan into 
North Waziristan, some may be going into Afghanistan. So there 
clearly is a value to what the Pakistanis are doing.
    The Pakistanis' relationship with these groups dates back, 
frankly, to when I was dealing with them more than 20 years ago 
when we were taking on the Soviet Union in Pakistan. These 
relationships between the Pakistanis and these groups were 
established then as a vehicle for taking on the Soviets. They 
have maintained some of those contacts and those relationships, 
frankly, as a hedge because of their uncertainty whether the 
United States would be a reliable partner and ally for them 
going forward, and whether we would remain in Afghanistan until 
we were assured of success in taking care of the extremists.
    I think as we make progress and as they make progress, 
their incentive to change this approach to opt strategically to 
partner with the United States becomes significantly more 
powerful.
    Admiral Mullen. I would only add that as I watch Pakistan, 
Mr. Chairman, that they have made great progress and great 
changes certainly compared to 12 months ago, and that from my 
perspective it is their view--how they will proceed will be 
based on in many ways how Afghanistan turns out. That is why 
stabilizing Afghanistan, having an Afghanistan that isn't a 
threat to them, stability in the region, I think that offers 
great opportunity for them to continue to change and break some 
of these relationships or change some of these relationships 
over time.
    And I just remain extremely concerned about the 
collaboration--the collaborative aspect of what has happened 
with all these separate terrorist groups over the last couple 
of years who have joined hands in ways that we just haven't 
seen before.
    Chairman Berman. Thank you very much. My time is expired.
    The ranking member Ileana Ros-Lehtinen is recognized for 5 
minutes.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Thank 
you to our distinguished panelists today.
    In his speech the President stated, ``We will pursue a 
military strategy that will break the Taliban's momentum and 
increase Afghanistan's capacity over the next 18 months.'' How 
would we measure Taliban's capabilities, and what are the 
specific indicators that we are monitoring to assess the 
Taliban momentum? And if the Taliban momentum is not broken 
within 18 months, what are our contingency plans?
    If you could care to comment on reports that U.S. 
assistance has made its way into Taliban coffers, what 
oversight mechanisms do we have in place to prevent funds from 
being diverted to pay for Taliban protection rackets, for 
example?
    Lastly on Iran, would you agree that Iran plays a 
destabilizing role related to the security and stability of 
Afghanistan? Would you agree that we have seen an increase in 
the level of support that Iran has provided to the Taliban and 
insurgent groups, including lethal aid? What is our strategy in 
Afghanistan as it relates to the threat posed by Iran?
    Thank you, Mr. Chairman.
    Secretary Gates. Let me take on the second and third parts 
of your question and ask Admiral Mullen to take on the first 
part.
    First of all, there is no question with respect to your 
second question. One of the concerns that I have, we talk about 
the narcotics trade being the source of a great deal of income 
for the Taliban and, frankly, also for corruption in 
Afghanistan. And one of my concerns is that another source of 
corruption and support for the Taliban, I fear, is the enormous 
amount of international money coming into Afghanistan through 
our own efforts and those of our partners in Afghanistan, the 
42 other nations that are contributing troops, the hundreds of 
NGOs and international organizations and so on.
    There is a huge amount of money flowing into Afghanistan at 
this point, and one of the things that we have to think about 
is the way in which we approach our contracting, and the way we 
deal with the Afghan Government, and the way we use the funds 
that are available to us to reduce their contribution both to 
corruption and potentially some part of it flowing to the 
Taliban themselves. The place we can start is the place where 
we have control, and that is where we write the checks, so that 
is the place to start now.
    It has been a long day, so remind me of your third 
question.
    Ms. Ros-Lehtinen. It is about the influence of Iran. We had 
talked about the Pakistan----
    Secretary Gates. That is good enough. I would tell you that 
we do have evidence of Iranian involvement, particularly in the 
western part of Afghanistan. But I think based on the 
intelligence and the information available to us from our 
commanders, it is still a relatively small and not 
significant--making a relatively small and not significant 
contribution to the Taliban effort.
    I think that the Iranians are trying to straddle a very 
narrow divide. They want to support the Afghan Government, they 
want to have a friendly relationship with the Afghan 
Government, but there is no question they would like to inflict 
pain on us. And so I think trying to target their efforts in 
ways that are aimed at ISAF and not at the Afghan Government is 
what they are trying to do, but it is still at a very modest 
level.
    Ms. Ros-Lehtinen. Thank you.
    And, Admiral Mullen, just how we can calibrate success?
    Admiral Mullen. Ma'am, it happens through security, there 
is no question about that. And that is why flowing these forces 
as rapidly as we can, literally starting in a couple of weeks, 
but over the course of the next 6 or 7 months, is so critical.
    And in General McChrystal's routine travel around the 
country, the elders tell him, the leaders tell him security is 
first. And through that comes training and equipping the Afghan 
security forces. And we will have very strong indicators over 
the next 12 to 18 to 24 months where we stand with respect to 
that.
    And I really think it is a momentum piece. And we had an 
operation; there is a reconciliation, a reintegration piece of 
this as well, and we will know how well that is working.
    We had a situation a couple of weeks ago where upwards--you 
know, there were tens of Taliban who said, I am done. And there 
are a lot of people out there that are tired of fighting. And I 
am not basing it all on that. The point is that will be a piece 
of this as well.
    Ms. Ros-Lehtinen. Thank you very much.
    Chairman Berman. The time of the gentlelady has expired. 
The chairman of the Middle East and South Asia Subcommittee, 
the gentleman from New York, Mr. Ackerman, is recognized for 5 
minutes.
    Mr. Ackerman. Thank you, Mr. Chairman.
    I am really struggling with this one. It seems a bunch of 
years ago I participated in a clunkers for cash program. My 
President sold me a clunker, and I paid for it with my 
children's and my constituents' children and grandchildren's 
cash. We are still paying for that one. And I just want to make 
sure the best that I can that we are not buying another 
clunker.
    I am trying to think this thing through. I think the best I 
come up with is that we have a shack that is on fire, but it is 
located next to the dynamite factory. And the question that I 
think I know the answer to, but my constituents keep asking, is 
it worth risking the lives of those who respond to the fire in 
a place that may or may not hold a lot of value in and of 
itself, and what is going to be the result, and what would 
happen if we don't respond to that?
    I guess the question I would ask is this: As of 8 o'clock 
last night, do we have a new war, or do we have an old war 
under new ownership, or is it the same war with a new 
management strategy to muscle up and have a more elegant exit 
plan? Maybe we could start with that.
    Secretary Gates. I think we have inherited the same war, 
but it is a dynamic war, and frankly the situation is getting 
worse. The fire is getting hotter. The situation in Pakistan, 
as we have seen in the last year or so, a number of terrorist 
bombings, a clear intent on the part of al-Qaeda to work with 
the Taliban in Pakistan to destabilize the Government of 
Pakistan with nuclear weapons and a much larger population. We 
have seen the Taliban, as Admiral Mullen said earlier, becoming 
more bold and more aggressive. And it is clear, I think, to the 
President and to the rest of us that we need to do something to 
change the dynamic, to change the momentum. And what I think 
the President has done is narrowed the mission.
    One of the concerns we had coming out of March, one of the 
concerns that I had, was that those decisions were interpreted 
by many as saying, well, we are going into full-scale nation 
building, and we are going to try and reestablish or establish 
a strong central government in Kabul.
    I think what we have done in this process, and one of the 
things that has taken us some time, is figuring out how to 
narrow the mission so that it is focused on the threat to the 
United States. How do we keep al-Qaeda and that terrorist nexus 
on that border from becoming an even greater danger to the 
United States? How do we disrupt them? How do we dismantle 
them? How do we defeat them? And the conclusion is we must 
stabilize the security situation in Afghanistan.
    Of course, we don't need to build a 21st century country in 
Afghanistan to accomplish that objective. And so the purpose I 
think of what the President has announced is to narrow our 
mission, focus it on our security and as well the future of 
both Afghanistan and Pakistan.
    Secretary Clinton. I think, Congressman, the process that 
we have gone through has been aimed at testing every 
assumption, asking all the hard questions. I think it is fair 
to say that if the President could have concluded that this was 
an old war that could be wound down and walked away from, that 
would certainly have been an easier choice.
    He is, as we all are, well aware of the political and the 
economic and the loss of young men and women that this decision 
presages. But the dynamite factory is there, and, 
unfortunately, it has been stocked with even more dynamite in 
the last couple of years, and therefore we think we have to 
address it.
    Chairman Berman. The time of the gentleman has expired.
    The ranking member of the subcommittee on the Middle East 
and South Asia, the gentleman from Indiana, Mr. Burton, is 
recognized for 5 minutes.
    Mr. Burton. Thank you, Mr. Chairman.
    I believe that commitment is extremely important, and the 
civilian commitment the Secretary of State talked about is 
important, but they have to be covered by the military. And 
today, at 12:59 p.m., Admiral Mullen said, in part, that by 
roughly the July time frame we will have 20 to 25,000 troops in 
theater, and there will be 5,000 troops, Marines that will be 
over there very shortly.
    Now, if the time frame is correct in my mind, the President 
has indicated he wants to start removing troops in July 2011, 
and you are telling us that they are not going to be there 
until July 2010. That gives 1 year before they start removing 
the troops.
    Now, I understand that this can be adjusted, and the 
witnesses have indicated that this can be adjusted if the need 
arises, but what kind of a signal does it send to the Taliban 
and al-Qaeda when you know that the troops aren't going to be 
there until July and you are going to start moving them out 1 
year from then?
    Even if you reassess, you have given them a time frame 
within which to work. And I just think that is a terrible 
mistake.
    And, you know, there is another issue that I want to raise. 
Last night, I was watching my good friend, Representative Poe, 
on the floor; and he raised an issue that has not been talked 
about in the media very much. You know, back in World War II, 
if the Japanese had killed and mutilated four Americans, hung 
them from a bridge, and then we captured one of the people that 
did that, one of the ringleaders and they got a split lip and a 
smack in the stomach, I don't think they would have been court-
martialed. I think if the Germans in World War II had killed 
and mutilated American troops and hung them from a bridge and 
somebody busted them in the mouth when they captured them, they 
wouldn't have been court-martialed.
    And yet, right now, one of the ringleaders of al-Qaeda, 
Ahmed Hashim Abed, was captured in Operation Amber. He was 
wanted for the murder of four U.S. contractors in Fallujah that 
were mutilated and hung, dragged through the streets and hung 
from the bridge there, and those Navy Seals that captured him 
in Operation Amber on December the 7th, the day we were 
attacked at Pearl Harbor, are going to be court-martialed.
    I think that is insane. What kind of a message are we 
sending to our troops in the field when they do their duty, 
risk their lives, capture a terrorist that is wanted, one of 
the top 10 terrorists, and we are going to court-martial them?
    I don't care if they broke the guy's nose or broke both his 
arms and his legs. This is insane. The troops need to know 
there is total commitment by the people of this country and the 
military leaders. And for us to start court-martialing people 
who capture a leader in al-Qaeda who mutilated Americans and 
hung them from a bridge and we are going to court-martial them 
for capturing this guy and punching him in the stomach and 
giving him a broken lip? This is crazy.
    We need to send a signal we are going to do whatever is 
necessary to protect our troops and protect the people of this 
country in this war against terror. And I hope that you will be 
able to give me a satisfactory answer, Chairman of the Joint 
Chiefs of Staff, as to why these gentlemen are being court-
martialed.
    Admiral Mullen. Sir, I have great faith in our judicial 
system.
    Mr. Burton. But why are they being court-martialed in the 
first place?
    Admiral Mullen. I have got great combat leaders out there, 
great leaders in the SEAL community specifically that I have 
tremendous faith in; and I await the results of whatever that 
leadership recommends and the procedures that would follow. And 
I wouldn't be involved in any more, in any way, shape, or form, 
in those proceedings. It would be improper for me to get 
involved in any way, shape, or form at this point.
    Mr. Burton. Let me just follow up by saying, sir, I think 
it is improper that these men are being court-martialed after 
capturing this guy in Operation Amber and him having a split 
lip and getting--and was hit in the stomach. Because that is 
what we were told happened. And if security is job one, then I 
think an artificial timeline in Afghanistan is improper as 
well. It sends the wrong signal, in my opinion, to the Taliban 
and al-Qaeda.
    Respond if you like. You have 23 seconds to respond, if you 
like.
    Admiral Mullen. The timeline is one that gets--the decision 
is one that gets forces there very, very rapidly. The decision, 
the timeline in July is set to transition, transfer security 
responsibility, start to do that, and transition. And it will 
be a responsible transition, and it will be based on conditions 
on the ground.
    Chairman Berman. The time of the gentleman has expired.
    The representative from American Samoa, Mr. Faleomavaega, 
is recognized for 5 minutes.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Madam Secretary, I would like to personally express the 
deepest gratitude and appreciation to you and your office for 
the splendid assistance that was given after the recent crisis 
in the earthquake and the tsunami in the Samoan Islands. I 
deeply appreciate that.
    There was an article last month in the Washington Post 
which expressed some concerns that Ambassador Eikenberry had 
given, to the fact that his feeling was that if we increase our 
force structure in Afghanistan it will mean that the government 
will be more dependent on our support and our assistance. And I 
guess out of frustration President Karzai was noted in the same 
article in the Washington Post, and I quote: ``U.S. Officials 
were particularly irritated by an interview this week in which 
a defiant Karzai said that the West has little interest in 
Afghanistan and that its troops are there only for self-serving 
reasons.''
    And the quote from President Karzai was, ``The West is not 
here primarily for the sake of Afghanistan. It is here to fight 
terrorism. The United States and its allies came to Afghanistan 
after September 11th. Afghanistan was troubled like hell before 
that, too. Nobody bothered about us.''
    And I guess there is a sense of negligence that we had 
given because we were focused on Iraq and the problems that we 
have encountered there in that terrible conflict. What is your 
sense on this, Secretary Gates? Is there some truth in 
President Karzai's sense of frustration that after 6 or 7 
years' absence all of a sudden we refocused, now suggesting 
Afghanistan is a very important issue for us to consider as far 
as our national security is concerned?
    Secretary Gates. I think the frustration on the part not 
just of the Afghans but also on the part of the Pakistanis does 
not refer just to the last few years but rather goes back to 
1989, where one of the major proponents in this House of 
providing support to the mujahedin to take on the Soviet Union 
similarly took on the cause of trying to provide additional 
U.S. help and support after the Soviets left. And of course I 
am talking about Charlie Wilson. And there is no question in my 
mind, and I have said before publicly that I was in the 
administration, I was the deputy of national security at the 
time, had the----
    Mr. Faleomavaega. I am sorry, Mr. Secretary, I didn't mean 
to interrupt, but my time is so limited. Would you basically 
agree----
    Secretary Gates. My point is their frustration dates from 
1989, not from 2003.
    Mr. Faleomavaega. And the frustration is well taken. I 
mean, there is some truth in what----
    Secretary Gates. Absolutely. And that is why the emphasis 
in the President's policy on a long-term relationship with both 
of these countries.
    Mr. Faleomavaega. Okay. General Petraeus appeared before a 
joint committee hearing that we had a couple years ago, and I 
expressed some real serious concern about the strained--
severely strained military force structure that we currently 
have. Nobody wants to talk about the draft. We are going to be 
putting in an additional $30 billion for these 30,000 soldiers 
and about 100,000 soldiers that we are going to be sending to 
Afghanistan. Are we still working on the cheap as far as 
sending this number of soldiers? Some have estimated it is 
going to take a lot more than 100,000 soldiers from the U.S.
    Secretary Gates. Let me make two quick comments and then 
turn it to Admiral Mullen.
    First, the previous administration and this administration 
have significantly increased the size of the Army and the 
Marine Corps, 65,000 for the Army, 27,000 for the Marine Corps, 
another 22,000 for the Army just a few months ago. So we have 
tried to put in place some measures that will relieve the 
strain.
    Mr. Faleomavaega. And on the voluntary force structure, if 
I might add also, we have had to use about 30 percent of our 
National Guard and Ready Reserves to assist in fighting the war 
in Iraq. And is this really the intended purpose of our 
reserves, to fight a war? Admiral?
    Admiral Mullen. Sir, from what I have seen, I mean, the 
National Guard and Reserves have contributed at such high 
levels we would not be where we are. They actually are 
enthusiastic about this.
    We have to achieve a balance. We can't deploy them in some 
cases as frequently as we have, although I don't think we are 
that far off. And I do think there is no question that the 
additional force structure that has been added over the last 
couple of years has made a huge difference, and I think it is 
about right.
    Mr. Faleomavaega. Thank you. Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from California, Mr. Rohrabacher, is 
recognized.
    Mr. Rohrabacher. Thank you, Mr. Chairman.
    First of all, I would like to identify myself with the 
remarks of Mr. Burton concerning court-martial of our military 
personnel who were involved in the capturing of terrorists. 
What we need to say very clearly, either we support our troops 
or we don't send them in. And, quite frankly, we shouldn't send 
them into a no-win situation. And I believe what I have heard 
today and heard from the President last night is not a strategy 
that will bring any type of victory to our efforts there in 
Afghanistan.
    Let's note that there was a quick defeat of the Taliban 
after 9/11, and that was a tremendous, low-cost victory, and it 
was not accomplished by U.S. troops. It was accomplished with 
only 200 U.S. troops on the ground when Kabul was liberated 
from the Taliban. The rest of the fighting was done and almost 
all of the fighting was done by the Northern Alliance, which 
was basically mobilized village militias.
    In the aftermath of that great victory, and contrary to 
their traditions and their culture, we, the United States 
Government, forced a centralized Kabul-based government 
structure on the Afghans, and then our military took over the 
fighting. It was a strategy that has not worked. And what we 
hear today, Madam Secretary, with all due respect, it just 
seems to me that we have got the same policy that has not 
worked with perhaps a few more troops, perhaps some more money, 
but basically the same strategy that has not worked. But yet we 
are going to send 30,000 more of our boys and women into 
Afghanistan to do the fighting that should be done and could be 
done by the Afghan villagers themselves.
    I wonder if any of you have read--and I submit this, Mr. 
Chairman, for the record--a report by Major Jim Gant. Have any 
of you read this report? It is a report--he was embedded in the 
villages in Afghanistan. He comes up with a strategy that will 
work. And what will not work is simply having more U.S. combat 
troops doing the fighting or building, which we heard here 
today, this centralized Afghan military that is based in Kabul, 
the Karzai military establishment. We are going to bolster that 
and we are going to expect that that is going to bring the 
villagers and the tribal people over to our side? That is going 
to drive them into the arms of the Taliban, just like if we 
just sent in more U.S. troops to do the fighting.
    [Note: The report referred to, ``A Strategy for Success in 
Afghanistan, One Tribe at a Time,'' by Major Jim Gant, United 
States Army Special Forces, is not reprinted here but is 
available in committee records.]
    Mr. Rohrabacher. Again, why is it--what is different about 
what the President has said? Even today I don't hear anything 
different. But maybe a different facade, but it is the same old 
policy. U.S. troops do the fighting.
    Americans are war weary of doing the fighting for other 
people. We would not have succeeded originally in Afghanistan 
had we sent in all of these major military combat units and 
done the fighting against the Taliban originally. So if it 
wouldn't work then, how come it is going to work now?
    Secretary Gates. Two quick points.
    First, there is recognition in the President's decisions of 
the importance of working with the locals. And I personally 
think that a big part of our progress going forward, 
particularly in terms of being able to transition 
responsibility for security to the Afghans, is not necessarily 
the Afghan National Army or even the police but local law 
enforcement, local police, local security people who are 
working with the government. They may not be in a chain of 
command, if you will, but clearly a major part of the 
President's strategy is more attention to the subnational 
government, to working with the tribes, working with the 
villagers.
    And the second point----
    Mr. Rohrabacher. Those are words. Those are words. But we 
haven't changed the structure a bit.
    The provincial leaders are basically appointed by Kabul. 
Our State Department insisted on a centralized structure that 
is totally contrary to Afghan tradition. Then we expect that 
the Afghan people are just going to swallow it, especially when 
their government is so corrupt they can't even have an honest 
election? How can we expect our men and women to go over there 
and put their lives on the line when we haven't been willing to 
actually be tough with Karzai and force the restructuring of 
that system so it is more consistent with what the Afghan 
culture is all about?
    Secretary Gates. We have to build consonant with the Afghan 
culture. And I think one of the things we have talked about is 
focusing our efforts in dealing with the existing tribal and 
other--and local structures, and trying to strengthen them 
rather than build something new.
    Second, a big part of the President's strategy is, frankly, 
training up the Afghan Army as quickly as possible so that they 
can take over responsibility for the security from our troops.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from New Jersey, Mr. Payne, is recognized for 
5 minutes.
    Mr. Payne. Thank you very much.
    I certainly would like to say that, you know, if we had 
done the right thing before we had gone into Afghanistan and 
Pakistan, where Osama bin Laden was and al-Qaeda, we would not 
be in the situation we are in today. We have the shock and awe, 
we go into Iraq, it had nothing to do with al-Qaeda, and now we 
find ourselves stuck in Afghanistan.
    They criticized President Obama for taking a long time to 
come up with this plan and then secondly criticized him for 
having a date to come out. President Bush said that the mission 
was accomplished after 3 months, and we are still in Iraq. At 
least President Obama knows when he has a plan, and it wasn't 3 
months after we go into Iraq that we get on an aircraft carrier 
saying the mission is accomplished and we are still there. So I 
don't think there is any comparison.
    Secondly, we talk about the cost. We had a President that 
reduced taxes at a time we are increasing the war, and now we 
wonder why we are in this dilemma and all this criticism. I 
don't like the increase in troops. I don't think we can win a 
war in Afghanistan. I think that we have to hopefully 
transition the Afghans to be able to be trained, as it has been 
indicated, and fight for themselves.
    We have three choices: One, stay the course and go nowhere. 
Two, withdraw and be criticized. Three, to increase troops. I 
mean, he had to pick one of the three, and so we made this one. 
But we have to quickly transition into having the Afghans take 
care of themselves, and I hope that that will happen.
    I wonder, finally, if in your opinion do you believe that 
this time up until June 2011 is enough time?
    And, secondly, I would like to mention that I would hope 
that we would also focus on other areas where al-Qaeda is 
coming in, like in Somalia. If we stay there and do not put in 
the assets, we are going to have the same problem with Kenya 
and Eritrea and Ethiopia there. If we stand up Sheik Sharif's 
militia now, we can prevent the al-Shabab and Hezbollah from 
taking over Somalia. We can prevent a lot of money being spent 
and destabilizing all of East Africa. So I would hope we would 
giving give that some consideration.
    What about the fact do we have enough time and manpower to 
train the Afghans to prevent our troops from being in harm's 
way and have them take over? Because, like I said, I just feel 
very troubled that more American troops are going to be sent 
into Afghanistan.
    Admiral Mullen. Sir, I share your concern about other 
places where al-Qaeda is growing. Somalia and Yemen are two in 
particular, although their core leadership and their heart 
really beats in that border between Afghanistan and Pakistan. 
That is why it is so critical.
    With respect to enough time, the entire military chain of 
command believes, including the Joint Chiefs, that we will know 
where we are by summer of 2011 whether we can succeed here or 
not. And that we know we have got to get these forces in. We 
have to secure--turn the security situation around. It is 
really under that umbrella that we will be able to develop the 
Afghan security forces, the Army, and the police.
    We have got goals set to do that. There are some challenges 
associated with that. There is some significant risks 
associated with that. But we really think this is the right 
answer and that in fact is the way that we turn their own 
country over to themselves. Actually, in many ways not unlike 
Iraq.
    We don't underestimate the challenge. But that really is 
the path, and we think there is enough time between now and 
then to really step out in that direction and know whether we 
are going to make it or not.
    Mr. Payne. Just a last question, is there any way we can 
impress Pakistan that India is not their biggest enemy about 
Kashmir and have Pakistan concentrate more on Pakistan and stop 
worrying about India and some India and Pakistan conflict?
    Admiral Mullen. President Obama in March, his strategy then 
focused--and I was a big supporter of this--on the region and 
greatly focused on Afghanistan and Pakistan. But it really is 
the region. And India is a big player in that region as well. 
And I think all of us international players, particularly the 
regional players, have to take steps to stabilize. And the 
relationship between Pakistan and India is critical and 
leadership there must I think step forward to stabilize that 
border more than anything else. And I think that would be a 
great step forward in stabilizing the region.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from California, Mr. Royce.
    Mr. Royce. Thank you, Mr. Chairman, very much.
    I would ask the witnesses this. General McChrystal notes in 
his assessment that the Afghan insurgency is clearly supported 
from Pakistan and that insurgent groups are reportedly aided by 
some elements of Pakistan's ISI. Now, for the longest time, as 
I can remember, we have had a dysfunctional relationship with 
Pakistan in which many of the presumptions that the Pakistani 
ISI or intelligence service have made have not actually been in 
the interests of Pakistan, such as originally training and 
recruiting the Taliban.
    Now we face a situation where the Taliban not only is a 
threat to Afghanistan but is also a threat to Pakistan. And 
since Pakistan has 100 nuclear weapons, that becomes quite 
problematic since al-Qaeda wants to get its hands on these 
nuclear weapons.
    I guess at the end of the day the question is, what are we 
prepared to do to bring pressure to bear on that government in 
Pakistan to assure that they do not continue this practice of 
allowing the Taliban that kind of sanctuary, or at least 
support for certain elements of the Taliban inside Afghanistan?
    Secretary Clinton. Congressman, that is obviously a 
critical question. Here is how we see it.
    We think that in the last year the Pakistanis have really 
stepped up. Their military action against the Pakistan Taliban 
in both Swat and South Waziristan is an abrupt about face from 
their prior policies. And it has been a unifying policy, 
supported by the people of Pakistan. So they have taken an 
important first step, but they need to take more steps in their 
own best interests. And that is the case we have been making to 
them, that there has to be a recognition of the connection 
between those elements of the Taliban who have attacked their 
military headquarters, their intelligence headquarters, 
indiscriminately killed and maimed so many hundreds of 
Pakistanis and all the other elements of this syndicate of 
terrorism. Obviously, we think al-Qaeda is not only the 
inspiration but the funder, the equipper, the trainer, the 
planner. And so our task, which Admiral Mullen has been 
particularly and deeply involved in, is to make that case.
    And so, if I could, let me turn to Admiral Mullen.
    Mr. Royce. Well, I am just going to ask another question 
and make the point that I don't think to date we have been very 
effective in bringing the type of pressure to bear on Pakistan, 
and I would suggest that all of us think anew about a strategy 
that might work.
    Now let me bring up the other point which was touched on 
earlier. But that is the report that Navy SEALs secretly 
captured one of the most-wanted terrorists in Iraq. The 
consequences of that, when they captured him, they are now 
facing charges because reportedly he told--the terrorist told 
the investigators he was punched by his captors and he had a 
bloody lip to prove it. So the three SEALs, Navy elite commando 
unit members, they have refused nonjudicial punishment. They 
called a captain's mast. They requested a trial by court-
martial, is basically what has happened. And their attorney is 
saying, ``I don't know how they are going to bring this 
detainee to the United States and give us our constitutional 
right to confrontation in the courtroom.''
    But, again, we have terrorists getting their constitutional 
rights in New York City, but I suspect that they are going to 
deny these SEALs their right to confrontation in a military 
courtroom in Virginia, which is what the SEALs are requesting.
    The question I would put to Admiral Mullen, and certainly 
to Secretary Gates, goes to the issue of rules of engagement. 
When we are at war with terrorists abroad and you have the 
types of rules of engagement being dictated to our troops and 
you have this kind of action against our Navy SEALs at a time 
when we are talking about trying to stop the insurgency in 
Afghanistan, I do not think it is helpful. And I would like to 
hear any commentary on your part about what could be done on 
the issue of bringing terrorists to trial in New York City 
while the constitutional rights of our own American servicemen, 
in my view, are being violated.
    Chairman Berman. Unfortunately, the time has expired.
    Mr. Royce. Thank you, Mr. Chairman.
    Chairman Berman. It hangs out there.
    The gentleman from Florida, Mr. Wexler, is recognized for 5 
minutes.
    Mr. Wexler. Thank you very much.
    And, first, Mr. Chairman, I want to thank you for your very 
kind words earlier in the hearing; and I very much want to 
acknowledge what I think is an extraordinary privilege for all 
of us, to serve on this committee, particularly with your 
leadership and the leadership of Congresswoman Ros-Lehtinen. 
Both of you exhibit the kind of character that I think the 
American people justly deserve.
    I also very quickly would just simply say that I have 
cherished the opportunity to develop wonderful friendships not 
only with my fellow Democrats but with so many Republicans as 
well who I deeply respect, and I think the American people 
should understand the degree of respect and camaraderie that 
exists on this committee and that they are well served by it.
    If I may, to Secretary Clinton and Secretary----
    Mr. Ackerman. Mr. Chairman? Mr. Chairman? I ask that the 
gentleman's full time be restored.
    Chairman Berman. Yes, he is entitled to respond to the 
criticisms of him that were made earlier.
    Mr. Wexler. Once you say you are leaving, people are much 
nicer to you here.
    If I may, to Secretary Clinton and Secretary Gates, this 
morning when you appeared before the Senate and Senator McCain, 
in his usual eloquent and sincere fashion, questioned you, he 
seemed to be making the point that the President's creation of 
a timetable for transition and the consideration of conditions 
on the ground are mutually exclusive points of reference; and 
it would seem to me in the manner in which the President has 
constructed his plan that in fact that is not, respectfully to 
Senator McCain, the case and that the way the plan is 
constructed that both the creation of a timetable for 
transition and the consideration of conditions on the ground in 
fact will happen together. And I was wondering if you could 
explain that so that there will not be any confusion in that 
regard.
    Secretary Gates. The President was very clear last night 
that his decision is that we should begin the transition to 
Afghan security control in July 2011. The key word here is 
``begin.'' This will be a process. And it will look a lot like 
Iraq, where some districts and provinces will be able to be 
turned over fairly quickly, with us in a tactical and then 
strategic overwatch, sort of the cavalry over the hill, if you 
will, for a time, and that that will spread in the country.
    And so you will have situations where security control has 
been--responsibility has been taken over by the Afghans in one 
set of districts or one province, while there is still heavy 
combat going on in other provinces that are more contested with 
the Taliban.
    The key here is, and one of the things that was central to 
our deliberations, how do you demonstrate resolve and at the 
same time convey a sense of urgency to the Afghans that they 
must step up to the plate and begin to take responsibility for 
their own security and to protect their own country against 
these extremists?
    And I think that, you know, the interesting thing for me, 
appearing before the Congress now on my second surge, is that 
the Bush administration accepted firm deadlines for the 
withdrawal of U.S. forces in Iraq. The President is suggesting 
and is proposing a timeline for the beginning of a transition 
of responsibility for security in Afghanistan. We will review 
this formally in December 2010 and decide then whether our 
strategy is working and whether we think we are in a position 
whether we need to make adjustments. But the President's clear 
intent and his decision is that we will begin that process.
    But the key is to realize that--I guess another point I 
would make is that, in Iraq, as soon as the surge was clearly 
going to be successful, the Iraqis wanted us out as quickly as 
possible. That is not entirely clear in Afghanistan. The 
Afghans live in a very tough neighborhood. They have been at 
war for 30 years. It would be understandable if they would 
enjoy having the United States Army and Marine Corps there for 
an extended period of time to provide protection.
    We are not prepared to do that, and so what the President 
has tried do is set in place something that demonstrates 
resolve on the one hand but on the other puts the Afghans on 
notice that they need to step up the recruitment of their 
soldiers and their police. They need to get them trained, they 
need to get them experienced in combat, partnering with us, and 
then they need to begin to take responsibility. And we will do 
this in a gradual and conditions-based way.
    Mr. Wexler. Thank you.
    And if you could share with us the administration's 
expectation as to the participation of our NATO allies, given 
the President's speech last night.
    Secretary Clinton. Yes. We are encouraged by the response 
of a lot of our NATO-ISAF allies. We have 43 countries that are 
troop-contributing countries. Working with the Secretary 
General of NATO, I will be going to NATO tomorrow to be there 
on Friday in Brussels. We anticipate a significant commitment 
of additional forces by our NATO-ISAF partners, as well as 
additional money. Because, of course, we want to establish a 
robust trust fund for both the Afghan National Army and the 
police so that the funding needs can be not only carried out in 
the next couple of years but be maintained after that.
    Mr. Wexler. Thank you.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Texas, Mr. Paul.
    Mr. Paul. I thank you, Mr. Chairman.
    I welcome the panel today. I wish I could promise you an 
eloquent statement where I could convert all of you to a 
noninterventionist foreign policy and a policy where we are not 
nation building, but I don't think I can promise you that.
    I wish I could come up with some profound questions for the 
panel so that I could point out the inconsistencies not of the 
current foreign policy but the foreign policy that has been 
going on for quite a few decades.
    But all I can think about are some terms that come to mind 
that I have learned all the way back in the 1960s when I was 
serving as a military officer, an Air Force officer for 5 
years; and I come up with thoughts: Quagmire, perpetual war for 
perpetual peace, war is the health of the state, war is a 
racket, truth is the first casualty of war. And I think there 
is some profoundness to that, and I had to plagiarize them. 
Those are not my thoughts.
    But today we are in a mess, and we are trying to figure out 
how to do it. We had a war going on for 8 years, and I think it 
has a lot to do with the way we get into the wars, and then we 
try to justify why we are there later on.
    One thing that almost all debates are prefaced by is don't 
come off as an extremist. Can we have a military victory? Have 
500,000 troops go in there and win like we used to? No, that is 
off base. But do you want to just come home? No, that is not 
allowed. We have to have this balancing act, which guarantees 
the politicizing of the war.
    This is why we end up with courts-martial and arguments 
that are justified. We end up with military tribunals and 
secret prisons, because we are not precise of what our goals 
are and why we are involved, and I think that is the biggest 
problem that we have. And what we need to do I think is try to 
be more precise about why we are going to war.
    Now, the question I have for the panel, and I hope each and 
every one of you can answer this question, is I would like to 
know whether or not you endorse the Bush doctrine. Ironically, 
last night the speech was given, which truly was eloquent, but 
it was given in the same place that the former President gave a 
speech in 2002 and emphasized a profound, dramatic change in 
our attitude toward the world. And it is recognized now as the 
Bush Doctrine. I think it is something, maybe one of the most 
important events in our history when it comes down to foreign 
policy.
    So each and every one of you, do you endorse the Bush 
Doctrine of preventive war or do you reject it?
    Secretary Gates. I think that the term ``preventive war'' 
is a very important one, because it differentiates from 
preemptive war. A preemptive war in my view is one where you 
know you are about to be attacked and you strike first. My 
personal view is that the standard for intelligence and for 
confidence for preventive war is an extraordinarily high one; 
and there are very, very few instances where I think it is 
justified. If the experience of the last 8 years has taught us 
anything, it is to reaffirm the historic lesson that war is 
inherently unpredictable.
    Mr. Paul. Okay.
    Secretary Clinton. Well, Congressman, I think that 
Secretary Gates draws an important distinction. There are times 
when it is appropriate for a country to protect itself from 
what it knows would be a devastating attack. But that standard 
should be so high, and obviously we didn't see that standard 
met in the last 8 years. But let me just add that is not the 
situation in Afghanistan. We were attacked from Afghanistan. So 
even if the doctrine is or is not an appropriate one, it is not 
applicable to the situation before us.
    Mr. Paul. But we were never attacked by an Afghani.
    Secretary Clinton. That is not true. Al-Qaeda was embedded 
in Afghan society. It was given safe haven by Mullah Omar and 
the Taliban leadership. They were given a chance to turn over 
al-Qaeda and bin Laden before we attacked them, and they 
refused.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from California, Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman.
    Our minimum objective in Afghanistan is so uninspiring that 
no one will embrace it or acknowledge that we have actually 
achieved it. That minimum objective is to make sure that Afghan 
territory is not used for a successful major attack against the 
United States and to achieve that objective 1 day at a time.
    It may also be our minimum objective to make sure Afghan 
territory is not used successfully to destabilize Pakistan; and 
we have achieved that 1 day at a time for many years with a 
much, much smaller force than we have at the present time, let 
alone planned.
    There is a bolder objective, and that is that we achieve 
our minimum objective without having to have troops there, that 
we have a functioning Afghan Army achieving that goal or those 
two goals for us. And then there is the maximum objective of a 
functioning, perhaps even democratic Afghan state.
    We have rejected the idea of a smaller number of troops for 
a longer number of days because it clashes not so much with our 
strategic objectives but with our national culture. Playing 
defense and having to do it for as long as you have something 
to defend may be the Roman way; it is not the American way.
    I have got a number of questions, and I will ask for 
responses for the record if time doesn't permit. But I will 
start with the Admiral.
    This plan is based on roughly 5,000 additional allied 
troops, which may or may not materialize. If we don't get but a 
small percentage of those 5,000 troops, do we need to abandon 
this plan? Do we need to put in more American troops? Or are 
those 5,000 really not essential?
    Admiral Mullen. Sir, every indication I have--and this 
isn't hope, this has been through an awful lot of work--that we 
are going to achieve some level of increased support from NATO 
sort of at the minimum levels of 5,000, and it could be more 
than that. And that has been worked by myself, Secretary 
Clinton, Secretary Gates, Admiral Stavridis, Secretary General 
Rasmussen. And so I am confident that we will see some level--
at least some level around that number.
    Mr. Sherman. Are you relying on any French troops as part 
of that total?
    Admiral Mullen. I wouldn't speak to any specific country 
right now. They have to speak for themselves.
    Mr. Sherman. The risk of the strategy that is being 
announced is that we are telling the American people there will 
come a day when we don't need to have any troops in 
Afghanistan. Now, if the strategy works, we are going to have a 
functioning government in Afghanistan sometime after the middle 
of 2011, and that will prevent the Taliban's return. But the 
achievement of that strategy is outside the control of the 
United States. It relies in large part on the Afghan people and 
the Karzai government, which may be as bad as detractors 
indicate.
    Secretary Clinton, are we prepared to go to the American 
people and say we tried counterinsurgency, it didn't work, not 
a fault of the U.S. military, and that we are returning to 
counterterrorism? Or are we promising the American people that 
by 2012, 2013 we will be out of Afghanistan?
    Secretary Clinton. Well, Congressman, I think it is 
important to draw the contrast between combat troops and 
between support troops, the kind that would be continuing to 
train, provide logistics, perhaps intelligence, airlift, the 
support that the Afghans might need going forward.
    We have certainly determined that we have to stand up the 
Afghan security forces as quickly and effectively as possible 
so that the combat mission can transition. That is exactly what 
we are attempting to do. But there may well be in the----
    Mr. Sherman. Madam Secretary, if I may interrupt and 
rephrase my question. Let's not talk then about whether we 
still have troops on the ground but whether we are still 
sustaining casualties every day or every week. What if in 2013, 
2014 the Afghan Government isn't doing what we want and the 
only way to have counterterrorism is to incur casualties?
    Secretary Clinton. Well, Congressman, I am not going to 
speculate about what is going to happen in 2013 or 2014. I 
happen to believe that as we implement the strategy that the 
President outlined last night we will change the reality on the 
ground. We will improve the chances of success in this mission.
    Mr. Sherman. I can only wish you well.
    I yield back.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Arizona, Mr. Flake.
    Mr. Flake. I thank the chair. I thank the witnesses.
    First, I want to compliment the administration for taking 
the time to study this. I know there has been some criticism 
about the length of time that it took. That has not come from 
me. I think we would do well to study and deliberate more 
around here.
    Having said that, when you look at the policy that was 
enunciated last night, there is an old adage that a camel is a 
horse designed by committee. And in many ways I think this 
looks to be a policy designed by committee, a little something 
for everybody. For those who want to get out, there is the 
timetable. For those who want to get in, we have the surge. But 
it may not work very well.
    How would you respond, Secretary Clinton, to that assertion 
that this smacks of the problems of policy designed by 
committee?
    Secretary Clinton. Congressman, camels are very sturdy 
animals. They are patient and may be plodding, but they 
eventually get to where you hope they will arrive. I think that 
this policy is the result of a very intense discussion that 
questioned every assumption, that put everything on the table, 
that invited the most vigorous debate.
    I think, as Admiral Mullen said, for those of us who 
participated in I think it was ten meetings with the President 
and probably three times that many among ourselves, it was an 
exhausting and thorough process that led us to the decision 
that the President announced last night.
    I don't think any of us believed that there were any easy 
or simple or quick options that we thought responsibly could be 
adopted. This is the best result of all of our efforts. And I 
am sure that there are many who can, you know, pick at it, but 
I think that it reflects an extraordinarily honest assessment.
    And I think the time frame, which is often at the core of 
the concerns people reflect, is intended to do two things, 
because there are so many audiences for this policy. It is 
intended to send a message of both resolve and urgency. The 
resolve that we are committed, we are going to put additional 
troops in, our young men and women. We want a long-term 
civilian commitment. But that there is an urgency to this, that 
we cannot just have the Americans and our 42 other nation 
contributors bear this burden, that the Afghans, both 
governmentally and among the people, have to step up. And that 
is what we are attempting to deliver here, and we will be 
assessing it very closely for the months ahead.
    Mr. Flake. Thank you.
    In terms of that assessment, General Jones said just less 
than 2 months ago in answer to a question on CNN, well, I think 
this is one of the central issues that, you know, obviously the 
good news is that Americans should feel good about is that in 
Afghanistan that the al-Qaeda presence is very diminished. The 
maximum estimate is less than a hundred operating in the 
country. No bases, no ability to launch attacks on either us or 
our allies. He says the problem is with sanctuaries across the 
border. He said, ``But <greek-l>I don't-- deg.I don't foresee 
the return of the Taliban; and I want to be clear that 
Afghanistan is no longer in danger, imminent danger of 
falling.''
    Now, if you have a statement like that, it might suggest 
caution in inserting 30,000 more troops. And then 1 year from 
now, or 18 months from now, in July 2011, what constitutes 
success? Is it 50, a maximum of 50 al-Qaeda operating in 
Afghanistan? And if we already acknowledge that Afghanistan is 
not in danger, imminent danger of falling, what constitutes 
success in July when we are going to decide whether we should 
pull troops out or not? Secretary Gates.
    Secretary Gates. I think no one thinks the government in 
Kabul is in imminent risk of being overthrown. But it was 
certainly the conclusion of General McChrystal's assessment 
that the situation was serious and deteriorating. And we have 
seen the Taliban get more aggressive and more bold with each 
passing week.
    What we want to do is, in helping the Afghans, make sure 
that that government doesn't fall and that we are able to 
sustain a friendly government in Kabul that will help us deny 
al-Qaeda a safe haven.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from New York, Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman; and I want to thank all 
our distinguished witnesses for testifying.
    I listened very carefully to the President's speech last 
night, and I am willing to give the President the benefit of 
the doubt. But my fear, as is the fear of so many others, is 
that we could easily get bogged down in an endless war.
    What happens if this doesn't work? Do we leave in 3 years, 
as the President is stating, or do we stay longer? What happens 
if General McChrystal makes another public speech saying that 
he needs 10,000 more troops in attempting to back the President 
into a corner? What do we do then?
    We talk about Afghanistan and Pakistan. I noted that just 
last week their representatives abstained in the recent 
resolution, the IAEA resolution critical of Iran's nuclear 
program. If these are our allies, I hate to see what our 
enemies think. So there are all these questions.
    And, finally--and I would like anyone to comment on 
anything I have said--where is Osama bin Laden and why can't we 
seem to get him? If we are relying on our intelligence to tell 
us that this is what we should be doing next in Afghanistan and 
our intelligence can't even tell us where he is--there was a 
recent Senate report that says shortly after the war in 
Afghanistan began we had Osama bin Laden and we let him slip 
through our fingers--how much can we count on our intelligence 
now when we can't even capture one guy in 8 years?
    Admiral Mullen. Let me start with the last one first.
    Actually, there has been a considerable diminishment of al-
Qaeda over the last couple of years in terms of their 
leadership, obviously not bin Laden or Zawahiri specifically. 
And what I have learned over the years, and particularly in the 
last several years, is individuals like him--and it is not 
unique, quite frankly, to him in this area--that their job one 
for them is survival, and they do it really well. And so it is 
not--and we have good intelligence and good agencies, and it 
has improved a great deal, and I rely on them tremendously. 
That said, it is still a big problem. And it doesn't mean we 
are not trying to find him and the rest of the leadership.
    With respect to--I am sorry--the first part of your 
question?
    Mr. Engel. Getting bogged down in an endless war.
    Admiral Mullen. No, sir. It is just not going to happen. It 
is very clear--this President has said it, the military 
leadership understands it--that this is not open-ended, and we 
are not going to escalate. We believe that these troops, this 
strategy, the civilian surge that goes with it, the opportunity 
we have because Pakistan is making progress, we have got a new 
President in Afghanistan, we have got the right leadership on 
the ground, we have got the right leadership in the embassy, 
that now is the time and we can actually turn this thing 
around. And so I don't have an expectation that we are going to 
get bogged down there or that there will be requests for any 
additional troops.
    Mr. Engel. Secretary Clinton?
    Secretary Clinton. Congressman, I think that your focus on 
bin Laden is absolutely appropriate. I share your frustration 
that 8 years from the attack that devastated New York has not 
led to the killing or capturing of bin Laden and his principal 
lieutenants.
    As Admiral Mullen said, we have degraded their leadership, 
we have been successful in going after a number of the 
mainstays of his organization, but we haven't gotten him, and 
we haven't gotten Zawahiri, and we haven't gotten Mullah Omar. 
And I think that that has to be a primary goal of what it is we 
are doing. And it certainly is for me, and I think it is for 
the President, and part of the strategy that we are unfolding 
we think will assist us.
    And I would just add that, you know, this strategy has been 
largely on the military side influenced by General Petraeus and 
General McChrystal, one of whom is our foremost expert on 
counterinsurgency, the other on counterterrorism; and I think 
that there is reason to put a lot of stock in their opinion.
    Secretary Gates. I would just add one thing. The President 
gives the orders, but every man and woman that is deployed 
overseas is deployed over my signature. And if I came to 
conclude that we were bogged down and stalemated and we were 
sending young men and women into a maw with no purpose and no 
hope of success, I wouldn't sign any more of those orders.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Indiana, Mr. Pence, is recognized for 5 
minutes.
    Mr. Pence. Thank you, Mr. Chairman.
    I welcome this distinguished panel. I thank you all for 
your service to the United States, and I greet you with 
respect.
    Specifically, I have a question I want to direct first to 
Secretary Gates and then to Admiral Mullen having to do with 
some military aspects and issues arising out of the President's 
address last night.
    First, let me say I, like many have said before, I welcome 
the President's call for reinforcements; I appreciate the 
President's embrace of this same surge strategy that worked in 
Iraq. Despite the fact that, as a candidate, the President 
opposed it, and I think every Democrat on this committee 
opposed it, the surge worked.
    And as a point of clarification to Secretary Gates, you 
said this is your ``second surge,'' I think that is an 
affirmation of that assertion that I made.
    But I want to specifically talk about this issue of 
timetables for withdrawal and get your reaction. You made 
mention earlier that the Bush administration did embrace a 
timetable for withdrawal. Of course, that was after the surge 
worked. When President Bush announced the surge in Iraq, he did 
not announce a timetable for withdrawal. The timetable was 
negotiated in the status of forces agreement following what was 
universally accepted to be the success of the surge.
    And so my question is really about this business of 
timetables. Because my Democratic colleagues I think made more 
than a dozen efforts in 2007 and 2008 to impose specific 
timetables for withdrawal on our efforts in Iraq, fortunately 
unsuccessfully on the floor. And the President made reference 
to July, 2011.
    Secretary Gates, you said in April 2007 with regard to 
Iraq, ``I have been pretty clear that I think the enactment of 
specific deadlines would be a bad mistake.''
    In September of this year, you told CNN, ``I think the 
notion of timelines and exit strategies and so on, frankly, I 
think would be a strategic mistake.''
    I am someone who believes it never makes sense to tell the 
enemy when you are going to quit fighting in a war. Mr. 
Secretary, I wondered if you might elaborate on that--and then 
I have a quick question for the Admiral--on what has changed in 
your view here? What am I missing that distinguishes your 
opposition to timelines in Iraq, your opposition to a timeline 
you expressed here in September with regard to Afghanistan to 
the President's enunciation of July, 2011?
    Secretary Gates. First of all, there may not have been a 
specific timeline associated with the announcement of the surge 
in Iraq, but it was quite clear that domestically it could not 
be sustained indefinitely. And the reality is the surge in Iraq 
lasted 14 months. The President is talking about at least 18-24 
months with this surge.
    I would say that--well, first of all, I have adamantly 
opposed deadlines. I opposed them in Iraq, and I opposed 
deadlines in Afghanistan. But what the President has announced 
is the beginning of a process, not the end of a process. And it 
is clear that this will be a gradual process and, as he said 
last night, based on conditions on the ground. So there is no 
deadline for the withdrawal of American forces in Afghanistan.
    Mr. Pence. Reclaiming my time--Secretary Gates, forgive me 
for the constraints of our time here--your line to CNN was you 
opposed ``timelines and exit strategies,'' but I will leave 
that there, and I will accept your response.
    Admiral Mullen, last night the President said in his 
speech, ``Commanders in Afghanistan repeatedly asked for 
support to deal with the reemergence of the Taliban, but these 
reinforcements did not arrive.'' The Secretary's predecessor, 
Donald Rumsfeld, this afternoon called that a ``bald 
misstatement''; and former Secretary Rumsfeld said he was ``not 
aware of a single request.''
    I wonder, Admiral, are you aware of a request for 
reinforcements from 2001 to 2006 or 2008 that was not heeded? 
Can you tell the committee who made those requests? Can you 
tell the committee who in the chain of command denied those 
requests? Because I find the President's assertion, having been 
a part of a very strong bipartisanship support for Afghanistan, 
really astonishing.
    Chairman Berman. Unfortunately, another issue left hanging. 
The time of the gentleman has expired.
    Mr. Pence. I would ask unanimous consent to permit the 
Admiral to answer the question.
    Chairman Berman. Any objection?
    Admiral Mullen. Just in my tenure here, sir, that General 
McKiernan specifically had a fairly substantial request for 
upwards of 20,000 forces, which we couldn't meet because they 
just weren't there. They were in Iraq.
    I spoke out very early that Afghanistan had been under 
resourced and that, from where I lived, the heart of that was 
under resourced with military forces. We didn't have them 
because they were pushed to Iraq, and we couldn't--we really 
didn't have the flexibility to move them. That was the priority 
of a previous President. We do what the President says. And 
that is what we did.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Massachusetts, Mr. Delahunt.
    Mr. Delahunt. I thank the chairman.
    And I would note, in response to the answer by Admiral 
Mullen, that I would submit that we are here today because over 
the course of the past 8 years we have been distracted from 
focusing on Afghanistan, and that is why we find ourselves in 
this terrible situation that we are discussing here today.
    I think it was you, Admiral Mullen, that talked about 
turning it around. We have been there 8 years now, and we are 
still talking about turning it around. Is 18 months going to be 
sufficient? We have been talking about training the Afghan 
Army, the Afghan police. The rates of desertion have been 
particularly disturbing during the entire 8 years, and here we 
are in 2009 going into 2010 talking about training and building 
an Army. What has happened over the course of 8 years?
    Admiral Mullen. In my view, when you under resource an 
effort for an extended period of time, when you in many ways 
starve an effort, the impact--and I don't just mean with forces 
because we have done it with training, we have done it 
intellectually, we have done it diplomatically, politically, 
you name it. We were focused on the other war, and that was a 
priority. And the impact of that, I think, is evident in where 
we are right now.
    So I understand better than anybody that this is our 9th 
year of war and we are losing people, and every single one is a 
tragedy, and I understand that. But in many ways this strategy 
is a new strategy, and it is as if we were starting over. And I 
know we are not. But what I said earlier with what Pakistan has 
done, moved, we have got a new government--or, I am sorry, new 
leadership, a freshly elected leadership in Afghanistan, we 
have got new leaders on the ground and all those things.
    Mr. Delahunt. Admiral Mullen, let me interrupt you. That is 
a very difficult tale to tell to the American people that have 
been there going on 9 years, and here we are still talking 
about turning it around. I respect what you have said, I concur 
with what you said. And let me indicate all three of you have 
served your country very well. But we are here to make a policy 
decision at some point in time in terms of what our position is 
going to be.
    The President talked about consultation in conversations 
with world leaders, with our allies in NATO. Maybe, Secretary 
Gates, you can respond. Have we got hard commitments from our 
allies in terms of dollars, in terms of the civilian side? Do 
we have hard commitments in terms of incremental numbers of 
military personnel being assigned to this new surge, if you 
will?
    Secretary Gates. Yes, sir, we do, and we anticipate getting 
more during the meeting that Secretary Clinton is going to 
tomorrow and at the London conference in January.
    I would point out that the Japanese have committed $5 
billion for Afghanistan. We have some firm troop commitments. 
Those countries have not announced them to their own public, so 
we are not in a position to announce them for them.
    Mr. Delahunt. The President has also used the figure of $30 
billion last night in his remarks to the American people. I was 
unclear as to is that additional monies that the American 
taxpayer will have to put on the table? And what period of time 
does that cover? And if we are talking about an 18-month surge, 
can you give us an estimate of the additional monies that it is 
going to cost the American people?
    Secretary Gates. The additional cost for Fiscal Year 2010 
is between $30 billion and $35 billion, and it is additive to 
the overseas contingency proposal that the appropriations 
committees have in front of them of $130 billion. I would point 
out as a result principally of our drawdown in Iraq the 
supplemental in Fiscal Year 2008 for Afghanistan and Iraq was 
$185 billion. This OCO for 2010 will be about $165 billion.
    Mr. Delahunt. Let me conclude by just commenting on an 
observation by Mr. Payne of New Jersey regarding India. 
Secretary Clinton, if you have time, have we consulted with the 
Indians in terms of their relationship with Pakistan in 
reducing the concern that the Pakistanis have relative to 
India?
    Secretary Clinton. Yes.
    Chairman Berman. The time of the gentleman has expired. 
Yes, no questions are very good for the last 7 seconds.
    The gentleman from Florida Mr. Mack is recognized for 5 
minutes.
    Mr. Mack. Thank you, Mr. Chairman. And I want to thank our 
witnesses for being here today and for your service to our 
country.
    I agree with many of the President's points in his speech. 
I, too, believe that with every fiber of my being that we as 
Americans can still come together behind a common purpose. 
Nonetheless I disagree with the President's decision to 
personally relay to our enemies when they can regroup and when 
they can retake Afghan territory. I simply cannot understand 
and cannot agree with this approach. For President Obama to 
indicate that he has already made a decision that will take 
effect in 18 months irrespective of what the situation is on 
the ground not only emboldens our enemies, but allows them to 
prepare and plan. Imagine if the Taliban leadership telegraphed 
to the world that on a certain day they would reinforce a 
certain region, and on another day they would withdraw their 
forces. That doesn't make sense, and neither does President 
Obama's decision to tell our enemies what our plans are.
    And, in fact, when the President says that we will begin to 
withdraw troops in July 2011, doesn't that, in fact, say to all 
of you to begin your plans to withdraw troops, which in effect 
takes our eye off the ball? Shouldn't our purpose, shouldn't it 
be what we are looking for is to win the war? I will ask each 
one of you to answer.
    Secretary Gates. Well, first, I think it is. We wouldn't be 
in this if we didn't think we could be successful and if 
success was not--and victory in terms of achieving our 
objectives was not possible.
    Again, I would say that, you know, are the Taliban going to 
be more emboldened than they already are because of this 
announcement? I don't think so. They are moving as aggressively 
now as we have ever seen them. And what are they going to do? 
Are they going to lie low for 18 months? That would be terrific 
news because that would give us open-field running. Are they 
going to go back to Pakistan and wait for 18 months? Terrific. 
It gives us the opportunity without opposition to help the 
Afghans build. Are they going to lie low in Afghanistan?
    If they are not attacking Afghans, if they are not blowing 
things up, if they are not attacking our coalition troops, 
then, again, that gives us a huge opportunity. On the other 
hand, if they are going to engage, if they are going to be as 
bold and as aggressive as they have been over the past year, 
then they will encounter 150,000 foreign troops and a couple 
hundred thousand Afghan troops who will root them out, and we 
will reintegrate those that are willing to come over to the 
government side, and we will take care of the rest. But the 
point is they are going to confront a very aggressive and very 
capable military force not just for the next 18 months.
    Again, July 2011 is not a cliff, it is the beginning of a 
gradual process of turning over responsibility for security to 
the Afghans over a period of time as conditions on the ground 
permit.
    Mr. Mack. Mr. Secretary, and Madam, that is probably a 
sentiment shared by all of you. So if I may, then, what is not 
terrific and what is not great is if at the end of 18 months we 
begin to withdraw and these terrorist groups then begin to 
retake Afghanistan. That is not something that I think the 
American people want or the administration wants.
    But let me just say this then. It is well known that the 
President took his time, and I am not faulting taking time, to 
come to this decision. And I hope this means that you can 
answer some of these questions. When will the training begin, 
how many trainees does it take, how many trainees are 
available, what are the benchmarks, how long does it take to 
train the trainees, and do we have a schedule of how this 
training is going to take place?
    Admiral Mullen. The training has begun. And probably the 
most significant shift that General McChrystal put in place is 
to partner with the Afghan forces, the Army and police. We are 
at about 95,000 for both the police and the Afghan Army right 
now to get to increased goals of about 134,000 for the Army by 
the end of 2010. We have got specific goals; we assess it 
annually. We are very focused on what it is going to take to 
retain them--train them, retain them, recruit them and retrain 
them. We know those are concerns as well. We have got strong 
leadership in place to get at this, new leadership to get at 
this. So this is really for General McChrystal, after security, 
his top effort.
    Chairman Berman. The time of the gentleman has expired.
    It is clear we will not finish giving all members an 
opportunity to ask questions. The panel has another 35 minutes. 
Next week we will be having a hearing with top--we hope to be 
having a hearing, it is not all tied down yet--with leaders in 
the field both on the military and civilian side. It will be 
the intention of the chair to start the questioning at that 
hearing where we leave off today. And I am going to ask Vice 
Chairman Ackerman to preside while I leave and be right back.
    Mr. Ackerman. Mr. Chairman, with all due respect on behalf 
of myself and the rest of the senior members----
    Chairman Berman. I am worried.
    Mr. Ackerman [continuing]. Who chair subcommittees, we will 
defer down the line to Mr. Wexler to chair the rest of the 
hearing on this his last day as chairman.
    Chairman Berman. And while he is walking over here, the 
gentleman from New York, Mr. Meeks, is recognized.
    Mr. Meeks. Thank you, Mr. Chairman.
    Madam Secretary, first please give my heartfelt 
congratulations to the youngest Clinton on her decision to make 
a monumental move in her life.
    Secretary Clinton. Thank you. It was a very long, 
thoughtful process.
    Mr. Meeks. I also want to thank the President of the United 
States for, as he ended his speech last night, talking about 
the American people coming together and being unified. I think 
that we have forgotten that right after 9/11 the American 
people and, in fact, this Congress almost unanimously wanted to 
go into Afghanistan to make sure that we start doing the work 
that is being done now. The only time that when we became 
divided as a Nation is when this President decided that 
Afghanistan was not to be our focus, that Iraq should be.
    And so I want to--and I think that part of what the 
President is trying to do is to bring this country back 
together so that we can refocus on where we was in the 
beginning when this horrific act took place that killed so many 
American people, American citizens. And I think that is the 
direction that we need to be going, moving back into in uniting 
as a country. Democrats and Americans were together at that 
particular time, and we should be together again as we move 
forward to do what we have to do, and not, as Secretary Gates 
says, just abandoning Afghanistan for several reasons. So I 
want to compliment the President on that.
    With that being said, I also know that Secretary Gates and 
Admiral Mullen have indicated that we need to show the American 
people a shift in momentum within 12-18 months to ensure public 
support. And my question is what do you think will demonstrate 
such a shift in momentum so that we can make sure that we have 
the confidence of the American people?
    Admiral Mullen. I think it starts, sir, with security, and 
the first individual who will be able to tell us that is 
General McChrystal. It is what they seek, it is what the 
Afghans seek more than anything else as he travels through 
Afghanistan, because it is going in the wrong direction from 
security that gives us an opportunity to train and transfer 
security responsibility to the Afghan Security Forces.
    But I also think it is very clear we need to see progress 
on the part of the Karzai government. This gets to the 
ministers, the provincial governors, things like 
reconciliation, reintegration, local governance, how that is 
going as well.
    We need to look at--and I am optimistic--look at continuing 
contributions on the part of our international partners as a 
measure. And this is 43 countries. We are not in this alone at 
all; 43 countries are here.
    So those are some of the areas that we would look at for 
progress over the next 18 months.
    Mr. Meeks. Well, let me ask. Our current policy that the 
President espoused, do you describe that as removing 
counterinsurgency or counterterrorism?
    Admiral Mullen. It is principally counterinsurgency. It is 
very focused. It is focused on key population centers, key 
production centers, key lines of communications. It is not 
focused throughout the country. And, in fact, we are going to 
ask our coalition partners to focus in the north and west, 
because the worst part of the insurgency is in the south and 
the east, in the Pashtun Belt, and that is where we have sent 
the Marines in the south, and we will put forces in there to 
turn the tide there.
    But there is a counterterrorism piece of this as well that 
is resident not just in the east and the south, but will be 
part of operations throughout the country.
    Mr. Meeks. The prior strategy, I don't know whether it is 
the same, I guess General McChrystal had indicated that we 
would need about 400,000 Afghan security forces. Is that figure 
still what we are shooting for, aiming for?
    Admiral Mullen. Well, there is an aspirational goal out 
there that is somewhere in that number, but where we really are 
in this strategy is to look at it year to year. We know what we 
need, we know what we have, we know the things we have to fix 
with Afghan security forces right now, and we know where we 
want to be 1 year from now, 2 years from now, and we are going 
to assess that. And that is a high-risk area for us. So rather 
than put something out there that we couldn't achieve, we are 
going to look at it constantly, but literally year to year, and 
focus on achieving our annual goals.
    Mr. Meeks. And lastly, real quickly about the payment of 
that, but I heard some of that. I know that it worked with 
reference to the surge in Iraq. It was because the Sunnis 
turned against al-Qaeda, and that was the Awakening. And I was 
wondering if there is any such momentum that can be felt on the 
ground now in Afghanistan to show that that kind of shift is 
about to take place?
    Admiral Mullen. There is some of that. I would not say it 
is at the level of the Sons of Iraq at this point.
    Mr. Wexler [presiding]. The gentleman's time has expired.
    Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    Madam Secretary, Secretary Gates, Admiral Mullen, thank you 
for appearing today.
    Afghanistan is not America's challenge alone, it is the 
world's problem. And right now our ratio of U.S. troops to NATO 
troops is 2 to 1. After this surge it will be 3 to 1, assuming 
no other NATO input.
    The President last night was not exactly clear in the 
nature of the commitments that are going to be forthcoming. 
Many of the world's powers are content to sit while America 
sacrifices on their behalf. You have touched on this today, but 
I think the question deserves further unpacking. I believe you, 
Mr. Secretary, mentioned Japan is going to contribute $5 
billion. There is a move toward meeting with other NATO allies 
to harden those commitments. But we are leading with our chin 
right now, and the American people need to know this is not a 
disproportionate burden that we are undertaking. Can you 
comment on that? And I will pivot to some other questions.
    Secretary Clinton. Well, Congressman, I think it is 
important to recognize that until relatively recently, the 
ratio between American and non-American NATO ISAF troops was 
very close, because, as Admiral Mullen was saying in response 
to, I think, Congressman Pence's question, we were at a level 
of 30,000 for a very long time. And the NATO troops, Bob, I 
think were about that or a little bit more all together. And so 
now before this latest decision by the President, we were at 
68-, they were about at 42-, something like that. So it has 
been certainly a comparable commitment given the relative size 
of our respective force levels.
    And I think if, as Admiral Mullen said, we get the kind of 
response we have reason to believe we will, yes, we will have 
additional support from our NATO ISAF allies, we will still be, 
at the end of our troop commitments, about 2 to 1, but there 
will also be a collective presence that is very significant 
since it was the United States that was attacked, and all these 
other countries under Article 5 of NATO, others like Australia 
coming in, have really seen this fight which was picked with us 
as their fight as well.
    Secretary Gates. Congressman, I would just like to make one 
other point. Since 1941, the United States has borne a 
disproportionate responsibility for peace and security around 
the world. This is not a new development. And it has gone with 
our assumption of world responsibility along with our world 
power.
    Mr. Fortenberry. Let me thank you. Let me pivot to another 
question.
    What is the definition of success, and, given his current 
plan, what is the probability of success?
    Secretary Gates. I believe that success in Afghanistan 
looks a lot like--from a security standpoint looks a lot like 
success in Iraq, and that is the gradual transfer of 
responsibility for security to the indigenous forces and the 
local government, and with the United States being able to pull 
back into first a tactical and then strategic overwatch and 
then withdraw our troops to the point where we have a minimal 
presence.
    I think we ought to think about, if the Afghans want us, a 
prolonged partnership well into the future of training and 
equipping. But fundamentally it is the transfer of this 
responsibility to an Afghan security force that is able to 
sustain that security and protect their own borders.
    Mr. Fortenberry. And the probability of that outcome?
    Secretary Gates. I think if we did not believe that this 
outcome had a strong probability, we would not have supported 
it.
    Mr. Fortenberry. Let us go back to the earlier point about 
international commitments. Now, you mentioned a London 
conference. You mentioned that you are clearly trying to be 
nimble enough to allow other countries to manage their own 
internal political dynamics as they make these commitments. But 
how hard and real is the momentum toward burden sharing with 
us?
    Secretary Clinton. I think it is very real. Before coming 
into the hearing, I spoke with Secretary General Rasmussen, the 
Secretary General of NATO. He has been working very hard to 
help shape the commitments that NATO members will be making. I 
know everyone at this table----
    Mr. Fortenberry. And other world powers as well.
    Secretary Clinton. And other world powers as well. And it 
is not only the commitment of troops, which are very important, 
but also the commitment of resources. And there will be a 
number of announcements over the next days and weeks that we 
will be sure that this committee has notice of.
    Mr. Fortenberry. Thank you.
    Mr. Wexler. The gentleman's time has expired.
    Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman, and thank all of you 
here today.
    Secretary Clinton, you said this was one of the most 
complex foreign policy challenges you have ever seen. And, 
Admiral Mullen, you said you have never seen an issue so 
thoughtfully and thoroughly reviewed. Well, I want to thank the 
President, all of you, the entire team of the administration, 
for giving this issue the time and really the thoroughness that 
our troops, our values and certainly our security deserves.
    Secretary Clinton, this past month you were in Afghanistan. 
You delivered a sharp message to President Karzai about needing 
to clean up the corruption to really address the needs of the 
Afghan people. What is it going to look like? What kind of 
benchmark should we be looking for in the weeks and months 
ahead to see if we are making progress on that front?
    Secretary Clinton. Well, Congressman Carnahan, there are 
some areas where we can actually measure the progress. For 
example, in education there has been significant progress. The 
United States has been quite involved in moving from a school 
population of a little less than 1 million, nearly all of whom 
are boys, to a population of 7 million, 40 percent of whom are 
girls, and there is about 5-6 million more. So we are going to 
be able to measure that.
    In terms of agriculture, which we think is a key strategic 
imperative because it is the best way to raise incomes to wean 
people from poppies, the United States and other allies have 
been contributing to better seeds, better fertilizer, working 
with a really quite competent and effective minister of 
agriculture.
    The minister of finance has begun to move against a lot of 
the petty corruption. There are 1 million cars in Afghanistan. 
It took a month and a half to get a car registered, and you had 
to go through a lot of different hands to get there. The 
process has been streamlined. It has been not only cleaned up, 
but it is now benefiting the Treasury of the country to the 
tune of about $50 million a year.
    So there are specific areas where we can see with a 
transparent, accountable partnership the progress being made. 
We are now certifying agencies. We are not going to put a penny 
of American assistance into any agency that is not certified. 
So I think that as we go through this, we will be submitting 
reports to this committee and other relevant committees 
demonstrating how our civilian assistance program, support for 
governance, the anticorruption efforts we are undertaking are 
working and what kind of expectations we have for them.
    Mr. Carnahan. Thank you.
    And we also heard the President talk about these new 
resources that can allow us to make a final push that is 
necessary to train the Afghans so that we can transfer 
responsibility. I have big concerns about the training. We have 
heard some of the same discussion in Iraq. I visited there in 
2005. We saw big claims about how quickly we were going to be 
able to train up the Iraqi troops and police. We were way off 
on those estimates in terms of quality, quantity, in terms of 
the time to train.
    What lessons have we learned from that, and what kind of 
measure should we be looking for to be sure we are getting the 
Afghan Army and police trained in the numbers that we need? For 
Admiral Mullen and Secretary Gates.
    Admiral Mullen. I think that we have learned those lessons. 
We see similarities in the sense that police are not coming 
nearly as quickly as the Army, for instance. That was the case 
in Iraq. We have really taken those lessons and used them to 
focus on what we need in Afghanistan. But it is a big 
challenge. And I indicated earlier that is a high-risk part of 
the strategy is training and equipping the Afghan security 
forces.
    That said, it is a good fighting force. We have had a 
considerable amount of progress on the Army. We are way behind 
on the police side. There are several programs in place to get 
at this, and I don't mean just brand new. And then the 
fundamental shift, as I said earlier, about partnering with 
them in the field, getting them off the bases so they are in 
the fight in the villages. Together with our coalition forces 
we think that will accelerate the ability to transfer that 
responsibility.
    Mr. Carnahan. And Secretary Gates.
    Secretary Gates. I think exactly what Admiral Mullen said. 
I think, as he mentioned, we have changed the personnel, the 
leadership of the training program. The key about the training 
that is important is the best part of the training is not the 
basic training where they learn how to march and learn how to 
shoot, it is when they partner with us in combat. And it not 
only teaches them the skills, what we saw in Iraq is that it 
gives them confidence. And the more confidence they have, the 
more ability they have to operate on their own.
    Mr. Wexler. The gentleman's time has expired.
    Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    Let me first say to Secretary Gates, Texas A&M misses you, 
but we need you exactly where you are today. And thank you for 
the great job and your service to our country.
    To Secretary Clinton, Admiral Mullen, I was over in 
Pakistan, Afghanistan last 4th of July when the conditions were 
starting to deteriorate, and I remember coming back and 
visiting with President Bush about this and making the 
recommendation that we need more resources. I know in the 
transition team this is one of the recommendations that was 
made, was to do exactly what you are getting ready to do, and 
that is a surge in forces. In my view, we either get all in to 
win, or we get out, and I think that is how most Americans feel 
about this issue.
    To Secretary Gates and Admiral Mullen, the way you turn the 
Iraq war around and many others, I think there are many lessons 
to be learned by that. The counterinsurgency mission, the 
surge, the Sunni Awakening, many of these actually turned it 
around so that we can say that we have won that war.
    The one thing that we fought very hard in Congress was the 
idea of timelines. The President has announced an 18-month 
timeline before withdrawal. I sensed a bit of inconsistency in 
the message last night between withdrawing based upon 
conditions on the ground and a withdrawal based on an 18-month 
timeline. My concern is the Afghan people and the tribal 
leaders are trying to weigh who their alliance, allegiance is 
going to be with, and if they don't see a long-term commitment 
or a sustainable commitment on our part, and if they feel that 
we are going to abandon the mission at any given point, that 
they are going to side with the Taliban, because if we leave, 
they are dead. And that is a simple message.
    And I want to pose that first question, if you can explain 
to me the inconsistency between withdrawing based upon 
conditions on the ground versus a withdrawal based upon an 18-
month timeline.
    Admiral Mullen. I think the absoluteness of it is not 
intended at all. And I think withdrawal exit strategy, we are 
done, good-bye, that is just not going to happen. It is a 
transfer and transition strategy. And the decision is show 
strong resolve. This is a huge commitment. It is the right 
commitment. It gives us the forces to turn this thing around, 
we know we can do that, and at the same time it creates an 
expectation we are not going to be there forever.
    And to the discussion about telling the enemy what we are 
doing, I mean, this insurgency has gotten worse every year 
since 2006. It is not going to significantly get better or 
worse based on July 2011, at least that is my view. So it is a 
signal that we are in, we can win this thing, and at the same 
time, Afghanistan, you have to pick up on this. And we cannot 
win this if the Afghan Government and the Afghan people don't 
reach out and share this. Another 30,000 troops on top of this 
wouldn't make any difference. That is the message. And that has 
got to happen over the next couple of years. And General 
McChrystal, I am sure, and he will tell you this personally 
when he is here, feels this way as well. We have got to turn 
this thing in the next 18-24 months.
    Mr. McCaul. With respect to what we did in Iraq with the 
Sunni Awakening, can you tell me what this plan proposes? 
Because in my view, winning the hearts and minds as we did with 
the tribal leaders in Iraq is critically essential in 
Afghanistan.
    Admiral Mullen. Great focus there. We have seen some of 
that. I think it is way too early to say that it is going to 
happen per se, but part of this strategy is the reintegration 
and reconciliation aspect of it at senior levels right down 
into the villages. And so we expect that will be a part of this 
as well, but it is not going to happen until we start turning 
security around.
    Mr. McCaul. With the last minute I have, there have been 
reports that--and I believe we win this with good 
intelligence--there have been reports that terrorists are 
captured on the battlefield in Afghanistan and are taken to the 
detention facilities and then read their Miranda rights. The 
first line is, you have the right to remain silent; the second, 
you have the right to an attorney.
    I don't know whether, in fact, that is happening. If it is, 
in my view, that cuts off the intelligence flow because we 
can't get inside the terrorist's head like we did with Khalid 
Sheikh Mohammed. Will the panel comment on that?
    Secretary Gates. I don't think that is true.
    Mr. McCaul. And it would be good to verify whether there is 
a lot of perhaps it is misinformation out there that this is 
occurring.
    Secretary Clinton. Well, we will try to find out for you, 
but I don't have any reason to believe that.
    Admiral Mullen. Nor do I.
    Mr. McCaul. That is good to have that answer. Thank you.
    Mr. Wexler. The gentleman's time has expired.
    Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman. And I want to thank the 
panel for being here and the Secretary for all of your 
dedication to this country over the years. Admiral Mullen and 
certainly Secretary Gates, you could have been watching Texas 
play Texas A&M, and it would have been a lot easier.
    Secretary Gates. That is the most painful thing to say in 
this entire hearing.
    Mr. Sires. I was watching a report the other day, and you 
see all these reports on television, and it goes to the 
question that my colleague asked before. It is regarding our 
U.S. soldiers, whether they have a difficult time building 
trust and confidence with the Afghan forces that they are 
supposed to train. If there is a lack of trust as an issue of 
our soldiers working with the Afghanis, isn't that going to 
imperil our efforts for the next 18 months?
    Secretary Gates. Let me answer and then ask Admiral Mullen. 
I think that one of General McChrystal's central--one of the 
central themes of his new strategy is a genuine true partnering 
of ISAF and Afghan forces where they are working together, 
living together, operating together. Too often in the past, the 
Afghans were set over here, and we did the fighting or we did 
whatever was going on, and we didn't give them very much 
intelligence, they were starved for equipment, but mainly they 
were kept apart by some of our forces and by some of the other 
ISAF partner forces.
    General McChrystal is determined to bring them together, 
and it is in that relationship that the trust builds. And that 
is exactly what we saw happen in Iraq.
    Admiral Mullen. And the stories that I hear based on this 
shift, which is focusing on partnership, are very positive, but 
it is very early. I mean, a significant--over about 80 percent 
of the Afghan units right now, we are partnered with them, and 
there were none in June. So that shift is really significant, 
and that will build a trust. And it is basically living with 
each other, planning, fighting, all the things that the 
Secretary mentioned.
    Mr. Sires. Thank you.
    And I know the President mentioned the other day that we 
must, and I quote, ``invest in our homeland security and 
improve and better coordinate our intelligence.'' I certainly 
believe in this. What are we going to do differently now that 
we haven't been doing for 8 years in terms of gathering 
intelligence?
    Admiral Mullen. Well, I think it is continuing to improve. 
We have learned a lot since 2001 with respect to all that. And 
I think in particular our intelligence has gotten better and 
better, and I think we just need to keep that up. And I would--
I think our agencies, I think there are 17 intelligence 
agencies, and they are much more integrated, and they share 
much better than they have in the past, and we need to continue 
to do that. And this is an intelligence-driven--the 
counterinsurgency efforts is an intelligence-driven operation, 
and our ability to gather intelligence, teach the Afghans how 
to do this, and turn it around so with that fresh intelligence 
we can continue to succeed in terms of countering the Taliban 
is core to our ability to reverse this momentum.
    Secretary Gates. I would also say that over the last 15-16 
months, I have made it a high priority to send more 
intelligence surveillance and reconnaissance assets into 
Afghanistan. So Predators, Reapers, Warriors, all the different 
kinds of collectors and capabilities that we have were flowing 
in now, Liberty airplanes that are being put together in Texas 
to provide full-motion video. So there has been a huge influx 
of ISR assets to help our commanders in the field.
    Mr. Sires. And I assume we are doing the same thing with 
Pakistan in terms of the intelligence improvement.
    Admiral Mullen. Well, I mean, we are in support of them in 
many ways in terms of training. We actually have had a 
relationship with their intelligence service. And I recognize 
that there are views of that, but we have actually--there is a 
very positive side of that historically and recently as well. 
And these same kinds of things the Secretary is talking about, 
to work to try to share with them on our mutual objectives, is 
a big part of where we are and where we need to continue to go.
    Mr. Sires. Thank you. Thank you for your service to our 
country.
    Chairman Berman [presiding]. The time of the gentleman has 
expired. We will have, I think, time for two more questions if 
that works, two more questioners.
    Mr. Bilirakis, the gentleman from Florida, is recognized.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it. I 
thank the panel staying, and I really appreciate your service 
to our country.
    I would like to address this question to all the witnesses. 
I know we have touched upon it, but maybe a little more detail. 
A 34-page document signed by General McChrystal and Ambassador 
Eikenberry outlines an integrated civilian-military plan which 
contains 11 counterinsurgency transformative effects. Does the 
plan President Obama articulated last night execute these 
worthy goals, such as improving population security and 
reducing insurgent capability while advancing governments?
    Secretary Gates. Yes, it does. And the difference is that 
it is focused--our strategy has focused very heavily, 
particularly from the United States standpoint, on the southern 
and eastern parts of Afghanistan.
    Secretary Clinton. Yes. And we have taken significant steps 
to actually accomplish the integrated civilian-military 
approach that both General McChrystal and Ambassador Eikenberry 
have proposed. For example, we have beefed up the embassy in 
Kabul. We have assigned different responsibilities so that, for 
example, there is one ambassador there working with Ambassador 
Eikenberry who is responsible for coordinating aid.
    There is a lot of work that brings together our military 
and civilian personnel. I met with a group of the teams that 
were out in the field when I was there for the inauguration and 
heard about how well they are coordinating and the fact that we 
are embedding civilians with our military units. So we are on 
the way to trying to implement exactly that kind of integrated 
strategy.
    Admiral Mullen. If I can just say briefly, I was in Helmand 
with the Marines right after their operation in July. And 
Secretary Clinton has said this, and she has seen this. I 
watched our civilians from the State Department literally go in 
right behind the fight, first of all.
    Secondly, I have seen it in Iraq, I see it in Afghanistan, 
the multiplier that those civilians are. I am not sure what the 
right number is, but one civilian who can make a difference is 
just hugely impactful in terms of the overall strategy. I don't 
know if it is a company of marines or a battalion, but, I mean, 
in an area of expertise, that makes a difference, agriculture, 
et cetera.
    So I just can't say enough about the shift and the focus 
and the difference that it is making in this strategy, and it 
needs to continue to do so.
    Mr. Bilirakis. Thank you.
    One last question. Is President Obama's specific--is this a 
specific plan, counterinsurgency plan, outlined by General 
McChrystal in August?
    Secretary Gates. I think it is fair to say that the 
assessment that General McChrystal submitted in August was the 
basis of the entire dialogue that we have had for the last 3\1/
2\ months. And what we have been working on is how do we--the 
assessment was based on his view of what he was being asked to 
do by the President's decisions in March.
    What troubled me fairly early on was that those decisions 
were being interpreted fairly broadly as full-scale nation 
building and creating a strong central government in 
Afghanistan, neither of which was our intent, nor was it our 
ability to do in any reasonable timeframe and at any reasonable 
cost.
    And so a good part of the debate and the discussion we have 
had is how do we focus that, how do we narrow the mission so 
that we are focused on selective capacity building in the 
government, capacity building that is essential to our success 
and the transition of security responsibility and ultimately 
the defeat of al-Qaeda? How do we protect the population? What 
populations do we need to protect? How much of the country do 
we need to do that in, and so on? And so that was a good part 
of the discussion, but I would say that the starting point was 
his assessment.
    Mr. Bilirakis. Thank you very much. I appreciate it.
    I yield back the balance of my time.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Virginia Mr. Connolly. I am sorry, no.
    Mr. Connolly. I am sorry, you said.
    Chairman Berman. No. I withdraw it.
    Mr. McMahon of New York.
    Mr. McMahon. Thank you, Mr. Chairman. And it is not the 
first time the good gentleman from Virginia has tried to do 
that to me.
    Chairman Berman. That you know of.
    Mr. McMahon. Hello, Madam Secretary. It is great to see you 
again. And, Secretary Gates and Admiral Mullen, I am Mike 
McMahon. I am a new Member of Congress from Staten Island and 
Brooklyn, New York.
    We all remember September 11th with clear, vivid and sad 
memories, but for us in Staten Island and Brooklyn, the tragedy 
really hit home. A third of the firefighters who were killed 
that day came from my district, over 10 percent of the 
individuals. I will never forget the day because it was my 
first election. It was primary day in New York, and we were out 
campaigning. We heard the news of the first jet, then got down 
to the harbor, got on the ferry and watched the second jet come 
in, and then watched the buildings fall. And we kind of felt 
like that is what it would like to be in World War II.
    As civilians we rallied, and we set up triage centers, and 
we set up blood banks and waited for the injured to come. 
Staten Island is the logical place to bring them, and a lot of 
people came that were not injured. We waited and waited, and no 
survivors ever came. And that was the most eerie feeling I 
think that any of us ever felt.
    I say that because I think we all realize on that day or 
the next day or the next day, as a Nation, that we had a sacred 
trust, a mission that we had to complete. And it was simply, as 
you said here today, Admiral, to disrupt, dismantle and defeat 
al-Qaeda in Afghanistan and Pakistan, and to prevent its 
capacity and the Taliban's to threaten America and our allies 
from either country in the future.
    Unfortunately, 8 years later we are still sitting here 
talking about this because we as a Nation were distracted. We 
were led down a pernicious primrose path by the prior 
administration, God knows why. So many lives were lost, so much 
treasure, as people say, were lost, our standing in the world. 
And here we are back again completing this mission that it is 
indeed our sacred trust to do. I want to thank you on behalf of 
the people that I represent for your resolve and the 
President's resolve to do this.
    And, Madam Secretary, obviously from your testimony, from 
your statement, and for the way you have answered the 
questions, you have not forgotten what we have lost that day. 
It was a tragedy. And if we were here in November 2001, we 
would not be having the distracting questions you are hearing 
today, like questions about individual cases of military 
justice. They are certainly important, but this should not 
distract us again, and issues of the timeline and whether that 
should distract us again. We must be resolved. And I am so 
proud of you that you have that resolve.
    I do want to <greek-l>the  deg.ask a question just from 
sort of a geopolitical point of view. If you look at the map of 
Afghanistan, if you look around and you see the countries that 
surround it, many are Muslim, including Turkey. And clearly the 
Turks in particular, because they are Muslims as well, have had 
great success in Afghanistan in dealing with the people there 
in gaining their trust.
    What are we doing to encourage more help from Turkey, and 
help from Turkmenistan, and help from Uzbekistan and 
Tajikistan, and from China, and from India, and obviously 
Pakistan, all these countries that border Afghanistan? It would 
seem to me that their responsibilities should be raised, and 
their involvement should be raised. Could you just tell us is 
there hope there that a regional solution can be here as well 
as a global?
    Secretary Clinton. Well, Congressman, thank you for what 
you said and for your leadership. And we are certainly working 
to add to the list of countries who are working on behalf of 
this mission. Turkey has been a great ally, and they have been 
with us from the very beginning. They are a NATO ally, and they 
are a true contributing country in Afghanistan. United Arab 
Emirates has also contributed troops and money. We expect that 
other countries will be as well, and we will be announcing some 
of those.
    I think that the regional picture is a little more 
challenging, but we have gotten a lot of good help from the 
Central Asian countries in assisting us with the transit of 
material, with the use of military bases.
    The Admiral just reminded me Jordan has also been working 
with us.
    So we think that our renewed effort, the President's 
resolve, is actually going to bring more countries into this 
fight.
    I happen to agree, unfortunately, with the thrust of your 
comments that, you know, we just took our eye off the most 
important ball. And there is no doubt in my mind that had we 
stayed with it, had we, you know, paid more attention to our 
commanders on the ground in Afghanistan, because it is a longer 
history--I know some of the people who did have command 
responsibility in Afghanistan, and there were very frequent 
requests up the chain of command for additional resources, but 
we are where we are right now. And just because it has been a 
frustrating and challenging 8 years, and it is unfortunate that 
this President has to face up to the hard decisions that we as 
a country have to make, doesn't mean we shouldn't be doing what 
we are doing, and that is why we are here today.
    Chairman Berman. The time of the gentleman has expired.
    Our three witnesses, you wouldn't know it by listening to 
them, but they had to do this for 2\1/2\ or 3 hours earlier 
today. You were superb advocates on behalf of the 
administration's position. We thank you very much for being 
here. We will start our second hearing on this subject with 
field leaders from where we left off in terms of questioning. 
Thank you all very much for being with us today.
    [Whereupon, at 4:18 p.m., the committee was 
adjourned.]<greek-l>Appendix at the end of Part II, 
53829.001 deg.<greek-l>Transcript rec'd; completed and 
proofread; hold for Part IEdits from: Boozman, Green, Ros-
Lehtinen, Berman deg.


                 U.S. STRATEGY IN AFGHANISTAN, PART II

                              ----------                              


                      THURSDAY, DECEMBER 10, 2009

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m. in room 
2172, Rayburn House Office Building, Hon. Howard L. Berman 
(chairman of the committee) presiding.
    Chairman Berman. The committee will come to order. Before 
beginning my opening statement, I would like to make two brief 
announcements on procedure. First, given the time constraints 
on the witnesses and to maximize the time members have for 
questioning, only the ranking member and I will make opening 
statements; after that we will turn to the witnesses for their 
testimony. Without objection all other members may place 
written statements in the record, and, as I mentioned at the 
end of last week's hearing, I will recognize members for 
questioning at the point where we left off last week. So those 
who did not have an opportunity to question our witnesses last 
week will get the first chance to ask questions today. The 
staff has sent out specific information about the order in 
which members will be recognized. And now we will go to the 
hearing.
    Last week the committee heard from Secretary Clinton, 
Secretary Gates, and Admiral Mullen, three of the President's 
top national security advisors. They did an excellent job in 
making the administration's case for the new strategy in 
Afghanistan and Pakistan.
    Today we welcome the top American officials on the ground 
in Afghanistan: Ambassador Karl W. Eikenberry, the chief of 
mission at our Embassy in Kabul, and General Stanley A. 
McChrystal, the commander of all United States and 
international forces in Afghanistan.
    The President and his team have made it very clear that our 
efforts to degrade the Taliban and defeat al-Qaeda cannot stop 
at the Durand Line. Indeed, nearly all of the jihadi groups 
operating in Pakistan and Afghanistan--al-Qaeda, the Pakistani 
Taliban, the Afghan Taliban, the Haqqani network, LET, and 
others--have joined together in an extended terrorist network 
that shares the same goals, including destabilizing Afghanistan 
and destroying the Pakistani state.
    Fortunately, there appears to be a growing recognition in 
Pakistan that it is impossible to differentiate between 
different terrorist groups, and that the same people killing 
American, international and Afghan troops are now arming 
suicide bombers in the streets and markets of Pakistan and 
killing Pakistani civilians.
    We sympathize with the plight of the Pakistani people who 
have suffered great losses from the growing number of terrorist 
attacks in that country. As reflected in the legislation 
recently passed by Congress, we are committed to doing what we 
can to improve their economic and physical security.
    As all of our witnesses emphasized in last week's hearing, 
the President's military strategy in Afghanistan can only 
succeed if it is accompanied by a robust ``civilian surge'' 
designed to improve governance, strengthen the rule of law, and 
promote economic development in both Afghanistan and Pakistan. 
This fact often gets lost in the debate about troop levels and 
the time frame for withdrawal, and we must make sure that these 
critical civilian programs aren't shortchanged.
    To that end, Ambassador Eikenberry, will you have enough 
capable civilians on the ground to help strengthen governance, 
build rule of law, and promote economic enterprise? Will these 
civilians have sufficient knowledge in these areas to be 
effective? Will they have sufficient experience operating in 
dangerous environments like Afghanistan? And are 974 civilians, 
as the administration has proposed having on the ground by next 
year, all we need? If not, when will you be able to tell us 
exactly how many are required? What will your new civil-
military campaign plan include that the August plan did not?
    With regard to the military strategy, I am curious: One of 
the keys to our success in Iraq was the ``Sunni Awakening,'' in 
which thousands of Sunni tribesmen, many of whom had 
participated in or aided the insurgency, essentially switched 
to our side. Is there any prospect of a similar shift in 
Afghanistan? Can we succeed in Afghanistan without such an 
``awakening''?
    Finally, General McChrystal, will 30,000 troops--even with 
an additional 7,000 apparently pledged by other nations--be 
sufficient to break the Taliban's momentum? Can we meet the 
President's objective of degrading the Taliban by focusing 
primarily on the south when the Taliban is already operating in 
the north? What types of soldiers--trainers, civil affairs, 
infantry--will comprise this 30,000 increase?
    Now I am pleased to return to the ranking member, Ms. Ros-
Lehtinen, for any remarks she would like to make. And following 
that, we will proceed immediately to the testimony of our 
distinguished witnesses.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, General 
McChrystal, and Ambassador Eikenberry. For months we have been 
requesting your presence before the committee to discuss the 
Afghanistan strategy, so we are extremely pleased that the 
administration has now authorized you to provide testimony. 
Welcome, sirs. Last week we received a broad presentation. When 
the chairman asked Secretary Clinton if she knew the resources 
that will be needed for the civilian surge she was unable to 
provide specifics, adding that the administration, and I quote, 
``will be submitting budget requests in order to achieve the 
numbers that are going to be needed.''<greek-l>` deg.
    So we anxiously await a more detailed assessment on what 
you need to prevail against our enemies. Before we look 
forward, we must present an accurate portrayal of the last 8 
years in Afghanistan, the progress that has been achieved, and 
the challenges that lay ahead. Claims of failure from some are 
an affront to our brave men and women, such as my daughter-in-
law Lindsay who served as a Marine officer in Afghanistan in 
2007, it minimizes their accomplishments.
    And let me briefly contrast Afghanistan in 2001 to 
Afghanistan now. The Taliban is not in power, does not control 
Afghanistan. While our enemies are rebuilding, Afghanistan has 
not been used to launch attacks against the United States 
homeland. There are serious problems with corruption, but there 
is a duly elected government in power, one that is an ally of 
the United States. And Afghan women and girls have 
unprecedented access to the health and education services and 
are integrated into Afghan society.
    As Ambassador Eikenberry noted this week, Afghanistan has 
come a long way since the dark days of the Taliban, and I have 
witnessed this progress during my travels there. Turning to the 
strategy announced by the President, I have five main issues 
for our distinguished panel. First, I am concerned about the 
delays in the decision making, the impact on our ability to 
succeed in disrupting, defeating, dismantling al-Qaeda and the 
Taliban.
    General McChrystal, you wrote on August 30th that the next 
12 months from that date were critical, yet one quarter of that 
time has already gone, and by the time the surge is expected to 
reach its full capacity three quarters of that time would have 
elapsed. Operations such as the Marine offensive Operation 
Cobra's Anger are being undertaken. Is this illustrative of the 
counterinsurgency strategy that will be carried out as part of 
the surge? And how does this compare to the counterterrorism 
strategy?
    Secondly, General McChrystal, has the President provided 
you enough troops and other resources to successfully complete 
our mission? There have been reports that the mission's goals 
have changed from your original proposal focusing on the 
elimination of the Taliban to instead ensuring that insurgents 
could no longer threaten the Afghan Government's survival. 
Also, are our rules of engagement robust enough to repel and 
permanently eliminate the Taliban as a threat? And as the 
chairman asked, Ambassador Eikenberry, do you have the 
necessary tools to carry out the civilian component of this 
strategy?
    Thirdly, I have concerns about the July 2011 trigger for 
withdrawal that has been highlighted in the President's speech. 
Talk of transition and exit ramps with an 18-month target to 
begin withdrawing telegraphs to our enemies that all they need 
to do is persevere and through a few difficult fighting seasons 
because the U.S. will retreat. Some also argue that withdrawal 
time lines make our troops wonder about the determination of 
Washington to succeed and could undermine our efforts to secure 
greater cooperation from our allies.
    The New York Times recently reported that the President's 
time table for withdrawal of American forces in Afghanistan 
rattled nerves in that country and in Pakistan as well, 
prompting diplomats to scramble to reassure the two countries 
that we would not in fact cut and run. A fourth concern 
involves the problems of command and control, coordination with 
our allies, and burden sharing. Our allies are being asked to 
provide more troops to help push the Taliban out of center and 
north.
    Some such as the Dutch, Canadians, British, and French 
shoulder a greater burden. Do you foresee difficulties in 
securing a greater commitment from our allies to contribute to 
the war effort? Do the forces that the NATO Security General 
identified have the combat capabilities that you require? And 
what actions has the administration taken to convince countries 
to give you more flexibility in placing troops where they are 
most needed rather than leaving them in safe zones?
    And fifth and finally, our Afghanistan strategy does not 
exist in a vacuum. At last week's hearing I referred to 
statements by the chief prosecutor for the international 
criminal court that he already has jurisdiction in Afghanistan, 
that he is already conducting a preliminary examination into 
whether NATO troops, including our American soldiers, may have 
to be prosecuted by the ICC. Also, as you know, three Navy 
SEALs, part of a team that captured the ringleader of those 
responsible for the 2007 brutal murder of four of our American 
contractors in Fallujah, are facing court-martial after the 
killer initially complained that he suffered a bloody lip while 
in U.S. custody.
    So combined with the reinvestigation of our U.S. 
intelligence activities, the prosecution of CIA operatives, the 
transfer of Gitmo detainees for trials in the United States, 
the negative impact of our activities in Afghanistan could be 
dramatic and could undermine critical intelligence gathering 
that could save, save the lives of Americans serving there. 
Despite these concerns, our nation's safety is at stake, and we 
must ensure that the brave Americans serving in Afghanistan as 
well as our critical allies are provided the support that they 
need to win this war decisively. I thank you both gentlemen for 
appearing before us. Thank you so much for the time, Mr. 
Chairman.
    Chairman Berman. Thank you very much. And now to introduce 
our witnesses. Ambassador Karl Eikenberry retired from the 
United States Army with the rank of Lieutenant General on April 
28th, 2009, and shortly thereafter was sworn in as the U.S. 
Ambassador to Afghanistan. Prior to this assignment, General 
Eikenberry served as the deputy chairman of the North Atlantic 
Treaty Organization Military Committee in Brussels, Belgium. He 
has served twice before in Afghanistan, first as U.S. Security 
Coordinator and Chief of the Office of Military Cooperation in 
Kabul, and then as Commander of the Combined Forces Command 
Afghanistan.
    General Stanley McChrystal is the current commander, 
International Security Assistance Force and commander, U.S. 
Forces Afghanistan. Previously, he served as director of the 
joint staff from April 2008 to June 2009, and as commander, 
Joint Special Operations Command from 2003 to 2008, where he 
led the operation that resulted in the death of Abu Musab al-
Zarqawi, the leader of al-Qaeda in Iraq. Ambassador, General, 
we are honored to have you here. Ambassador, why don't you 
begin?

STATEMENT OF THE HONORABLE KARL W. EIKENBERRY, U.S. AMBASSADOR 
            TO AFGHANISTAN, U.S. DEPARTMENT OF STATE

    Ambassador Eikenberry. Thank you, Chairman Berman, Ranking 
Member Ros-Lehtinen, and distinguished members of this 
committee. Thank you for the opportunity to present my views on 
Afghanistan today. I would ask that my full statement be 
submitted for the record.
    Last week, in a speech at the United States Military 
Academy at West Point, President Obama presented the 
administration's strategy for Afghanistan and Pakistan. His 
decision came after an intensive, deliberative, and a far 
reaching review, and I am honored to have been part of that 
process. I believe the course that the President outlined 
offers the best path to stabilize Afghanistan and ensure that 
al-Qaeda cannot regain a foothold to plan new attacks against 
us. I can say without equivocation that I fully support this 
approach.
    I consider myself privileged to serve as the United States 
Ambassador and to represent an amazing team of diplomats, 
development specialists, and civilian experts who form the most 
capable and dedicated United States Embassy anywhere in the 
world today. I am extraordinarily proud of them. I am also 
honored to testify alongside General Stan McChrystal, my 
professional colleague and friend of many years. I want to say 
from the outset that General McChrystal and myself are united 
in a joint effort where civilian and military personnel work 
together everyday, side by side with our Afghan partners and 
with our allies, and we could not accomplish our objectives 
without this kind of cooperation.
    As you know, Mr. Chairman, the United States is at a 
critical juncture in our involvement in Afghanistan. On 
December the 1st, the President ordered 30,000 additional 
troops to deploy to Afghanistan on an accelerated time table 
with the goal of breaking the insurgency's momentum, hastening 
and improving the training of Afghan national security forces 
and establishing security in key parts of the country.
    On the civilian side we aim to increase employment and 
provide essential services in areas of greatest insecurity, and 
to improve critical ministries and the economy at the national 
level. These steps taken together I believe will help to remove 
insurgents from the battlefield and to build support for the 
Afghan Government. As the President said, we will be clear 
about what we expect from those who receive our assistance. 
After a difficult election the Afghan Government does show 
signs of recognizing the need to deliver better governance and 
security. We await urgent, concrete steps in a number of areas.
    I would like to briefly discuss the three main pillars of 
our efforts in Afghanistan, which are security, governance, and 
development. General McChrystal will address our plans to 
improving security and building the Afghan national security 
forces. Since assuming my post, I have made a special point of 
getting outside of Kabul to see conditions first hand, and I 
fully concur with General McChrystal's assessment that the 
security situation in Afghanistan remains serious.
    Sending additional United States and other NATO ISAF forces 
to Afghanistan is critical to regaining the initiative, and I 
am confident that if these troops arrive the situation will 
stabilize and turn in our favor. Additional troops will also 
permit us to expand our work with the Afghan army and the 
Afghan police so that they can take a larger role in providing 
for security for their own people. As President Obama said, the 
transition to Afghan responsibility will begin in the summer of 
2011 when we expect Afghan security forces to begin assuming 
lead responsibility for defending their country.
    Moving on from security, the second pillar of our 
comprehensive strategy focuses on governance. At the national 
and subnational levels, our overarching goal is to encourage, 
improve governance so that Afghans can see the benefit of 
supporting a legitimate government, and the insurgency loses 
support. As General McChrystal points out, one of the major 
impediments our strategy faces is the Afghan Government's lack 
of credibility with its own people. To strengthen this 
legitimacy, our approach at the national level is to improving 
key ministries by increasing the number of civilian technical 
advisors and providing more developmental assistance directly 
through these ministries' budgets.
    By focusing on ministries that deliver essential services 
and security, we can accelerate the building of an Afghan 
Government that is sufficiently visible, effective, and 
accountable. At the provincial and the district levels, we are 
working jointly with our military teams, through our provincial 
reconstruction teams, our district development working groups, 
and district support teams which help build Afghan capacity, 
particularly in the areas of greatest insecurity in southern 
Afghanistan and eastern Afghanistan.
    Underpinning all of these efforts is the need to combat 
corruption and to promote the rule of law. With our assistance, 
the Afghan Government is steadily building law enforcement 
institutions to fight corruption, organized crime, and drug 
trafficking. In his inaugural address, President Karzai stated 
his intention to make merit based appointments in his new 
cabinet and to implement an anticorruption strategy, and we are 
encouraged by his statements.
    The cultivation of poppy and trafficking in opium also 
continue to have a debilitating effect on Afghan society. Our 
strategy is multipronged, it involves demand reduction, efforts 
by law enforcement agencies and the military to detain 
traffickers and interdict drug shipments, and support for licit 
agricultural development. The narcotics problem of course will 
never have a solution though without economic development, and 
this leads to the third pillar of our effort, which is 
development.
    In recent months we have adjusted our approach to focusing 
on building key elements of the Afghan private sector economy, 
increasing our emphasis on agriculture, enhancing government 
revenue collection, and improving the coordination assistance 
within the United States Government and the international 
community. These steps were taken to produce improvements in 
the lives of ordinary Afghans and to contribute directly to 
more effective government and lessen support for the 
insurgency.
    Rebuilding the farm sector in particular is essential for 
the Afghan Government to reduce the pool of unemployed men who 
form the recruiting base for extremist groups. We estimate that 
some 80 percent of the Afghan population derives their income 
either directly or indirectly from agriculture. Mr. Chairman, I 
want to emphasize that we are concentrating on what is 
essential and what is attainable. The President's strategy is 
based on a pragmatic assessment of the security interest of the 
United States and our belief that a sustainable representative 
government and a sustainable economy are essential to success.
    We need a viable Afghan Government so our forces can draw 
down and the investment of U.S. taxpayer dollars can be 
reduced. In closing, I need to mention two important risks that 
we do face in carrying out this strategy. The first is that in 
spite of everything that we do, Afghanistan may struggle to 
take over the essential task of governance and security on a 
timely basis. The second is our partnership with Pakistan. The 
efforts we are undertaking in Afghanistan are likely to fall 
short of our strategic goals unless there is more progress at 
eliminating the sanctuaries used by the Afghan Taliban and 
their associates in Pakistan.
    If the main elements of the President's plan are executed, 
and if our Afghan partners and our allies do their part, I am 
confident that we can achieve our strategic objectives. I say 
this with conviction because for the first time in my three 
tours in Afghanistan all of the elements of our national power 
are being employed with the full support of the President and 
increasingly of our allies. Achieving our goals for Afghanistan 
will not be easy, but I am optimistic that we can succeed with 
the support of the United States Congress.
    Our mission has been under resourced for years, but it is 
now one of our Government's highest priorities with substantial 
development funds and hundreds more civilian personnel. We will 
soon have increased our civilian presence in Kabul threefold 
and in the field six fold just over this past year. And we will 
of course though need more. U.S. foreign assistance is also a 
comparatively small but essential fraction of the total amount 
that is being spent in Afghanistan and has been spent over the 
last 8 years.
    Additional resources will be necessary, and we look forward 
to sharing more details on our anticipated needs with Congress 
in the coming days and weeks. Mr. Chairman, Afghanistan is a 
daunting challenge. Success is not guaranteed, but it is 
possible. With the additional troops and other resources 
provided by the President and with the help of Congress, we 
will work tirelessly to ensure that al-Qaeda never again gains 
refuge in Afghanistan and threatens our country. And thank you, 
sir, I look forward to your questions.
    [The prepared statement of Ambassador Eikenberry 
follows:]<greek-l>Karl Eikenberry deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you very much.
    General McChrystal?

    STATEMENT OF LIEUTENANT GENERAL STANLEY A. MCCHRYSTAL, 
 COMMANDER, INTERNATIONAL SECURITY ASSISTANCE FORCE (ISAF) AND 
 COMMANDER, U.S. FORCES AFGHANISTAN (USFOR-A), U.S. DEPARTMENT 
                           OF DEFENSE

    General McChrystal. Mr. Chairman, Ranking Member Ros-
Lehtinen, distinguished members of this committee, thank you 
for the chance to appear before you today. I welcome this 
opportunity to testify on our way ahead in Afghanistan, and I 
am pleased to do so with Ambassador Karl Eikenberry, an old 
friend. Let me begin by saluting the bravery of the men and 
women of the International Security Assistance Force in 
Afghanistan. They are anchored by over 68,000 courageous 
Americans, our close partners in the NATO alliance, and a 43-
nation coalition. We honor the sacrifices of the fallen, the 
veterans, and their families.
    We also recognize the toll paid every day by our 
counterparts in the Afghan security forces and by Afghan 
civilians, who ultimately suffer the most from this insurgency. 
It is for them and for all of us that we seek a stable 
Afghanistan, a defunct al-Qaeda, and a secure future in that 
vital region of the world. I first deployed to Afghanistan in 
2002 and have commanded forces there every year since. Despite 
that experience, there is much in Afghanistan that I have yet 
to fully understand. For all of us Afghanistan is a challenge 
that is best approached with a balance of determination and 
humility.
    While U.S. forces have been at war in Afghanistan for 8 
years, the Afghans have been at it for more than 30. They are 
frustrated with international efforts that have failed to meet 
their expectations, confronting us with a crisis of confidence 
among Afghans who view the international effort as insufficient 
and their government as corrupt or at the very least 
inconsequential. We also face a complex and resilient 
insurgency.
    The Quetta Shura Taliban, or Afghan Taliban, is a prominent 
threat to the Government of Afghanistan, and they aspire to 
once again become the Government of Afghanistan. The Haqqani 
and Hezb-e Islami Gulbuddin insurgent groups have more limited 
geographical reach and objectives, but they are no less lethal. 
All three groups are supported to some degree by external 
elements in Iran and Pakistan, have ties with al-Qaeda, and 
coexist within narcotics and criminal networks, both fueling 
and feeding off instability and insecurity in the region.
    The mission in Afghanistan is undeniably difficult, and 
success will require steadfast commitment and incur significant 
costs. I participated fully in the President's assessment and 
decision making process and was afforded multiple opportunities 
to provide my recommendations and best military advice, which I 
did. Combined with insights and policy considerations from 
across our Government, I believe the decisions that came from 
that process reflect a realistic and effective approach.
    To pursue our core goal of defeating al-Qaeda and 
preventing their return to Afghanistan, we must disrupt and 
degrade the Taliban's capacity, deny their access to the Afghan 
population, and strengthen the Afghan security forces. This 
means we must reverse the Taliban's current momentum and create 
the time and space to develop Afghan security and governance 
capacity. The President's decision rapidly resources our 
strategy, recognizing that the next 18 months will likely be 
decisive and ultimately enable success. I fully support the 
President's decision.
    The President has also reiterated how this decision 
supports our national interests. Rolling back the Taliban is a 
prerequisite to the ultimate defeat of al-Qaeda. The mission is 
not only important, it is also achievable. We can and will 
accomplish this mission. Let me briefly explain why I believe 
so. My confidence derives first from the Afghans' resolve, 
since it is their actions that will ultimately matter most in 
ending this conflict with their interests and by extension our 
own secured.
    Second, we do not confront a popular insurgency. The 
Taliban have no widespread constituency, have a history of 
failure in power, and lack an appealing vision. Third, where 
our strategy is applied, we have begun to show that we can help 
the Afghans establish more effective security and more credible 
governance. Finally, Afghans do not regard us as occupiers. 
They do not wish for us to remain forever yet they see our 
support as a necessary bridge to future security and stability.
    I have been back in Afghanistan for 6 months now. I believe 
that with the President's decision and ongoing reforms I 
outlined in our initial assessment, our efforts are now 
empowered with a greater sense of clarity, capability, 
commitment, and confidence. Let me start with clarity. The 
President's recently completed review of our strategy to 
include its deep and pointed questioning of all assumptions and 
recommendations has produced greater clarity of our mission in 
objectives.
    We also have greater clarity on the way forward. Additional 
forces will begin to deploy shortly, and by this time next year 
new security gains will be illuminated by specific indicators, 
and it will be clear to us that the insurgency has lost the 
momentum. And by the summer of 2011 it will be clear to the 
Afghan people that the insurgency will not win, giving them the 
chance to side with their government. From that point forward, 
while we begin to reduce U.S. combat force levels, we will 
remain partnered with the Afghan security forces in a 
supporting role to consolidate and solidify their gains.
    Results may come more quickly, and we must demonstrate 
progress toward measurable objectives, but the sober fact is 
that there are no silver bullets. Ultimate success will be the 
cumulative effect of sustained pressure across multiple lines 
of operation. Increasing our capability has been about much 
more than just troop increases. For the past 6 months we have 
been implementing organizational and operational changes that 
are already reflecting improvements in our effectiveness.
    But the additional forces announced by President Obama are 
significant. Forces to increase our capacity to train the 
Afghan national security forces and forces to partner with 
Afghan army and police in expanding security zones in key areas 
will provide us the ability to reverse insurgent momentum and 
deny the Taliban the access to the population they require to 
survive. Our commitment is watched intently and constantly 
judged by our allies and by our enemies. The commitment of 
30,000 additional U.S. forces along with additional coalition 
forces and growing Afghan national security force numbers will 
be a significant step toward expanding security in critical 
areas and in demonstrating resolve.
    The commitment of all coalition nations will be buttressed 
by a clear understanding of how we will mitigate risks. I will 
briefly mention three. The first is the Afghan Government's 
credibility deficit, which must be recognized by all to include 
Afghan officials as a critical area of focus and change. 
Equally important is our ability to accelerate development of 
the Afghan security forces. Measures such as increased pay and 
incentives, literacy training, leader development, and expanded 
partnering are necessary to position the Afghan national 
security force to assume responsibility for long term security.
    Third, the hazard posed by extremists that operate on both 
sides of the border with Pakistan with freedom of movement 
across that border must be mitigated by enhanced cross border 
coordination and enhanced Pakistani engagement. Looking ahead, 
I am confident we have both the right strategy and the right 
resources. Every trip around Afghanistan reinforces my 
confidence in the coalition and Afghan forces we stand 
alongside in this effort. But I also find confidence in those 
we are trying to help. That confidence is found where an Afghan 
farmer chooses to harvest wheat rather than poppy or where a 
young adult casts his or her vote or joins the police or a 
group of villagers resolves to reject the local insurgency.
    We face many challenges in Afghanistan, but our efforts are 
sustained by one unassailable reality: Neither the Afghan 
people nor the international community want Afghanistan to 
remain a sanctuary for terror and violence. And if we are to be 
confident of our mission and our prospects, we must also be 
accurate in our assessment of progress. We owe ourselves, our 
leaders, and the American people transparency and candor 
because the price to be paid is high and the stakes are even 
higher.
    In closing, my team and I would like to thank you and your 
colleagues for your support to the American men and women 
currently serving in Afghanistan and to tell you a bit about 
them. We risk letting numbers like 30K roll off our tongues 
without remembering that those are fathers, mothers, sons, and 
daughters serving far from home, selfless in their sacrifices 
for each of us. The other day I asked a young but combat 
experienced sergeant where he was on 9/11, and his answer, 
getting my braces removed, reminded me it has been more than 8 
years since 9/11, and many of our service members and families 
have experienced and sacrificed much.
    But as I see them in action at remote bases, on patrol, 
partnering with Afghan forces, recovering in combat hospitals, 
they don't talk about all they have given up, they talk about 
all they are accomplishing and their determination in this 
endeavor. This is not a force of rookies or dilettantes. The 
brigade commander in coast is completing his fourth combat tour 
in Afghanistan, and his experience and expertise is reflective 
of the force that represents you.
    All have felt fear and loneliness, most have lost comrades, 
none have lost heart. In their eyes I see maturity beyond their 
years, in their actions I see a commitment to succeed and a 
commitment to each other. I am confident that I share your 
pride in what these great Americans are doing for our country 
in Afghanistan, and it will be my privilege to accept your 
questions on their behalf. Thank you, Mr. Chairman.
    [The prepared statement of General McChrystal 
follows:]<greek-l>Stanley McChrystal deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you both. And, General McChrystal, 
you are commander of the International Security Assistance 
Force as well as U.S. Forces, would you be willing to introduce 
a few of our NATO representatives who are here with us today?
    General McChrystal. Yes, sir. This is part of my personal 
staff, of course I have got Colonel Charlie Flynn who is a U.S. 
Army officer. Kristoff is my German aide, I have two aides, one 
American and one German. Bill Rafferty is one of our planners, 
a British officer. Another allied officer from the U.S. Navy, 
Greg Smith, runs our communications. Jake McFarren is our 
political advisor in the headquarters. KC Welch is my other 
aide, my American aide, had 27 months in Iraq before he came to 
Afghanistan with only 5 months off between those two 
deployments. And then Dave Silverman works in my personal staff 
as well, obviously another naval officer.
    Chairman Berman. Great, thank you very much. We will begin 
the questioning now, and I am first going to recognize the 
gentleman from Texas, Mr. Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman, and thank you for 
continuing the hearing. And I want to thank both Ambassador 
Eikenberry and General McChrystal for what you do and your 
leadership for our young men and women, not only serving in the 
military but obviously on the civilian side. Having been to the 
Embassy in Afghanistan a couple of times and having been hosted 
there, it is not the plush area anyone ever thinks. But I 
appreciate what you all do and I know Members of Congress do.
    General McChrystal, there are currently 94,000 Afghan 
soldiers on the ground, and current plans call for increasing 
that number to 134 by October of next year. There are currently 
about 91,000 Afghan police officers on the ground and there are 
current calls for boosting that to 96,800 by next October. This 
would make a total Afghan security force of around 230,000 
police and military. During the strategic review you advocated 
for boosting the number of Afghan security forces to 400,000. 
Security forces in Iraq, with a much easier terrain, now total 
about 600,000. Do you think 400,000 with tougher terrain in 
Afghanistan is realistic? It is a lot more than 230--the 
estimate--but is it still within range of what we really need 
for the Afghans?
    General McChrystal. Congressman, as everyone knows 
Afghanistan must ultimately be secured by Afghans, that is what 
they want and that is the right answer. We did a detailed 
analysis of what it would take using basic COIN doctrine to 
secure Afghanistan, and the number reaches up near 600,000 
total Afghan security forces of all kinds, police and army. But 
the insurgency is not in the entire country, not all the 
country is threatened.
    So as we refined our focus, in fact we were able to reach 
what we believe is a better longer term instate. We came up 
with about 400,000 combinations of army and police as being the 
right number for Afghanistan to have as coalition forces drop 
down to a fairly small number of advisors or for the long term. 
That would of course be adjusted or could be adjusted based 
upon whether there is an insurgency at that point and the size 
of that insurgency. A number of 400,000 divided between the 
army and the police of 240,000 ultimately in the army and 
160,000 in the police would not be really out of range for that 
part of the world for standing armies and police.
    But I think we need to view that not as a hard number at 
this point but as a goal we work toward and adjust constantly. 
The President's decision is to grow those forces like we are 
growing the army to 134,000 by next fall, and we will clearly 
continue to grow the police, but to relook that every year will 
allow us to reflect what the state of the insurgency is and 
then of course what their ability to grow is, can they make 
those numbers. We are getting some very heartening feedback 
here recently, there have been pay raises for both the army and 
the police implemented by the Government of Afghanistan with 
the international community's help, and we are seeing a 
significant improvement. But we have got to see whether that is 
sustainable long term.
    Mr. Green. And you recognize that our goal is to make the 
Afghans protect their own neighborhood, and you share that and 
the President I know shares it and I know Congress does. 
General McChrystal, in your testimony you write ``additional 
forces will begin to deploy shortly, and by this time next year 
new security gains will be illuminated by specific indicators. 
It will be clear to us that the insurgency has lost momentum.'' 
Other than generally saying conditions on the ground and 
knowing that the security situation will never be perfect, what 
specific criteria can the American people look to that we are 
basing that decision on sometime next year?
    General McChrystal. Sir, we collect a tremendous number of 
metrics, but we try to pull those together in a number that is 
understandable both to us and then communicable. The first and 
biggest will be the security situation by district across the 
country within the 34 provinces, whether the district is in 
fact under solid government control, whether it might be 
contested or whether it might be under insurgent control. So we 
do a map that is fed by a tremendous amount of data that allows 
us to look at those districts. If we are seeing progress in 
those, that will be one of the major indicators.
    I believe the other major indicator will be the growth and 
development of the Afghan national security forces or 
increasing capacity of Afghanistan to secure itself. In 
addition to those two major indicators that I believe will be 
most illustrative, we feed that with a tremendous amount of 
information from polling data of what the Afghan people think, 
which is key because ultimately this war will be won in the 
minds of the Afghan people, and indicators of their ability to 
go about their lives, whether they can drive through secure 
areas to market, the cost of goods, and things like that.
    Mr. Green. And again, thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Arkansas, Mr. Boozman. And the 5 minutes 
allotted includes questions and answers.
    Mr. Boozman. Thank you, Mr. Chairman. We appreciate you 
being here, Ambassador Eikenberry and General McChrystal. We do 
appreciate the service to your country, and then also your 
families, and I think that was so illustrated by your staffer 
when you mentioned that he was in Iraq and now in Afghanistan 
and the time away from home.
    General McChrystal, following the President's March speech 
to Congress, the President developed a series of metrics to 
judge progress in Afghanistan and Pakistan. Are those metrics 
still useful? Did they have any influence on the strategy and 
assessment that you did in August? Are these metrics still 
useful based on this President's new strategy? Do the metrics 
have any influence on the July 2011 withdrawal? And do the 
metrics need to be revised as a result of the new planning?
    General McChrystal. Congressman, I believe the metrics, 
they are still in place, they are useful. I do believe they 
will evolve over time because of the conditions on the ground 
evolve and we collect even more data and look at it I think it 
is important we keep being willing to evolve those to 
understand it. So I expect those to be baseline metrics, but I 
expect to inform that with many others as well, sir.
    Mr. Boozman. I know that you all are very metric driven. We 
have had many come and testify before Congress that President 
Karzai is going to be held accountable. Do the metrics that you 
have developed, do they specifically include assessment for 
President Karzai?
    Ambassador Eikenberry. Congressman, our assessments, yes 
they include the effectiveness of the Government of Afghanistan 
at the national level and, as General McChrystal said, 
assessments that are at the subnational level as well, that we 
have a robust plan of assessments at all levels.
    Mr. Boozman. I know that Prime Minister Brown has 
reportedly given President Karzai a list of milestones and 
metrics that he will judge him by. Have you seen the list? Are 
we trying to replicate and work with them in that regard?
    General McChrystal. Congressman, I have not seen the 
specific list, but I am roughly familiar with the intent of it.
    Mr. Boozman. Good. Lastly, the other guys who were here and 
testified, Secretary Gates and also Admiral Mullen, and I think 
that, I know in my district, I think throughout the country, 
there really is a great concern of the four guys that are under 
indictment or whatever you call that in the military, and I 
think the concern is that somehow we are being caught up in 
political correctness. I wanted to tell Secretary Gates, I 
didn't get a chance to ask a question of him, but Arkansas 
played Texas A&M earlier in the year and beat them in Texas 
stadium.
    But you know, in the heat of that battle, if somebody hit 
somebody in the mouth they would be suspended for a game. And I 
know it is different, the situation, but it is not that 
different. And I guess what I would like from you is just your 
reassurance, I know through the years people have stood up for 
me, your reassurance that you are looking into that, you know, 
and shepherding that process.
    I know you can't get involved directly at the point it is 
now. Admiral Mullen indicated that he had confidence with the 
people that were taking care of it, and again my comeback to 
that is that I know that he had confidence in the people at 
Fort Hood and yet a third grader could have told that there was 
something going on there that was not right. And I think again 
the American people are concerned that that is due to political 
correctness.
    General McChrystal. Congressman, I am not familiar because 
the incident that happened in Iraq, with the current one that 
you mentioned, with the specifics of that case, but I will tell 
you we stress to all of our people the importance of how they 
act, but there is also an absolute loyalty to people as well. 
So I think the balance is about right. I feel very good 
particularly, we have learned a lot over these years as we go 
through this.
    Mr. Boozman. I know that is an Iraqi situation, but it does 
make a difference in the sense your guys now, when they are 
deciding whether or not to do an action or this or that, the 
easiest thing to do is to not do, okay? It does make a 
difference as far as decision making and things, and so I would 
hope that you would work with your cohorts, and I know that you 
have got tremendous influence in various areas but that really 
is an important thing, it is an important thing with the 
American people and their support of the military. Thank you, 
Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Georgia, Mr. Scott, is recognized for 5 
minutes.
    Mr. Scott. Thank you, Mr. Chairman, and welcome, General 
and Ambassador. Let me start off with the mission as it was 
articulated by General Gates and Secretary Clinton last week 
was this, that our mission is to go in, destroy, dismantle, 
defeat al-Qaeda in both Afghanistan and Pakistan and see to it 
that they do not return. That being the case, what about 
Pakistan? Pakistan is where the crux of the problem is, but yet 
it is the least emphasis where we have seen our strategy. That 
is where al-Qaeda is, that is where the real apex of the 
situation is. Will our troops be able to go into Pakistan and 
do exactly what the mission says, destroy, dismantle, and see 
that it doesn't return to Pakistan?
    General McChrystal. Sir, the importance of the mission 
against al-Qaeda is about clear. As commander of ISAF my 
responsibility or my authorities stop at the border of 
Afghanistan and Pakistan. We do however work very hard, and I 
personally spend a lot of time with General Kiyani, developing 
a strategic partnership to enable them to meet their strategic 
objectives.
    Mr. Scott. Well let me just ask you because I only just 
have a few minutes here and I have a number of questions. To 
your knowledge, of your involvement with the joint strategy 
with Pakistan, to your knowledge will our troops be able to go 
into Pakistan?
    General McChrystal. Sir, I am really out of my lane to 
discuss that.
    Mr. Scott. Okay. Let me ask you about NATO and our troops. 
NATO has said they are sending around 7,000, 6,000 7,000 
troops. Those troops come with caveats. Can you comment very 
briefly on what that presents to you, where a nation may send 
soldiers but they tell them, you can go, you can see, but you 
can't conquer, you can't get into battle, you must sit on the 
bench. What does that do to our strategy?
    General McChrystal. Sir, many of the 43 nations' forces 
come with no caveats and they operate just like ours.
    Mr. Scott. What percentage of that?
    General McChrystal. I am sorry?
    Mr. Scott. You said 40 percent?
    General McChrystal. No, sir, many of them. I don't know the 
percentage; I would like to get that back to you for the 
record. The caveats are something that I work with all our NATO 
partners and ask them to reduce to increase our flexibility, 
and I think it is important that we continue to reduce those so 
that they can prosecute operations, particularly 
counterinsurgency, effectively.
    Mr. Scott. Going back for a moment to you, Ambassador, you 
mentioned some things, there has been a hesitancy to stay away 
from the word nation building. But as I listened to you as you 
talked about setting up the Afghan Government, as you talked 
about your three corners which were security, which was 
governance, which was building up the economy, if that isn't 
nation building I don't know what is. Is not that nation 
building? Can we not be successful unless we do that?
    Ambassador Eikenberry. Congressman, I think our goals are 
clear, they are narrowed. What we are seeking to achieve in 
partnership with our Afghan allies is a government that has the 
capability of providing for the security of its own people.
    Mr. Scott. Let me just ask you though because I only have a 
little bit of time, are we in nation building in Afghanistan?
    Ambassador Eikenberry. I think that what we have 
established are clear goals that are narrow that have to do 
with establishing sufficient security.
    Mr. Scott. But I am asking you, yes or no, are we in nation 
building in Afghanistan?
    Ambassador Eikenberry. No, I would not characterize what we 
are doing, we are providing assistance to the state of 
Afghanistan, no I would not characterize it as open ended 
nation building, clearly not.
    Mr. Scott. Well, all right. Let me go back to you, General 
McChrystal. You mentioned, and you spoke eloquently and I agree 
with you, of the sacrifice and the great job that our soldiers 
are doing, but here is what concerns me. There is a terrible 
strain on our military. Many of our young men and women are 
going on their third and fourth tours of duty. There has been 
an ugly side to this. Every time I have gone over there--for 
four times I have been to Afghanistan--I go back to Lonstall 
Air Base; I care about our military. The situation in Fort Hood 
was just the tip of the iceberg in terms of excessive stress, 
the mental strain, the suicide, the divorce rates. Tell me how 
deep is the strain on our military and what are we doing about 
it?
    General McChrystal. Congressman, the strain is significant, 
but the force is holding up extraordinarily well. I think the 
things we are doing to take care of families back in the 
states, the things we are doing to look after service members 
while they are there, to get leave, all those things to take 
care of wounded warriors, to me all of those come together to 
give the force much more resiliency than it would otherwise 
have and historically would have.
    Chairman Berman. The time of the gentleman has expired.
    Mr. Scott. Thank you both.
    Chairman Berman. The gentleman from South Carolina, Mr. 
Wilson, is recognized for 5 minutes.
    Mr. Wilson. General, Ambassador, thank you very much for 
being here today. I have a special appreciation of your 
commitment. As a Member of Congress I am grateful to be the co-
chair of the Afghan caucus. I appreciate your hospitality at 
the briefings that I have had with both of you, I just have 
great faith in your service. Also I am very happy that we share 
that our army careers began together in the 1970s, and so I 
appreciate as a veteran your service, more particularly as a 
parent I have got four sons serving in the military of the 
United States today, I am very grateful for their service and 
military service means a lot to our family.
    And that is why I want military families to know that I 
have faith in your integrity, I have faith in your ability, you 
truly are looking out for the troops, I believe you are going 
to be victorious in this second surge where we will be 
defeating the terrorists to protect American families at home. 
On Tuesday I was honored to be at the Armed Services Committee 
meeting, Ambassador, and was pleasantly surprised when you said 
that there has been progress in Afghanistan.
    And sometimes I have to read about progress in unusual 
places like Rotary Magazine, and they were giving indications 
of rotary projects around the world, and one that they are 
backing up are schools, the number of schools have increased 
from 650 to 9,500. Can you tell us what you see as progress, 
and then what is the role of a provincial reconstruction team?
    Ambassador Eikenberry. Thanks, Congressman. There has been 
remarkable progress since the very dark days of Taliban of 
2001, you mentioned one, education. In 2001 there were 1 
million children going to school; they were almost all boys; 
they were receiving a certain persuasion of education. Today 
there are 6.5 million Afghan children who are going to school; 
about 35 percent of those are girls. In 2001 very little of the 
Afghan population had access to any healthcare, now 80 percent 
of the population has access to primary, albeit rudimentary, 
but access to primary healthcare.
    I could go on with the development of roads, I could go on 
with now 10 million Afghans have cell phones. And there have 
been profound changes. Against that, we know where the 
challenges are. General McChrystal and I both share our views 
of where those challenges are, but there is room to have great 
hope as we move forward, there is much to build upon. The 
provincial reconstruction teams; the provincial reconstruction 
teams have a very important role both as civilian-military 
combined effort in many of the provinces of Afghanistan under 
NATO ISAF command, and their roles are to assist the local 
government in strengthening their government to help them 
develop capacity in order to improve their distribution of 
basic services to the people in the area.
    Mr. Wilson. And something that would be very helpful, I 
served with Congresswoman Sheila Jackson Lee in the Afghan 
caucus, if you could provide to us say a bullet type of 
presentation that we could distribute to our colleagues on 
items of progress that you see, that would be very helpful. 
And, General McChrystal, I have had the opportunity to visit 
the police training academy in Jalalabad, my former National 
Guard unit, the 218th, helped train the police units across the 
country, and I saw really dedicated persons but I am very 
concerned about their pay, the pay is so low that it certainly 
would call into question loyalty and then lead to some level of 
bribery. What is the status of pay, training; who is paying?
    General McChrystal. Congressman, well timed. The Government 
of Afghanistan just increased the pay of Afghan national army 
and police, didn't quite double it but brought it almost to 
twice. It is still, the design is to get to a living reasonable 
wage so that we don't have people who are forced to resort to 
corruption or family support to go forward. And it is foreign 
money that helps. The Afghan Government is required to pay 34 
percent of their budget according to the London Compact 1996 
toward their Afghan security forces, but that clearly does not 
cover the major part of the cost.
    Mr. Wilson. And the cost largely covered, you say, by 
foreign contributions, it is my understanding that Japan has 
been a major contributor and should be given credit. Again 
people do not know the extraordinary efforts and support from 
around the world as unlikely as Japan supporting the police of 
Afghanistan. Thank you again for your service.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Arkansas, Mr. Ross, is recognized for 5 
minutes.
    Mr. Ross. Thank you, Mr. Chairman. General McChrystal, the 
Arkansas National Guard, like those in other states, plays an 
important role in responding to natural disasters and other 
domestic emergencies in Arkansas. It is not uncommon for them 
to respond in other states as well, such as Louisiana after 
Hurricane Katrina. In addition to these domestic roles, the 
Arkansas National Guard's 39th infantry brigade combat team has 
twice been deployed to Iraq, and while this team has to date 
not served in Afghanistan there is a significant National Guard 
presence in Afghanistan.
    In fact the 39th has been to Iraq not once but twice and I 
think most of them have a pretty good idea of what may be in 
their future. I am grateful for the service the men and women 
of the National Guard provide our country. Their continued 
deployment leaves the National Guard fewer troops and equipment 
needed to respond to domestic issues. How many of the 30,000 
additional troops do you envision coming from the National 
Guard? And how soon will National Guardsmen and Guardswomen 
return home after the planned draw down begins in 2011?
    General McChrystal. Sir, I will have to take for record the 
number of the 30,000 and get back to you that look like 
National Guards. The Services will determine that.
    [The information referred to follows:]

Written Response Received from Lieutenant General Stanley A. McChrystal 
    to Question Asked During the Hearing by the Honorable Mike Ross

    Force Packages 1, 2, and 3 presently include the following National 
Guard Forces: Combat Service Support Battalion (78), Engineering 
Company (Route Clearance) (122), Military Police Law and Order 
Detachment (45), Maintenance Company (173), and Communications 
Detachment (77). It is important to note that the sourcing process 
continues, and additional capabilities from both the Active and Reserve 
Force, in support of all three Force Packages are still being 
identified and sourced. We are continuing to work with USCENTCOM, 
USJFCOM, USTRANSCOM, the Joint Staff, and the Services to ensure the 
timely deployment of these troops. The pace and intensity of the 
transition that commences in 2011 is to be determined, as stated by the 
President, by conditions on the ground.

    General McChrystal. I would like to take a second though to 
talk about National Guardsmen in service, because they were 
extraordinary across all of the different disciplines, 
engineers, infantry, trainers, a significant number of people 
training the Afghan national security forces are National 
Guardsmen. And then the agricultural development teams that are 
there as well from many states, they provide a linkage to 
practical agriculture expertise that we can provide, and they 
also develop a sense of partnership with the Afghan people that 
is a combat multiplier, not just developmental assistance, it 
actually helps security as well. So I can't say enough about 
what National Guardsmen do or the sacrifices they have made.
    Mr. Ross. In my time remaining, approximately three 
quarters of the food, fuel, and other provisions that supply 
NATO forces passes through Pakistan. In the face of increased 
Taliban attacks on the supply routes the Pakistani Government 
has been unable to increase security. Since September 2008 the 
attacks have forced several temporary closures of NATO supply 
routes through the Khyber Pass. As a result of these attacks 
and the decreased security in Pakistan, NATO was forced to seek 
alternative supply routes into Afghanistan.
    The continuing attacks raise concern for the deployment of 
additional U.S. troops to Afghanistan which will require a 
significant increase in supplies. While some of the additional 
supplies will be transported via other ways, such as the 
northern distribution network, much of the additional supplies 
will have to pass obviously through Pakistan. What will be done 
to ensure American and NATO forces receive the supplies 
necessary during their deployment in light of this?
    General McChrystal. Congressman, that is an important 
point. We look at very hard what we call the ground lines of 
communication that go through Pakistan are essential to our 
effectiveness there. And so what we work with is our strategic 
partnership with the Government of Pakistan to continue to 
secure those. We actually have a very good track record of 
amount of equipment that makes it through without any issues, 
it is a very, very high percentage, it has been a very strong, 
predictable flow. That said, we always understand that 
instability could threaten that, and that is why the northern 
distribution network was developed, not because we absolutely 
had to have it but we wanted to have alternate means so that if 
one means was threatened or one line of communication was 
threatened we would have the additional.
    Mr. Ross. And, Mr. Chairman, my goal in life remains 
keeping you happy, and with that I will yield back my remaining 
40 seconds.
    Chairman Berman. Well, I hope it is contagious.
    The gentleman from South Carolina, Mr. Inglis, is 
recognized for 5 minutes.
    Mr. Inglis. Thank you, Mr. Chairman. And, General, you lead 
an awesome group of folks and we thank you for your service and 
for their service. You mentioned that our commitment as a 
nation is being watched intently, and you called it a 
significant step to commit 30,000 troops, is it sufficient?
    General McChrystal. Congressman, I am confident that it is.
    Mr. Inglis. And with the commitment being watched intently, 
what do we signal by a time line for transfer, does that 
undermine the signal of commitment or does it, what is the 
impact of talking about a date certain for transfer?
    General McChrystal. There are several points I would like 
to make on that. There is first a vulnerability in any date 
that is set, the enemy can take that date and use it for 
propaganda purposes, but I believe we can combat that. But 
there are a number of positives in where we are right now, and 
I would like to stress those. The first is that the date does 
serve as somewhat of a forcing function for the Government of 
Afghanistan and the Afghan people to understand that their 
responsibility for security is absolute and we need to move 
toward that, and I think we have already begun to see some of 
the effect on that, so that is positive.
    But I would also step back and talk about the more 
important part to me at the security standpoint, the President 
has outlined his commitment to a strategic partnership over 
time, long term, which provides assurance to the people of 
Afghanistan and the government that we are partnering with 
them. Were I an insurgent and I saw that solid assurance from 
the United States, then I would understand that a date doesn't 
change anything.
    In the near term, the 30,000 additional American forces 
combined with coalition forces is going to allow my force to 
turn this momentum and very seriously push back on the 
insurgency, and I think very effectively, and I think that will 
be clear to everyone. At the same time the growth of Afghan 
national security forces will be rising during that period so 
that any point whatever pace the President decides to draw down 
our combat forces, I think that is met with growing Afghan 
national security force and government capacity. So I really 
think we don't leave much of a window of opportunity for the 
insurgency, particularly when they see the long term 
commitment.
    Mr. Inglis. Thank you. And, Ambassador, you also lead an 
impressive group of folks and we thank you for their service 
and your service. And the General mentioned that the wonderful 
decision by a farmer to decide to harvest wheat rather than 
poppy, do you have any idea what the per acre profit margin is 
comparing those two crops? I mean what can a farmer make on 
wheat as opposed to poppies?
    Ambassador Eikenberry. It changes from year to year, it 
changes from region to region. I will submit for the record, 
Congressman, the most current data. The fluctuation of the 
price of wheat, one of the main staple crops of Afghanistan, 
has an extraordinary amount to do with decisions by farmers. 
But I would also emphasize there is a direct correlation, a 
known direct correlation between areas of insecurity in 
Afghanistan where there is no legitimate Government of 
Afghanistan presence and high poppy yields.
    We see that very clearly in southern Afghanistan. In one 
province of southern Afghanistan, Helmand, over 50 percent of 
poppy production for the entire country occurs there, and it is 
exactly the area where General McChrystal's forces right now 
and the Afghan national security forces have part of their main 
effort. Part of that success that we will have there will have 
to do with pushing the Taliban back and securing the Afghan 
population, part of the success will also yield reductions in 
poppy production and narcotrafficking, and there is a clear 
nexus between the two.
    Mr. Inglis. Yes, it seems to be a clear nexus between the 
security, the imposition, our ability to project forth so that 
we stop that poppy production. Because otherwise the unpopular, 
as a general statement, unpopular Taliban becomes more popular 
by comparison if you can feed your family selling an illegal 
crop as opposed to slaving away on a low profit margin crop 
that maybe isn't going to feed your family. So it is crucial I 
suppose to have these things to together, that we have to push 
to say that, well you can't grow this anymore, but also provide 
some hope that other crops will work and you can make a living.
    Ambassador Eikenberry. One of the key first principles of 
our developmental strategy is in the area of agriculture, and I 
think, Congressman, it gets exactly to what you are talking 
about.
    Mr. Inglis. Okay.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from New York, Mr. Crowley, is recognized for 
5 minutes.
    Mr. Crowley. I thank the chairman, I thank both of you 
gentlemen for being here before us today. Like many of my 
colleagues I have some very serious reservations about 
additional troop buildup in Afghanistan, especially in the 
midst of a tough economic cycle that we are under right now 
here, our first and foremost responsibility I believe is to the 
American people. In addition to the cost, the geopolitical 
realities of the Afghanistan and Pakistan and the greater 
region all raise questions about U.S. efforts in Afghanistan.
    I am also concerned about the well being certainly of our 
troops. I had the opportunity to travel to both Afghanistan and 
to Iraq last year. Probably the sharpest distinction that I 
could draw after coming back was that the different assets that 
appear upon landing in Afghanistan. And I want to thank, I 
don't know if it has been done already, I noticed behind you, 
General, there are representation of the coalition of forces 
that are engaged in Afghanistan, I want to thank them for their 
participation, for the sacrifices that they have made as well, 
I know this is not just an American cause.
    But having said that, we will be sending many, many more 
American troops than coalition forces from abroad. With that in 
mind, I just want to ask and just to follow up on the last 
questions that were brought up to both General McChrystal and 
to you, Ambassador, in terms of your initial report to 
Secretary Gates you said that the narco profits were a major 
earner for the insurgency. If we were to displace that as a 
profit mode for the rebels and for al-Qaeda, do you believe 
there are other alternative resources that they would be able 
to use to supplant that? And would they be enough to carry out 
the work they are doing right now?
    General McChrystal. Congressman, we calculate that the 
Taliban get about a third of their funding from the 
narcotrafficking, but that they could operate without it. They 
essentially tax the narco trade, they could tax licit crops as 
well.
    Mr. Crowley. Right.
    General McChrystal. So we don't think that that would 
cripple them. The greatest threat from the narco trade is the 
corrosive corruption that it brings into governance. So what we 
need to do first is get security and bring all of those down 
together.
    Mr. Crowley. I just thought it was important to make that 
point, and I appreciate you doing that, that that in and of 
itself will not end the problems we have. Yes, Ambassador?
    Ambassador Eikenberry. Just briefly, Congressman, another 
source of revenue of course for the Taliban comes from outside 
of Afghanistan, funds that come from the Gulf, funds that come 
from different elements in Pakistan, and there is a full out 
combined intelligence, military, and law enforcement effort to 
try to choke that off.
    Mr. Crowley. Thank you. I have limited time so I just want 
to get to another point. Testimonies by numerous government 
witnesses have pointed out that the United States is going to 
increase the number of trainers working to expand the Afghan 
army. Over time, if the plan works, the size of the Afghan army 
will grow substantially. Going forward, how will the Afghan 
army sustain itself financially? And does your plan include a 
measure of self sustainability so that American taxpayers are 
not footing the entire bill for decades to come?
    General McChrystal. Sir, in the near term it is clear that 
Afghanistan will not have the funds to pay for security forces 
of the size that they need. As their economy grows, that would 
be the hope, but in the foreseeable future, that does not 
appear possible.
    Ambassador Eikenberry. Also, Congressman, important to note 
that when we talk about the Afghan national security forces, 
the army and the police, I don't think we could tell you 
precisely what is the ratio of cost of having a U.S. Army 
soldier or Marine deployed to Afghanistan versus the cost of 
sustaining an Afghan national army soldier or policeman, but it 
is probably on the order of 30 or 40 to 1. So obviously the way 
forward of developing an Afghan national army and police that 
can provide for the security of their own people, it makes good 
sense for a lot of reasons.
    Mr. Crowley. I appreciate it. Looking at my clock, I have 
less than 1 minute, so, Mr. Chairman, your work has been 
incredibly important in terms of the level of witnesses we have 
had before this committee, and I too want to stay in your good 
graces, and I will yield back the balance of my time.
    Chairman Berman. Well that is nice, thank you. The time of 
the gentleman has been relinquished to the gentleman from 
Texas, Mr. Poe, recognized for 5 minutes.
    Mr. Poe. Thank you, Mr. Chairman, thank you both for being 
here. I am from southeast Texas, I represent a guy by the name 
of Charlie Wilson's old district, and so I have a few 
questions. I just got back from Afghanistan on Tuesday, I met 
with our generals, German, Canadian, and British NATO allies 
and our troops down on the Pakistan Afghanistan border. I was 
pleasantly really surprised to learn that the Afghan people 
appear to me to be very supportive of our presence in 
Afghanistan, that they fear the Taliban, they fear the 
reprisals that they have lived under the Taliban, and they 
supply us a lot of information about the Taliban, good 
intelligence.
    The question, several questions. We have heard about the 
President's position on more troops, I call it the surge and 
retreat policy, but now that has been hedged a little bit, in 
the summer of 2011. General McChrystal, what is our policy now? 
Is it to reevaluate our troops, our position, in 2011, the 
summer of 2011, is that what it is as you understand it?
    General McChrystal. Congressman, my understanding is in 
July 2011 we will begin the reduction of U.S. forces. The pace 
of that and the scope of that will be based on conditions on 
the ground at that time.
    Mr. Poe. So we will start bringing troops home but we won't 
necessarily bring them all home then, is that what you 
understand?
    General McChrystal. Exactly, Congressman, there will be 
some slope, some pace that is determined by conditions.
    Mr. Poe. And if the conditions are worse, what happens 
then?
    General McChrystal. Sir, the President can always make 
decisions based upon conditions on the ground, but it is my 
expectation that beginning on July 2011 we will start a 
reduction.
    Mr. Poe. You believe that you can accomplish the mission 
you have when you receive the troops, which is in several weeks 
or even months, maybe just a year time that you have to do 
that?
    General McChrystal. Congressman, I do. I think that with 
the forces we have, the additional forces and that time, I am 
comfortable that we will be able to do that.
    Mr. Poe. Well I think it is obvious to anybody that goes to 
Afghanistan and Iraq too that our troops are just the best, 
there is no comparison to the quality of our troops. How many 
members of the Taliban are there? We would like to know how 
many of the enemy we are trying to defeat. How many of them are 
there, General?
    General McChrystal. Congressman, it varies based upon their 
popularity. We assess between 24 and 27,000 members of the 
Taliban, but I believe as momentum is turned that affects their 
ability to retain their force. So I think it is not people with 
long term enlistments, I think it is more flexible than that.
    Mr. Poe. Having been on the Pakistan Afghanistan border and 
talking to just regular troops, just my opinion is that the 
Pakistan Government isn't doing enough to ratchet up protecting 
their side of the border, that the Taliban come over in to 
Afghanistan and woe be to them if they do because the military 
is going to find them, but they run back over to Pakistan and 
have sanctuary, and it appears to me we know where they are, 
Pakistan gives lip service to doing something about it. I met 
with their people and I am not convinced that Pakistan is 
engaged in helping defeat the Taliban. Can you give me some 
insight on that?
    General McChrystal. Sir, I believe our long term way ahead 
is with a strategic partnership with Pakistan. They are 
absolutely focused against the TTP, or Pakistani Taliban 
internal to Pakistan. They have not focused on the Afghan 
Taliban that use sanctuaries. Interestingly, and I have a very 
close relationship with the Pakistani military and building 
this relationship
    Mr. Poe. Excuse me, General, for interrupting, I just have 
30 seconds.
    General McChrystal. Yes, sir.
    Mr. Poe. So they take care of business with the Taliban 
that is the homegrown folks that just stick around in Pakistan 
to do mischief, but people running back and forth across the 
border into Afghanistan, they don't consider that their 
problem?
    General McChrystal. Congressman, I think that may 
oversimplify it, I think they do but I wish they would do more 
against the Afghan Taliban.
    Mr. Poe. The only other thing I want to mention, and I am 
sorry we can't go into it, I too am concerned about the rules 
of engagement, the Navy SEALs capturing one of the worst guys 
in history, and it seems they ought to be getting medals rather 
than being court-martialed, but we don't have any time to talk 
about that. Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Minnesota, Mr. Ellison, is recognized 
for 5 minutes.
    Mr. Ellison. Let me welcome you and say good morning to 
both you, Ambassador and General, it is good to see you again. 
We were with you only a few weeks ago. We have talked a lot 
about 30,000 extra, but what about the civilian surge side of 
this, could you elaborate on that, Ambassador Eikenberry, what 
is our projected number, what are we hoping to arrive at, and 
how is that process going along?
    Ambassador Eikenberry. Thanks, Congressman, good to see you 
again.
    Mr. Ellison. Absolutely.
    Ambassador Eikenberry. We have made very significant 
progress over the last 12 months in increasing our civilian 
numbers and our civilian capabilities in Afghanistan. By 
January of next year here in about a 7-week time frame, if you 
look back over the last month we will have had a threefold 
increase in our civilian increase in Afghanistan, very 
importantly in support of General McChrystal's efforts, a six-
fold increase in the field. Numbers roughly then that we are 
talking about early next year, January February time frame, we 
will be looking at about 1,000 civilians overall in 
Afghanistan, about 400 of those we project to be out in the 
field.
    It is a very diverse group of civilians. These are 
civilians not only from the Department of State as you know, 
but USAID development specialists, Department of Agriculture 
specialists around the country, members of the Federal Bureau 
of Investigation mentoring and helping establish an Afghan FBI. 
We have brave members of the Drug Enforcement Administration, 
members of the Federal Aviation Administration, a really 
impressive array.
    We have had innovations over the course of the past 6 
months in which the way that we organize our civilian efforts 
and multiply the effects of wherever they are through hiring 
Afghans and then through those Afghan organizations amplifying 
the effects, we have very close collaboration with General 
McChrystal in the integration of these efforts. Projecting 
ahead, Congressman, we are set to build to 1,000. Right now we 
are in discussions with the Department about what additional 
capabilities and numbers will we need on the ground, that is 
also in collaboration with General McChrystal understanding his 
campaign so we can support that. I don't have an exact number 
for what we will grow to, but it might be on the order of 
needing several hundred more over the course of the next 6-9 
months beyond what we have projected currently.
    Mr. Ellison. Well I guess my question is, I mean that is 
very impressive and I thank you for that, and the movement in 
education, girls' education, there are a lot of good stories to 
tell and I thank both of you for that. But as I look at what we 
are trying to arrive at at a civilian number and what we are 
trying to arrive at at a military number, it is like 100 to 1, 
is that the right ratio? I mean shouldn't we have a greater, I 
mean if we are trying to help stabilize the country, harden the 
country so that it is more impervious to, you know, these 
forces that would overthrow the government and hurt the county, 
shouldn't the proportion be a lot greater when it comes to 
civilian representation?
    Ambassador Eikenberry. Representative, numbers are 
important at one level, but you have to look at the effects 
that they are going to be achieving. When we talk about the 
military we talk about mobilizing platoons, companies, 
battalions of 600 to deploy to Afghanistan to achieve effects. 
Remember when we are talking about civilians we are talking 
about individuals, three good Department of Agriculture 
specialists working in the Ministry of Agriculture of 
Afghanistan can help transform that entire ministry and its 
delivery of services, of agricultural services, throughout the 
country. And so, yes numbers matter, but at the end of the day 
it is how do you organize them and what effects are you trying 
to achieve? And if you wish, for the record I can give many 
more examples of that, Congressman.
    Mr. Ellison. Yes, and I would like that, but not now 
because I have got one more question for you. You know, when I 
was in Afghanistan only a few weeks ago, our mission as part of 
the House Democratic Partnership Commission, was to interact 
with our counterparts, other legislators there, and I was 
really impressed with many people I met including several women 
legislators. One of them was from Helmand province, she told 
us, this is what she said. She reported that without the 
intervention of the U.S. Marines she probably couldn't even be 
a member of the Parliament, and I guess my question to you is, 
you know, how is security related to women's rights in 
Afghanistan, in your view?
    Ambassador Eikenberry. Security is a very critical 
dimension of the advancement of women's rights in Afghanistan 
certainly. There are many other factors, but security is 
fundamental.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Illinois, Mr. Manzullo, is recognized 
for 5 minutes.
    Mr. Manzullo. Thank you, Mr. Chairman. During the last 3 
months the current prosecutor for the International Criminal 
Court has been making public statements that he has 
jurisdiction over alleged war crimes and crimes against 
humanity in Afghanistan and is performing a ``preliminary 
investigation into operations by U.S. and other NATO forces.'' 
This could lead to ICC prosecution of American soldiers even 
though the United States has never ratified their own statute.
    Among other things he has declined to rule out ICC 
prosecutions based upon unmanned drone strikes against leaders 
there in Afghanistan. However, this administration has been 
moving the United States closer to International Criminal 
Court, the Secretary of State has expressed great regret we are 
not a signatory to the Rome statute, and last month for the 
first time since their own statute entered into force the 
administration sent a delegation to participate in a meeting of 
the ICC assembly of parties. It is my understanding that the 
U.S. ambassador at large for war crimes, Ambassador Rapp, was 
at the meeting, said nothing to protest or dispute the ICC's 
prosecutorial jurisdictional claims.
    We understand that there is an Article 98 agreement with 
Afghanistan that exempts Afghanistan as signatory to the Rome 
agreement from turning our troops over to the International 
Criminal Court, however the soldiers there in member states 
such as Japan, Germany, and even the U.K. may be subject to 
jurisdiction. I would like to hear your opinions on whether you 
agree or disagree with the ICC's prosecutorial claim of 
potential jurisdiction to prosecute U.S. and NATO troops over 
actions taken in Afghanistan.
    Ambassador Eikenberry. Congressman, let me just speak from 
a United States perspective. We do have a bilateral agreement 
with Afghanistan, Article 98, as we do with certain other 
states that are parties to the ICC, and this precludes the 
Afghan Government from surrendering U.S. troops to the ICC. The 
bottom line is here, and the important bottom line is, our 
troops are protected from being turned over to the ICC, a 
commitment of this administration.
    Mr. Manzullo. While they are in Afghanistan. What if they 
are in other countries that are not signatories to an Article 
98 agreement but the countries themselves are signatories to 
the Rome agreement?
    Ambassador Eikenberry. Let me get back for the record on 
that important question, Congressman, I know it is a 
complicated legal issue.
    Mr. Manzullo. General McChrystal, do you have an opinion on 
that? I mean I think we need a definitive answer because young 
men and women are being asked to go overseas to Afghanistan to 
engage in combat, they need to know whether or not they can be 
arrested in countries that are signatories to the Rome 
agreement.
    General McChrystal. Congressman, I absolutely agree we need 
clarity. I would like to along with Ambassador Eikenberry take 
this for the record to ensure we get you an accurate answer.
    Mr. Manzullo. Well I had hoped that we would have it today. 
I mean we are concerned about the prosecution of the Navy 
SEALs. A lot of people contacted us, they don't think the 
military is standing behind the young men and women in uniform, 
they don't think that because some terrorist got punched out 
that they should be subjected to a court-martial that is taking 
place in this country. I would like the assurance of both of 
you that if there is no clarity on this that we will have 
clarity, especially in light of the fact that the Secretary of 
State is expressing regret that we are not a party to the Rome 
agreement. Ambassador, both of you, are you on record as saying 
that you are absolutely opposed under any circumstances to men 
and women in uniform being arrested anywhere in the world and 
tried before the ICC court as a result of their actions in 
either Iraq or Afghanistan?
    Ambassador Eikenberry. Congressman, yes. And we will get 
back with you for the record on the very specifics of what you 
are talking about.
    Mr. Manzullo. And, General, your answer would be yes also?
    General McChrystal. Same position, Congressman.
    Mr. Manzullo. Thank you. I yield back.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Florida, Mr. Klein, is recognized for 5 
minutes.
    Mr. Klein. Thank you very much, gentlemen. Thank you for 
being with us today and thank you for your service to our 
country, difficult challenges and we appreciate you taking 
these challenges on. General McChrystal, this week when you 
testified before the Armed Services Committee, you explained 
that the Taliban may react to the arrival of reinforcements 
with a shift of asymmetrical tactics, suicide bombers, 
increased use of improvised explosive devices, strategies other 
than traditional large scale operations. Can you share with us 
what are we doing to prepare our troops who are already there 
to confront these types of asymmetrical threats and what are we 
doing to get the Afghan military to prevent these as well?
    General McChrystal. Congressman, on the direct tactical end 
we are doing extensive training on combating improvised 
explosive devices. We are using a number of technical means 
from engineer equipment to intelligence surveillance and 
reconnaissance, drones and what not looking, we are using human 
intelligence as well. So we are doing the tactical things to 
try to combat the problem as it already arises. I think more 
widely the real way to get rid of things like IEDs is to secure 
an area.
    When you secure an area it is like reducing crime in a 
neighborhood, rather than trying to stop each crime you can 
increase overall security, and so what that does is the 
population becomes intolerant of IEDs because they suffer the 
most casualties from IEDs, civilians do. So we are working in 
that way to improve. Our partnership with the Afghans is the 
same; we are trying to provide them equipment and training as 
well so they have the same expertise. Again, suicide bombers, 
it is mostly intelligence, sir.
    Mr. Klein. Okay, and as a follow up, I think that one of 
the discussion points that many people are raising about the 
whole effort and the tactic and strategy is whether there is a 
different way to do this, which would be to continue with 
success to train the Afghan military, we know the police 
continues to be more complicated and a lot more effort, but 
continue to build the quantities of players there, and then use 
our military in a tactical way, special force tactical way to 
go after al-Qaeda where they are in those areas.
    And of course this lends itself to the question of these 
organizations do not respect national boundaries, we understand 
that and the discussion has been Pakistan Afghanistan, but also 
they can also be more nimble and they can pick up from one area 
and go to another area, Yemen, Somalia, other weak states if 
you will. What is to stop them and what are we doing tactically 
within the territory that we are talking about here to prevent 
them from going to other areas and how do you assess those 
threats of those other areas as being hospitable if we have 
success in eliminating them from Afghanistan?
    General McChrystal. Congressman, terrorists and insurgents 
do best in under governed or ungoverned areas. They thrive on 
that and they don't survive in areas that have effective rule 
of law and governance. So what we are trying to do inside 
Afghanistan is create first areas of security into which we can 
fill that vacuum with effective governance development hope for 
the Afghan people so that it becomes more durable. When you 
talk about outside Afghanistan, the same thing applies.
    We see terrorists moving to places like Somalia, Yemen, 
where there is less effective governance. I think our best way 
forward is to partner with those nations to try to increase 
governance. We still need to complement that as we do in 
Afghanistan with precision strikes. So you can't allow leaders 
or sanctuaries to emerge, so you have got to keep them under 
pressure as you do these other things. So the thing about 
counterinsurgency or counterterrorism, because there are a lot 
of similarities, is there is no single answer. It is security, 
governance, development, precision strike force.
    Mr. Klein. And I agree with that. I think that those people 
who are questioning in our communities back home about the 
effectiveness of the strategy in Afghanistan, also recognizing 
the threat of the Taliban's influence and the nuclear issue 
which is extremely important and is obviously part of the whole 
strategy here, is this question about, you don't necessarily 
need a whole nation state for al-Qaeda to operate in. I mean 
this notion of, it is all about Afghanistan or all about Iraq, 
you know, they need territory but it doesn't have to be large, 
it could be square miles, to train and to do some of the 
things, and they can very easily move to another place even if 
we were 100 percent successful in Afghanistan. So how do we 
respond to that notion, other than the nuclear issue, which is 
important, how do we respond to that notion of them picking up 
and going to other places and stopping them from doing that?
    General McChrystal. Sir, the best way is very extensive 
intelligence sharing with all our partners and then staying 
after them. It is like following a criminal gang around.
    Mr. Klein. Ambassador, do you have any other thought on 
that?
    Ambassador Eikenberry. No, I share General McChrystal's 
assessment on that. It is a comprehensive diplomatic 
intelligence and military approach that is needed to defeat 
this network.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from New Jersey, Mr. Smith, is recognized for 
5 minutes.
    Mr. Smith. Thank you very much, Mr. Chairman, and thank you 
both for your extraordinary leadership and for your 
extraordinary service. Let me just ask a few questions. Number 
one, the Iraq surge of 2007 deployed, as we know, 20,000 combat 
troops, extended the tour of 4,000 Marines already in Iraq, and 
constituted intervention to help the Iraqis clear and secure 
neighborhoods, to help them protect the local population, and 
to help ensure that Iraqi forces left behind were capable of 
providing security.
    Notwithstanding Senator Reid's infamous statement that the 
war is lost and that the surge is not accomplishing anything, 
stated back in April of '07, the surge did create space for a 
political solution and reconciliation. My question would be, 
did the success of the Iraqi surge inspire the Afghan surge? 
What lessons learned from that surge, pro and con, were 
incorporated into the new beefed up troop deployment?
    Secondly, I agree that we need an exit strategy, but 
shouldn't it have been kept secret? Why announce it to the 
Taliban so they can craft and employ strategies, especially 
after redeployment begins some 18 months from now? And did 
either of you recommend that it be kept secret or go public? 
Third, what is Iran's role in Afghanistan today, including 
EFPs? Is it increasing, diminishing, or staying the same, and 
what are we doing about it? And fourth, is it true that the 
primary source of funding for the Taliban is no longer the 
opium trade but foreign donations from the Persian Gulf 
countries and others? What is our counter-threat finance 
strategy for Afghanistan?
    General McChrystal. Congressman, I will start on those, 
starting with the last first. We think that the funding for the 
Taliban is probably about evenly split between external 
donations, narco related raising, and then money that they can 
raise from kidnapping and other things inside both Afghanistan 
and Pakistan. Neither the loss of one of those three would stop 
them from operating, they don't cost a lot and we think they 
could make out. But we do have an extensive counter-finance 
task force that focuses on this and tries to reduce that. So I 
think we are focused pretty hard on it.
    Sir, back to the first one on the surge, Iraq is very 
different from Afghanistan, but it is clear that we were 
informed by the experience in Iraq, and I was having spent so 
much time there, into the situation in Afghanistan. What I 
learned in Iraq that I think is applicable is that you must 
have an approach that is both counterinsurgency and includes 
counterterrorist capacity in it, and then of course the 
counterinsurgency has to be holistic. The governance and 
development parts, Ambassador Eikenberry's team has got to be 
shoulder to shoulder with us as we go forward, and I think we 
are pulling all of that together here. We were late doing it in 
Iraq, I think that we are doing that now here, and I think it 
postures us well.
    And just last point, on the time line on July 2011, the key 
point for me is the President and the Secretary's very public 
pronouncement of long term strategic partnership for 
Afghanistan. I think that changes everything, I think that 
gives the Afghans and the insurgents, the Afghans hope and the 
insurgents a lack of hope because there is not going to be 
daylight in the long term. And I would turn it over to Karl.
    Ambassador Eikenberry. Two quick points, thanks, 
Congressman. First of all on the threat financing, we have a 
very integrated, robust effort both within Afghanistan and 
outside of Afghanistan to look at the challenge of Afghanistan, 
Pakistan, and beyond, which is an integrated effort, which 
includes our intelligence agencies, Department of Treasury, our 
military diplomatic efforts. I also want to highlight that 
within Afghanistan itself our Department of Treasury agents on 
the ground are actually building within the Afghan Ministry of 
Finance and within their central bank their own independent 
threat finance capability, we are mentoring with them and they 
are starting to get some impressive results.
    Secondly, with regard to the emphasis that you placed on 
the date, the July 2011, the transition date, I am absolutely 
aligned with General McChrystal in how we look at this. 
Afghanistan, they have a lot of insecurity based upon their 
history, their people are insecure people based upon their 
history, based upon other nations withdrawing their support 
from them over time, they live in a very uncertain 
neighborhood. So they have an ambivalence about the long term 
presence of the United States, they want us here in Afghanistan 
because of that insecurity, but increasingly they want to stand 
up and take charge of their own security.
    That was reflected in President Karzai's inauguration 
speech where his own aspirations over the next 5 years for 
Afghanistan to stand up and be in charge of its own security 
with their army and police. So that 2011, I agree with General 
McChrystal, it is a very good forcing function kind of date to 
get the Afghans moving forward, and President Karzai has shown 
his support for that date publicly.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from North Carolina, Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman. We have now set 
ambitious goals for training and equipping Afghan army and 
police forces, but the Karzai government by anyone's estimation 
remains a very weak government. You said earlier much of 
Afghanistan is ungoverned still. Having a weak government and a 
strong military frequently leads to unhappy results in many 
parts of the world. We have also had at best mixed success in 
trying to build a military as a unifying national institution 
in nations that don't have a strong national identity.
    We tried to do that in Iraq, and it appeared that we 
effectively armed and equipped every side in the sectarian 
civil war. The cell phone video of the execution of Sadam 
Hussein and the taunting by the Shi'a military but obviously 
also members of the Shi'a militia that was more loyal to 
Muqtada al-Sadr, did us great damage. It created the impression 
that that was a sectarian revenge killing, not the execution of 
justice in a society with a legitimate rule of law. What is the 
desertion rate now, where are those folks going, how are we 
going to make sure that the military we build is not going to 
dominate the government, and how are we making sure that we are 
not training and equipping the forces that will be fighting for 
warlords in a short time?
    General McChrystal. I think that it is important that I 
start with the fact that one of the things Afghans fear most is 
militias and warlords. There will be security forces that form 
in Afghanistan whether we form them or not. They will form in 
their own defense, and I think that it is important we form a 
national army and national police capacity, a recognized 
legitimate defense security apparatus, or the vacuum will be 
filled by exactly what the Afghans fear, which is a return to 
strong militias that in many cases are ethnically based and 
rose with the departure of the Soviets.
    I think that there is an absolute national identity in 
Afghanistan. They don't expect the same things from their 
central government that many Western nations do, they expect 
less. But they do have an absolute sense of being Afghans 
before they are any other ethnic or local identity. They take 
huge pride in the Afghan national army even though it is still 
a developing entity, they would like to be secured.
    And when I talk to Afghan elders, they thank us for being 
there and then they always say, we would like to be secured by 
the Afghan national army, we are proud of them, but we will 
welcome you just until they are strong enough to do it. So I 
think that rather than being a threat to the Government of 
Afghanistan, I think it is a major source of credibility as 
they go forward. Now clearly it has to stay under civilian 
control, and I have seen no indications that that is not likely 
to be the situation. I would ask Ambassador Eikenberry to jump 
in.
    Ambassador Eikenberry. Thanks, Congressman. My views are 
the same as General McChrystal on this. The Afghan national 
army was established on first principles of being all ethnic 
and all national, and indeed it is. It is a symbol of pride for 
the Afghan people, it is a sign of hope that this country after 
30 years of warfare and fighting can come together, the Afghan 
national army is a manifestation of that. Secondly, the 
principles upon which the Afghan national army were established 
were good principles inspired by us, and that was that this 
military would be under civilian control, it would respect the 
rule of law, respect the people. I believe very much that those 
principles are still in place.
    Mr. Miller. What is the desertion rate? I have heard it is 
25 percent. What is the desertion rate?
    General McChrystal. Congressman, I will get you that for 
the record, it is not that high. One of the things about 
desertion is, many of the young Afghans who enlist in the army 
go home because there is not yet a good leave policy 
established. There is also we are still working through issues 
of how they are paid, electronic pay is clearly the wave of the 
future, but in many cases they go home to take pay or to see 
family, great sense of family there. So it is something, and a 
significant percentage come back. So it is a significant 
problem, I don't want you to believe that it is not, but it is 
something that is less clear than it might be in another army.
    Mr. Miller. I will take the cue from my colleagues and 
yield back to curry favor with the chairman.
    Chairman Berman. I thank the gentleman. We have had a 
little misunderstanding. My intention always was that every 
member gets to ask questions alternating between Democrat and 
Republican. We are now at the point, treating these two 
hearings as one, where every member of the Republican 
Conference on the committee who is here has had a chance to ask 
a question, a number of Democrats have not yet had to. It was 
my intention to proceed so that everyone gets to have time 
before we go back to alternating, but we did not make that 
clear with the minority.
    So the compromise I would propose is we alternate but those 
who have asked a question get 1 minute for a statement and then 
we go back to the others. In the future it would be the intent 
that these rights are individual more than group and that every 
member should get a chance to question before we go back to the 
alternating. And at this point I will recognize the ranking 
member for 1 minute.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. I would 
like to yield my minute, and he can add his own minute, to Mr. 
Burton of Indiana. Thank you, Mr. Chairman.
    Chairman Berman. The gentleman is recognized for 2 minutes.
    Mr. Burton. Thank you, Mr. Chairman. There was a question 
asked a while ago about the international court, and both of 
the witnesses said that they would get back to us on that. 
There is a story I want to talk about that they wrote a book 
about. Have you heard of Petty Officer Marcus Luttrell, have 
you heard of him? He was on a mission, and they were supposed 
to kill an al-Qaeda leader, and they went up there and they ran 
into two people and a boy. And they couldn't decide whether 
they should kill them or not because they were afraid they 
would alert the Taliban to their mission and that they would 
all be killed.
    Well they decided after an argument, Luttrell said, ``Okay, 
we will let them go because we trust them, they won't say 
anything.'' Fifteen minutes later 200 of the Taliban came 
across, and al-Qaeda I guess, came across, killed him, killed 
his partners, and left him for dead. Sixteen Navy SEALs, other 
Navy SEALs, came in a helicopter; they shot them down when they 
came to rescue them, and killed all 16.
    Now we have got these three Navy SEALs that are on trial 
right now. How do you say to these troops who were sent on a 
mission out there to kill an al-Qaeda leader what they should 
do? Should they have killed those three people? Should they 
have shot them right on the spot so they wouldn't alert the 
enemy that they were coming over the hill? And if they had, 
would they have gone to the international court? Would they 
have been court-martialed by the United States?
    And here we are court-martialing three guys who in 
Operation Amber attacked one of the leaders and arrested him, 
turned him over to the Iraqi military, they turned him back 
over, they said he smacked him in the mouth and they hit him in 
the stomach and you are court-martialing, it makes no sense. 
And you are the General in charge and you are the Ambassador 
over there, and I talked to the chairman of the Joint Chiefs 
the other day, I just do not understand why somebody doesn't 
say, this is bologna.
    Chairman Berman. The time of the gentleman has expired.
    The gentlelady from California, Ambassador Watson, is 
recognized for 5 minutes.
    Ms. Watson. I want to thank our two witnesses for the 
service to our country and the image that you serve to fill 
abroad. I want to thank you for your experience and wish you 
well. Now my question goes to the Afghans. In the 8 years that 
we have been involved and more, what is it that is lacking in 
their government and their experience and their commitment to 
their own where they could not train their people to stand up 
and defend their own country? Let me start with the Ambassador 
first.
    Ambassador Eikenberry. Well, Congressman, first there has 
been as we said extraordinary progress that has been made.
    Ms. Watson. Hold. How many years has it been and how many 
years will it take to train them? You see, I am looking ahead 
too, that is why I ask this question, and I am looking at our 
financial commitment to be there at a time of growing deficit, 
you know, how long do we have to commit for them to bring their 
defense force up where they can protect their own country?
    Ambassador Eikenberry. Well, Congressman, let me turn to 
General McChrystal for the specifics, but the President's 
strategy is very clear in that regard.
    Ms. Watson. No, I want you to tell me from your experience 
what is it with the Afghans where they don't seem to be able to 
succeed on their own.
    Ambassador Eikenberry. Congresswoman, they are succeeding, 
they have had great success.
    Ms. Watson. Then why do we have to have additional forces?
    Ambassador Eikenberry. Well the context over the last 8 
years, Congresswoman, is this mission over the last 8 years 
until recently has never received the adequate resources that 
have been needed.
    Ms. Watson. I am not talking about our resources, I am 
talking about their own.
    Ambassador Eikenberry. Congresswoman, starting where they 
were in 2001 and 2002, we are talking about a country that had 
been at war for 30 years, two generations of Afghans without 
education, we are talking about----
    Ms. Watson. Okay, let me stop you there because I am 
watching my time. General McChrystal, you have asked for 
additional forces to go in. We are giving a great deal, the 
life of our military, our finances, to a country that operates 
based on war, and they can't seem to bring their people to a 
point where they can defend their own nation. We are shedding 
blood, limbs, and building a tremendous deficit that will 
probably never be closed in my lifetime. What is the element 
that is missing among their own people?
    General McChrystal. Congressman, I agree with Ambassador 
Eikenberry, this was a society literally torn apart for 30 
years, the tribal parts of society, the governance. And they 
die at a higher rate than coalition forces now.
    Ms. Watson. I would hope. You know, why do we have to be 
the international police? And that is what I don't get. With 
Iraq, and now with Afghanistan, maybe Pakistan, maybe Iran. But 
there is something in their psyche, and what I think is 
happening is that we are fighting an ideology rather than at 
the end of a gun kind of thing. And I don't know, if we knock 
out every Taliban village and kill them all, if that ideology 
doesn't continue among the Taliban and spread in the area. I 
don't know how we identify them as they go over their boundary 
lines into other areas. Are we having to maintain a force there 
in perpetuity, General?
    General McChrystal. I don't believe we will. I do think we 
need to have a strategic partnership to reassure the Afghan 
people, but they want to defend themselves. What they want is 
time and space and opportunity to build their nation.
    Ms. Watson. Well, and I am going to give you back my time, 
Mr. Chairman, I don't see any end to it. If we are going to put 
our people on the front line and put the resources behind, why 
would they put up, you know? I just think there is a lack 
somewhere in their ideology that, you know, we need you to help 
us defend ourselves. And so I would rather invest the money 
elsewhere than there. I yield back.
    Chairman Berman. The time of the gentlelady has expired.
    The gentleman from California, Mr. Rohrabacher, is 
recognized for 1 minute.
    Mr. Rohrabacher. Thank you. And, Mr. Chairman, let me just 
note for the record that I am very disturbed with a policy that 
has ended up with giving me 1 minute to express my opinions and 
to ask questions at this very important hearing considering my 
background on Afghanistan. So I am sorry, I apologize to the 
two witnesses, I am going to say some things and I just have to 
say it quickly. Number one, 30,000 troops, more troops in 
Afghanistan means $30 billion more a year.
    My experience in Afghanistan tells me for a small portion 
of that we could buy the allegiance, we could earn the good 
will through payments to tribal leaders and village leaders 
throughout that country without putting anybody at risk. Number 
one, I would like your reaction to that. Number two, General, 
your statements about Afghans fearing their militias is 
disturbing to me, dramatically disturbing. Militias there are 
nothing more than all the male children in their villages.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Virginia is recognized for 5 minutes.
    Mr. Connolly. I thank the chairman, and want to welcome 
both the Ambassador and the General to this committee, and 
indicate that at least speaking for this Democrat, I am 
generally supportive of the policy that is emerging from the 
White House. And after your deliberations, having been to 
Afghanistan, I believe that there are large swaths of the 
country that are not sufficiently secure and that the 
introduction of additional troops actually could make a 
dispositive difference. I don't believe this is like Vietnam, 
and I think our new President deserves the benefit of the doubt 
at least at this time in history.
    Having said that, the policy deliberations were a little 
unusual. General McChrystal, a paper you wrote got leaked in 
advance of the President convening formal review and 
deliberations. And, Ambassador Eikenberry, your memo, or in the 
old days we would have called it telegram, also got leaked. And 
they represented seemingly very different points of view. And I 
just wonder if each of you might comment on what you think 
about, you know, developing foreign policy by, you know, 
leaking and counter-leaking, and what you think, you know, we 
should learn from that experience.
    Ambassador Eikenberry. Thanks, Congressman, I will go 
first. The review that the President led was an extraordinary 
review. It was a very open, it was a deliberative process, 
everyone that participated was encouraged freely to provide 
their analysis and their best advice. We did that in a variety 
of ways, through video teleconferences, face to face meetings, 
and in writing. The leaks that occurred are absolutely 
regrettable.
    Now, against that, my own views, during this process I want 
to emphasize, Congressman, at no time did I ever oppose 
additional troops being sent to Afghanistan, indeed I fully 
shared and share General McChrystal's security assessment. As 
he had written and is his analysis, security in parts of the 
country were deteriorating, security situation is serious today 
in many parts of the country. Against that, the only way then 
to move forward with regard to troops is additional troops are 
needed to deal with those security issues.
    Mr. Connolly. Ambassador, I am going to come back to you on 
part two here about governance, I take your point. General 
McChrystal, did you want to respond?
    General McChrystal. I would, I agree with Ambassador 
Eikenberry. The leaks made our job harder. The difference 
between our views is really not very large at all, but selected 
leaks made it look like they were. We were shoulder to shoulder 
on this thing throughout, and I absolutely regret the leaks.
    Mr. Connolly. Okay, thank you. Let me go back then to I 
think where you were headed, Mr. Ambassador and General 
McChrystal, you also talked about, you know, the desire of 
Afghans is essentially to have some kind of government that 
functions in a particular way that protects the security. Mr. 
Ambassador, you expressed some skepticism about the current 
circumstances being able to meet even that kind of threshold. I 
want to give you both an opportunity to talk about, because 
some of the skepticism up here is, we are backing a government 
that is seen as frankly organized thuggery, it is corrupt, it 
doesn't deliver services efficiently, and frankly the Taliban 
unfortunately is an effective alternative. I would like your 
comments.
    Ambassador Eikenberry. We both share the importance of the 
need for a legitimate government respected by its people, 
credible. We have two challenges on the civilian side, the 
Afghans have two challenges. One is at the national level, the 
establishment of national level governance. There, Congressman, 
we do really have a lot to build upon, there are good 
functioning ministries, they need more capacity. We think our 
programs that we have moving forward are well focused.
    Our greater challenge, though, is at the local level, the 
areas where General McChrystal's forces and the Afghan national 
army right now are dealing with these areas of insecurity out 
in some of the provinces, especially in the east and the south. 
We are working closely with the Afghan Government and our 
military to try to develop the right kind of combinations of 
service delivery and governance that as security is brought to 
a provincial area or to a district, that shortly behind that 
government can start to take hold, service delivery can take 
hold, and you start to have credible governance. I don't want 
to underestimate though the challenge that we are facing in 
this second category. Last point, Congressman, President 
Karzai's inauguration address that he gave several weeks ago, 
it does show some promise. Of we are waiting for action now.
    Mr. Connolly. General, you get 12 seconds.
    General McChrystal. I agree with Ambassador Eikenberry, 
sir.
    Mr. Connolly. Thank you, and I yield back.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from California, Mr. Royce, has been 
recognized for 1 minute.
    Mr. Royce. Thank you, General. I want to second my 
colleague's concern about the treatment of the three Navy SEALs 
now facing the court-martial for actions taken while 
apprehending a terrorist who cost the lives of four American 
security guards. Court-martial is very serious business, I 
don't think it had to be this way, and I would like to ask what 
alternative actions might still be taken in place of a court-
martial, informal councils, formal councils, non-punitive 
letter of reprimand.
    Now the point I want to make is that there is ways of 
dealing with this issue, assuming there is an issue here at 
all, far short of a court-martial. And second, if acquitted, 
General, will these SEALs be given the opportunity to be 
restored to full fitness and duty, will their careers be spared 
a black mark which has a very harmful effect on morale?
    General McChrystal. Congressman, that incident happened in 
Iraq, so appropriately I don't have the details of the 
incident, nor do I have any responsibility and it would be 
inappropriate for me to talk about that case. I do believe, 
however, that the chain of command in the process has been 
extraordinarily good across the Services in providing fair 
hearings for people.
    Chairman Berman. The time of the gentleman has expired.
    The gentlelady from California, Ms. Woolsey, is recognized 
for 5 minutes.
    Ms. Woolsey. Thank you, Mr. Chairman. Terrorists and 
terrorism thrives in poor economies, in futures where the 
citizens consider their future hopeless, where there is lack of 
infrastructure, education, healthcare, roads and sewer systems. 
And terrorism thrives in areas where the citizens believe that 
they are being occupied by outside forces. I am concerned about 
the lack of focus on the civilian surge in this regard, because 
I think that is the balance to what being an occupier requires.
    In his speech at West Point, the President dedicated most 
of his time to military might, and he just only once mentioned 
the civilian side of the equation. And so, you know, you both 
have said and other leaders in the military and throughout the 
diplomatic corps really agree, that one major way to secure 
stability is through the use of smart security where we win the 
hearts and the minds of the civilians, and we are talking about 
Afghanistan right now of course.
    So I ask you, what resources are currently being dedicated, 
you said a little bit about that, to smart security? And in the 
years to come, here is the main question, what additional 
resources do you need? How will the administration promote this 
smart approach over a military solution? And will a smart 
approach ever be able to win over military? Start with you, Mr. 
Ambassador.
    Ambassador Eikenberry. Congresswoman, the President's 
strategy has been clear that the military effort is a necessary 
effort, it is not a sufficient effort. Ultimately, the need for 
good governance to be established in Afghanistan, for economy 
that allows Afghanistan to have a sustainable country all 
important. I do believe that the President's strategy and this 
way we are going about now, the implementation, does address 
the essential government services that are needed, the 
essential pieces of the economy. Again, I will just quickly 
mention agriculture. We see the absolute need for agriculture 
to help improve security, to help improve the economy, that is 
where our emphasis is.
    Ms. Woolsey. Okay, let me just interrupt a minute, because 
you did say this and I really respected it, but tell us where 
our civilian surge will come. Of course we want the Afghani 
civilians to do all this and we need to help them. How will our 
civilians help and how many?
    Ambassador Eikenberry. Congresswoman, the civilian surge 
has been ongoing, we are soon to triple our presence over the 
ground in the past year. So the surge is not something that we 
are ready to launch. We are going to add to our capabilities on 
the ground. Our areas of emphasis are in the areas focused on 
what is necessary in the economy, in the areas of agriculture, 
we are focused in the key areas of government and helping the 
Afghans develop further rule of law, law enforcement, we are 
focused in the financial sector helping the Afghans to develop 
the capability for more revenue collection, critical if it is 
going to be a sustaining economy, sustaining government.
    Ms. Woolsey. Well let me interrupt 1 more minute because we 
only get a little bit of time. We know we are sending 30,000 
troops. Are we talking about a tripling of the surge from one 
to three people or from 100 to 300, 1,000 to 3,000? I mean give 
us some idea of what we are talking about.
    Ambassador Eikenberry. Congresswoman, at the start of this 
year, before the President announced his strategy in March, 
reflecting the under-resourcing of Afghanistan, we had a little 
over 300 civilians in Afghanistan. At the end of January of 
next year we will have 1,000 and we are continuing to grow 
beyond that. It is an impressive gain<greek-l>s deg. that we 
are making, and it is an all-government effort. Department of 
Treasury is on the ground, the Department of Agriculture, the 
Drug Enforcement Administration, Federal Aviation 
Administration, the Department of State, USAID, this is truly 
an impressive effort.
    Ms. Woolsey. General?
    General McChrystal. The one point I would make, because I 
agree with Ambassador Eikenberry, when you talk about military 
it may not look like what you traditionally think. We have got 
military partnered with his who are out doing agricultural 
development, helping with governance, enabling the civilian 
expertise. And so I think it is key that we understand we are 
really trying to do this with every part of our capacity that 
we have.
    Ms. Woolsey. Thank you very much.
    Chairman Berman. The time of the gentlelady has expired.
    The gentleman from Nebraska, Mr. Fortenberry, is recognized 
for 1 minute.
    Mr. Fortenberry. Thank you, Mr. Chairman, and thank you, 
gentlemen, for appearing today. Mr. Ambassador, I appreciate 
your emphasis on agricultural development, the Nebraska 
National Guard has helped lead some of this and I think that is 
noteworthy. Before my question, I want you all to succeed, the 
gravity of the downside to not succeeding is very apparent. 
With that said, Mr. Ambassador, and this was touched upon a 
moment ago, your cable to President Obama a month ago was 
decidedly pessimistic about Afghanistan's governance capacity 
as well as the potential for success of our military efforts. 
What changed?
    Ambassador Eikenberry. I wouldn't characterize my views 
ever as decidedly pessimistic concerns express. With the 
President's decision, we have a refined mission, we have 
clarity at this point now with what means we are going to use 
to move forward, resources appropriately matched against that, 
and you have got with a proper combination of ends, ways, and 
means, I am confident now as we move forward, Congressman.
    Mr. Fortenberry. Thank you.
    Chairman Berman. The time of the gentleman has expired. The 
gentlelady from Texas, Ms. Sheila Jackson Lee is recognized for 
5 minutes.
    Ms. Jackson Lee. Thank you, Mr. Chairman, and thank you for 
convening this hearing and the way that you have done it, you 
have been true to your word and I appreciate your leadership. 
Let me thank both of these distinguished public servants. I had 
the chance to greet them and I want to thank them again for 
their service, and it was good to see both of you in uniform 
today, Amabassador, you are not. It was good to see you, 
General, in Iraq, and of course you know that I have visited 
Afghanistan. Today the President received the Nobel Peace 
Prize, and I salute him and believe in him that he is a man of 
peace.
    He defined for those esteemed audience members a question 
of a just war. But let me quickly say to you that I believe 
that we have a major dilemma, and I would call for as I speak, 
right now, an immediate beginning of negotiations to end this 
conflict, and that would be the only way that I could concede 
the possibility of any troops being added to Afghanistan, and I 
will tell you why. I would like to submit into the record very 
quickly, Mr. Chairman, an article by Jonathan Godomi, ``Lessons 
from the Soviet Occupation in Afghanistan to the United States 
and NATO,'' I ask unanimous consent.
    [The information referred to is not reprinted here but is 
available in committee records.]
    Ms. Jackson Lee. Let me indicate what was that came out of 
that article which is so true, the Afghan Government urgently 
needed to establish legitimacy, ethnic tensions were 
underestimated, Afghans were highly intolerant of foreign troop 
occupation, and a military solution was proven not sufficient. 
The Vietnam War in 1966 saw 200,000 troops committed to 
Vietnam, and at the peak of the war, 543,000 with 53,000 of our 
treasure lost. General, the CIA has indicated that Afghanistan 
is 4,000 feet up in the air, versus Iraq that is flat. You 
asked for 40,000 troops, you got 30,000. What is your 
commitment to protect troops as they travel up into those 
mountains and to save lives?
    General McChrystal. My commitment is absolute. Our rules of 
engagement provide them every responsibility and right to 
defend themselves, we believe that the equipment we are 
providing them is as good as we can, and we will continue to do 
that better, and I will push for every asset we need to protect 
their well being.
    Ms. Jackson Lee. I thank you for that. I think the terrain 
is so difficult it brings to mind the Pat Tillman story that 
opportunities for friendly fire and loss of life are 
heightened. There is a theory of clear, hold, build, and 
transfer. President Karzai today said this week with Secretary 
Gates that it will be 15 years before he can maintain a 
military with his own resources.
    Ambassador, why are we engaged with a country, of which I 
have great appreciation and want to see helped with political 
help and social help and economic help and constitutional help 
and helping to make sure that they treat their women right and 
keep their schools open, how are we going to in essence fight 
against this concept that Afghans do not want foreigners on 
their soil and have a government that says it will take 15-20 
years before they can maintain their own military? That is 15-
20 years that the United States will have to be there guarding 
them. Why can't we go the political and social and economic 
route, Ambassador?
    Ambassador Eikenberry. Congresswoman, the Afghans first and 
foremost, they do want to take control of their own 
sovereignty. We have to appreciate the baseline that they begin 
at and have already articulated that the Afghans though they 
need security right now to help them get the time and space so 
that they can fully take charge, I think we are on a good path 
forward as we see our articulation of this July 2011 time line 
where the Afghans will start to move and take responsibility 
for security, President Karzai clear in his inauguration speech 
about his own goals. But we have to be clear, the Afghans 
beyond that period of time, they are going to need our 
assistance.
    Ms. Jackson Lee. Let me have a quick intervention please, 
if you don't mind. This article says that by the time the 
Soviets realized that only a political solution could end the 
conflict, they had lost the ability to negotiate. Ambassador, 
what is the strategy for going in now and getting the parties 
to sit down and be engaged with Karzai, warlords, Taliban, 
governors, and this very weak government and the United States 
and NATO? Where are we now sitting down and beginning the 
negotiation to hand over the responsibility to the Afghan 
Government? Are we doing that as we speak?
    Ambassador Eikenberry. Well, Congresswoman, we have a very 
clear way ahead right now with the eventual transfer as Afghans 
develop national security force capability, yes we do have a 
clear plan. Politically, President Karzai has made clear again 
in his inauguration speech, he would like to move forward with 
reconciliation and reintegration with Taliban leaders, with 
Taliban fighters, and we are working in support right now of 
the Government of Afghanistan to help achieve those goals.
    Ms. Jackson Lee. He needs to do that now. Thank you, Mr. 
Chairman.
    Chairman Berman. The time of the gentlelady has expired.
    The gentleman from Texas, Mr. McCaul, is recognized for 1 
minute.
    Mr. McCaul. Thank you, Mr. Chairman. Pakistan has always 
been in my view the epicenter of this war on terror, it is 
where al-Qaeda has sought safe haven, Ramzi Yousef, the World 
Trade Center bomber, his uncle Khalid Sheikh Mohammed. The 
history with the Pakistani ISI has not been a good one. They 
tend to side with the extremists, at the same time help us with 
high valued targets. Has this improved, and what do you plan to 
do to work better with the Pakistan intelligence service?
    General McChrystal. Congressman, my official responsibility 
ends at the borders of Afghanistan. We do, however, have a 
close relationship with the Pakistani military so that we build 
up a partnership against the problems on both sides of the 
border. It still has a long way to go. I am absolutely 
committed, like our intelligence agencies are, to improve in 
that so that our shared strategic goals are met.
    Mr. McCaul. Thank you, and what is the influence of Iran in 
Afghanistan right now?
    General McChrystal. It is both positive and negative. There 
are a number of positive things they do economically and 
culturally. There is always the threat that they may bring 
illicit or inappropriate influence in, and we watch for that.
    Mr. McCaul. Thank you, General.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from California, Mr. Costa, is recognized for 
5 minutes.
    Mr. Costa. Thank you very much, Mr. Chairman, again, good 
hearing, it is timely. I thank both of you for your service to 
our country. Mr. Ambassador, a lot has been discussed this 
morning about metrics and milestones, and on the leger of our 
milestones and the Afghan, the Karzai government's milestones 
as we try to achieve these metrics, one of the early I think 
determinations as to whether or not they are achieving them is 
in the naming of his cabinet.
    Defense Minister Wardak I guess is leaving and another 
minister is leaving as well I have heard, and whether or not 
President Karzai is able to turn the page, it seems to me, is 
going to be evident in these early appointments. When will they 
be completed and what is your sense of that process? I mean 
will we be able to determine for example by the end of January 
when he finishes that process how that milestone has been 
achieved?
    Ambassador Eikenberry. Congressman, President Karzai in his 
inauguration speech that was attended by Secretary Clinton, he 
made a commitment in that inauguration speech to the 
appointment of qualified, responsible individuals in his second 
administration.
    Mr. Costa. Right, and proof is in the pudding.
    Ambassador Eikenberry. It is. It is interesting, though, 
Congressman, when he said that he got a spontaneous round of 
applause from the Afghans in attendance, so it is the Afghans 
who have high expectations. Well to answer your specific 
question, we expect his cabinet announcements to be made 
relatively soon within the next several days before the 
Parliament goes on its recess, because these nominees would 
have to be approved by the Parliament.
    Mr. Costa. But we should get a good judgment here very soon 
as it relates to the cabinet selection.
    Ambassador Eikenberry. Yes, and it will be very important.
    Mr. Costa. And then how does that relate then, follow 
through to the governors, some that have been closely 
associated we believe with this narco trade?
    Ambassador Eikenberry. We believe, Congressman, that after 
the initial announcements of cabinet ministers that 
subsequently there will be changes in the governors. 
Congressman, if I could though, I would like to emphasize that 
the cabinet of Afghanistan, President Karzai's cabinet, it has 
got a lot of very well qualified people in it, the Minister of 
Defense, Interior, Finance, Commerce, Agriculture, Education, 
Health, these are world class ministers. They are challenged 
because they don't have the human capital right now given the 
30 years war at they have underneath, but we are making 
progress.
    Mr. Costa. Because of my time I want to shift over here. 
Thank you, Mr. Ambassador. General McChrystal, we talk about 
the army and the police force and the training that is taking 
place there, and I don't want to get into a discussion of 
semantics, but I think that part of this whole effort is akin 
to nation building because you are not going to be able to have 
a solid military or a police force unless you have got the 
credibility and you are relatively corrupt free. Since we are 
now taking over the training especially in the police force, 
and I have been there several times and I have heard all sorts 
of anecdotal stories I won't go into those talks about the 
dismay of our ability to do so, we are taking over the complete 
training of the police force now, is that correct?
    General McChrystal. Well NATO Training Mission Afghanistan 
is part of that, so it is the whole coalition is doing that, 
sir.
    Mr. Costa. Okay, but are these people with police 
backgrounds training the police or is this the military 
training the police, and are we going to end up with a 
paramilitary police force?
    General McChrystal. It is a combination, there are 
policemen that have been hired to do it, there is Jan Cambareet 
from European partners, and then there is some military as 
well.
    Mr. Costa. Ambassador, back to you, on the smart power 
issue, and I have been a big proponent of that and I have 
talked to the Secretary of State about this, we saw about the 
investments of the housing that got involved in corruption and 
$8 million, other anecdotal stories where money has been 
wasted, the housing hasn't been occupied, it has been 
substandard. What efforts are we pursuing to correct those 
kinds of investments and infrastructure, learning from Iraq?
    Ambassador Eikenberry. We have many, let me highlight two. 
First of all, in terms of how we are contracting, we think that 
we are designing contracts in a much better way that improve 
performance and transparency. Secondly, in terms of audit and 
oversight, we have many means for that. I want to emphasize 
that we think the most important is exactly with the United 
States Congress, as you know, you have the special investigator 
for Afghanistan reconstruction which provides oversight for DOD 
and State and USAID efforts. We think that it is a very 
important oversight area.
    Mr. Costa. Quickly, Mr. Ambassador, are you familiar with 
the Abstar Hospital in Kabul?
    Ambassador Eikenberry. Sir, I am not.
    Mr. Costa. Okay, I want to make you aware of that, it is a 
success story that really we have not participated in but the 
Americans have made it happen.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Florida, Mr. Bilirakis, is recognized 
for 1 minute.
    Mr. Bilirakis. Thank you, Mr. Chairman. Thank you, 
gentlemen, for your extraordinary service to our nation. 
General McChrystal, in response to Senator McCain's question 
the other day about the inability to defeat al-Qaeda unless bin 
Laden is captured, did you mean that there would be U.S. 
presence in the theater until bin Laden is captured, and can 
your plan ever fully succeed if bin Laden is not captured?
    General McChrystal. Congressman, thanks for the opportunity 
to expand on that because that was a very short question in a 
long hearing. I believe that al-Qaeda can be defeated overall, 
but I believe it is an ideology and he is an iconic leader. So 
I think to complete the destruction of that organization it 
does mean he needs to be brought to justice, it will be another 
of the steps. However, I don't believe that simply getting him 
ends that organization either, I think it is one step in it.
    Mr. Bilirakis. Thank you. Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired.
    The gentlelady from California, Ms. Lee, is recognized for 
5 minutes.
    Ms. Lee. Thank you, Mr. Chairman, and thank you for this 
hearing also. Let me just say I do very clearly remember your 
saying at the last hearing that those who didn't have the 
opportunity to speak would be in that order of priority today, 
so thank you again very much. I want to welcome and thank our 
witnesses and just say to you that, I have to say as the 
daughter of a military veteran, 25 years, served in World War 
II and Korea, I strongly support our troops, I want to thank 
all of you who are with us today for your sacrifices and your 
service, and my belief that the sacrifices made by our men and 
women in uniform should always be acknowledged and honored.
    Let me just say from the get-go, I think many of you may 
know that I opposed the war in Afghanistan from day one for 
many reasons. But now moving ahead, many of our military 
national security experts agree that the presence of our troop 
continues to fuel the insurgency in Afghanistan and give 
residence to al-Qaeda recruiters around the globe. I also 
happen to believe that, and disagree, respectfully disagree, 
with this overall prior 8-year strategy and the strategy today.
    I was glad to hear you respond, because I was going to ask 
you about Osama bin Laden and if in fact his capture is part of 
the strategy and a benchmark in terms of the success or failure 
of this effort. But let me ask you, how does an increasingly 
expanded and costly role for United States troops in 
Afghanistan serve United States national security interests in 
combating al-Qaeda if it feels anti-American sentiment among 
populations sympathetic to extremist insurgents in Afghanistan 
and Pakistan, Somalia, Yemen, and elsewhere in the world?
    Also let me just say that many have said, and you probably 
disagree but I would like to hear your response to this, to 
complete this mission will require about 400 to 500,000 troops, 
possibly 8-10 years, possibly $1 trillion, do you believe that 
to be the case or not, or why do we hear that so often now? And 
finally let me just say I am extremely concerned about the 
strain on our military members and their families in the face 
of this expanded indefinite commitment in Afghanistan.
    The physical, psychological, and logistical strain in the 
U.S. Armed Forces under the stress of two wars to me seems to 
be untenable. And so just know that we are going to do 
everything here to support our troops and to help them 
transition back, hopefully soon, to life with their families, 
but I am very concerned about the stress and strain it has 
taken. Thank you.
    General McChrystal. Congresswoman, thanks for the support 
for the troops and know how much it is appreciated, 
particularly this time of year. I think to step back, I think 
in terms of our national interest the eventual destruction of 
al-Qaeda is critical, and not just for the U.S. but for the 
world and that region as well. I think the role of Afghanistan 
first is denial of location for al-Qaeda to return to, which I 
believe they would. But I also believe that the Taliban have an 
absolute linkage to al-Qaeda, and for them to resume power even 
over significant areas of Afghanistan would create instability 
in the region, opportunities for al-Qaeda but also wider 
instability that would cause significant problems for the 
world, it would not be localized at that point.
    I believe that it is important that Afghans secure 
Afghanistan. Your point about the concern about foreigners, 
there is an almost antibody-like response in many cultures to 
foreign forces there, and that is understandable. Xenophobia is 
a natural part of any society, even greater in that area. I 
think it is therefore important that we work as hard as we can 
to enable the Afghans to secure themselves, they want to secure 
themselves, they don't want the Taliban there, and they want us 
there only long enough and only in large enough numbers to 
enable them to get there. I wouldn't ask for a single force 
more than we had to have simply to give time and space to get 
the Afghan national security forces.
    Ms. Lee. Sure, but the anti-American sentiment that is 
spurred by this in Pakistan and Yemen and Somalia and other 
parts of the world, I mean you try to nip it in the bud here, 
it pops up somewhere else.
    General McChrystal. It is a danger. I would offer that one 
of the greatest resentments in Afghanistan and Pakistan now is 
their perception that we deserted them in 1989. When the 
Russians pulled out we ended our involvement with them, and 
they believe that we walked away from them. So I think it is a 
balance, I think we need to give as much help as they need to 
get on their feet, and then I think we need to help them stand 
by themselves.
    Chairman Berman. The time of the gentlelady has expired.
    The gentleman from California has graciously agreed to 1 
minute.
    Mr. Gallegly. Thank you, Mr. Chairman.
    Mr. Rohrabacher. Elton is on for 5 minutes.
    Chairman Berman. He is entitled to 5 minutes----
    Mr. Gallegly. I have 1 minute, I have like 52 seconds left. 
I would just like to say, General and Ambassador, thank you for 
your service, I know you face challenges that are in some 
people's views very difficult if not more so from Alexander the 
Great to the Soviet Union, but I appreciate the job you are 
doing and we want to try to give you all the support that we 
can here. As a member of the Intelligence Committee I have a 
little insight about some of the challenges that you have that 
maybe others don't know. But I would like to take my remaining 
time and yield to the gentleman from California, Dana 
Rohrabacher.
    Chairman Berman. 10 seconds.
    Mr. Rohrabacher. Mr. Chairman, it is my understanding that 
those who did not get a chance to ask questions would have 5 
minutes; Mr. Elton Gallegly did not have that chance to ask 
questions.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Tennessee.
    Mr. Rohrabacher. Point of parliamentary inquiry.
    Chairman Berman. State your point.
    Mr. Rohrabacher. Is that point that I just made not 
correct?
    Chairman Berman. Mr. Gallegly was entitled to 5 minutes; 
just listen for a second. I was told he sought 1 minute. I am 
now recognizing the only person left in this committee room 
who, unlike you, has not had a chance to speak yet, the 
gentleman from Tennessee, Mr. Tanner.
    Mr. Rohrabacher. Points of parliamentary inquiry, Mr. 
Chairman, as you know, have precedent over other decisions. 
Point of parliamentary inquiry.
    Chairman Berman. Yes, sir?
    Mr. Rohrabacher. Do you think this has turned out fair?
    Chairman Berman. I think because of you it hasn't. The 
gentleman of Tennessee, 5 minutes.
    Mr. Tanner. Thank you very much, Mr. Chairman. General 
Eikenberry, it is awfully good to see you again, and I remember 
many of our visits to Brussels with the NATO Parliamentary 
Assembly. And, General McChrystal, I appreciate your 
conversation with me on the phone at the last NATO PA meeting. 
I see and am very encouraged by the reaction of the NATO 
parliamentarian members at the last meeting 3 weeks ago in 
Edinburgh, there is a new spirit and a new cooperation I think 
for the first time in several years.
    It is my impression, to use a football analogy, that they 
realize and have no problem with the United States being the 
quarterback of NATO, they would just like to be in the huddle 
when the play is called. And you and I think the administration 
have done a good job of including them in the huddle and it 
makes a tremendous amount of difference, let me say, in the 
attitude and the atmosphere where all of these parliamentarians 
from member nations gather. And as a president of that 
organization for the next year, I want to thank you both for 
doing that. I would encourage you every way you can to always 
speak of this as a coalition led by, and not us going it alone.
    I was on active duty during the Vietnam days, and I saw 
that critical mass of public support that is necessary for a 
prolonged overseas deployment sort of just fritter away, and I 
have been worried that that would be the case in Europe. And we 
have of course some people here with our situation in terms of 
our own economics, but it is important in my judgment to 
maintain this critical mass of public support for the 
coalition. And so anything you all could do, including 
reiterate from time to time that we are not there to westernize 
anybody, we got off the beam in Iraq. Talking about we are 
going to create this western style democracy won't work.
    We are not there to westernize Afghanistan in my view, and 
I think that appeals to the European allies and NATO. We are 
there to enable the Afghani people and their institutions to 
say no to Taliban and al-Qaeda. And that is why we are there 
and if they can do that and we can limit the sphere of 
influence that this poisonous philosophy has and hopefully 
limit it to an area where we can monitor and contain it, 
hopefully it will wither and die like a plant without water. 
Two questions real quick. On the civilian surge, talking with 
some of my colleagues and people who have been there, there 
seems to be a bottleneck on the civilian side with respect to 
getting projects actually on the ground.
    You get people there but they can't get through the maze of 
okays or whatever, I know we were stolen blind in Iraq 
sometimes because we didn't have some protections. But if you 
could really take a close look, both of you, at the 
coordination of the commanders, the SERP money and how that can 
be streamlined with the civilian money and coordinated, I would 
really encourage you to do that because I think that is, both 
of you have said, is a critical part of our success. The other 
thing I would like to talk about is the reintegration, I think 
General Petraeus talked about it yesterday, and I knew him when 
he was at Fort Campbell in our district.
    I think that is down the line maybe a part of it, and I 
would be encouraged to have your insight into what you think 
the chances there are. The state of play in Pakistan of course 
is a large, large part of this particularly if we are going to 
try to contain on the border in some physical manner these bad 
guys so that we can monitor and contain their sphere of 
influence if that is possible. And then finally, is there any 
thinking about what will happen if we pull back into the more 
populated areas in terms of our concentration of troops, how do 
we maintain in the rural areas the security that necessarily 
brings up? I know I have talked about a lot, and it is really 
great seeing you, General Eikenberry.
    Chairman Berman. I think the important questions to be 
unfortunately answered at some other point because our time is 
expired, and we have zero time remaining on the clock on the 
floor.
    The gentleman from Arizona for 1 minute.
    Mr. Flake. I thank the chairman, and I am sorry, this is 
ground that has been ploughed. General Jones less than 2 months 
ago, less than 2 months ago, gave a pretty rosy assessment of 
the situation there, stating that there were fewer than 100 al-
Qaeda members in Afghanistan at present, that there was a 
diminished capability of the Taliban to destabilize the 
government. The question I have is, 18 months from now, will we 
be in a better position than that? Or maybe you disagree with 
the assessment in the first place, but General McChrystal, do 
you have a comment there?
    General McChrystal. I outlined in my initial assessment my 
view of the situation, and I think that it has improved 
slightly since that was published. I think we will be in a much 
better place 18 months from now, Congressman.
    Mr. Flake. All right. Ambassador Eikenberry, any comment 
from you?
    Ambassador Eikenberry. I share General McChrystal's 
assessment there, Congressman.
    Mr. Flake. Thank you.
    Chairman Berman. The time of the gentleman has expired. Our 
prayers are with you for your success. Ambassador, yes?
    Ambassador Eikenberry. I wonder, Congressman, if you would 
give me 1 minute here, just not in response just one point I 
wanted to make for the record with your permission?
    Chairman Berman. I think we owe it to you, sure, 
absolutely. This is not an effort to keep us from voting on the 
floor though is it?
    Ambassador Eikenberry. No it is not.
    Chairman Berman. No, okay.
    Ambassador Eikenberry. Chairman, a lot has been said over 
the course of the morning about the great sacrifice of our men 
and women in uniform and our allies. I also wanted to say for 
the record just emphasize the great sacrifice that our great 
civilian team is making on the ground. On the 13th of October 
we had two civilians, one from USAID, Travis Gardner, 38 years 
old from Nebraska, and Jim Green from the Department of 
Agriculture, 55 years old from Oklahoma, they were in a convoy 
with the United States military in a striker, a unit, their 
convoy was hit by IEDs down in Spin Boldak.
    I always make a point when I learn of that kind of trauma 
that our civilians are facing, giving them a call. I gave them 
a call both that night and asked how they were doing. They said 
they are doing great, and they said that very humbly and with 
great sincerity, we are just doing what we were sent over here 
to be doing. And we couldn't be more proud of our civilian 
force on the ground too.
    Chairman Berman. Yes, our ranking member.
    Ms. Ros-Lehtinen. Thank you, gentlemen, and, Mr. Chairman, 
thank you so much, and some of our members would like to submit 
some questions to our great panelists.
    Chairman Berman. We thank you both very much. Our prayers 
really are with you for the success of these efforts. And with 
that, the hearing is adjourned.
    [Whereupon, at 12:03 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


   Material Submitted for the Hearing Record<greek-l>Notice 12/2 deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes 12/02 deg.___

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Berman 12/2 deg.____

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Boozman statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Faleomavaega statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Bi
                               lirakis 
                               statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Wa
                               tson 
                               statement 
                               12/2 deg._
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Connolly statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Tanner statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Green statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Jackson Lee statement 12/2 deg._

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Klein statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>QFs--Lee deg.__

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>QFRs--Bilirakis deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>QFRs--Jackson Lee deg.__

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>QFRs--Costa deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>---Appendix for 12/10--- 
                               deg.<greek-l>Notice 12/10 deg.___

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Minutes 12/10 deg.___

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Berman 12/10 deg.___

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Paul statement 12/10 deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Watson statement 12/10 deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Wilson statement 12/10 deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Jackson Lee statement 12/10 deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>QFRs--McMahon deg.

                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>QFRs--Ros Lehtinen deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>QFRs--Smith deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
